1a
Case: 19-1994

Document: 57

Page: 1

Filed: 04/08/2020

NOTE: This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________

ALAN STUART, TRUSTEE FOR THE CECIL G.
STUART AND DONNA M. STUART REVOCABLE
LIVING TRUST AGREEMENT, CDS
DEVELOPMENT LLC,
Appellants
v.
RPM INTERNATIONAL, INC., RUST-OLEUM
CORPORATION,
Cross-Appellants
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY
AND DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE,
Intervenor
______________________
2019-1994, 2019-2238
______________________
Appeals from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. IPR201702158.
______________________
ON PETITIONS FOR PANEL REHEARING AND
REHEARING EN BANC
______________________

2a

Case: 19-1994

Document: 57

2

STUART

Page: 2

Filed: 04/08/2020

v. RUST-OLEUM CORPORATION

Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Cross-Appellants RPM International, Inc. and RustOleum Corporation and Intervenor Andrei Iancu separately filed combined petitions for panel rehearing and rehearing en banc. The petitions were referred to the panel
that heard the appeal, and thereafter the petitions for rehearing en banc were referred to the circuit judges who are
in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petitions for panel rehearing are denied.
The petitions for rehearing en banc are denied.
The mandate of the court will issue on April 15, 2020.
FOR THE COURT
April 8, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

3a
Case: 19-1994

Document: 50

Page: 1

Filed: 01/21/2020

NOTE: This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________

ALAN STUART, Trustee for the Cecil G. Stuart and
Donna M. Stuart Revocable Living Trust Agreement, CDS DEVELOPMENT LLC,
Appellants
v.
RPM INTERNATIONAL, INC., RUST-OLEUM
CORPORATION,
Cross-Appellants
ANDREI IANCU, Director, U.S. Patent and Trademark Office,
Intervenor
______________________
2019-1994, -2238
______________________
Appeals from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. IPR201702158.
______________________
ON MOTION
______________________
Before MOORE, O’MALLEY, and STOLL, Circuit Judges.
O’MALLEY, Circuit Judge.

4a

Case: 19-1994

Document: 50

Page: 2

Filed: 01/21/2020

STUART v. RUST-OLEUM CORPORATION

2

ORDER
Appellants move to vacate the final written decision of
the Patent Trial and Appeal Board and remand for further
proceedings in light of Arthrex, Inc. v. Smith & Nephew,
Inc., 941 F.3d 1320 (Fed. Cir. 2019). Cross-Appellants oppose the motion and move for a stay. The Director of the
United States Patent and Trademark Office intervenes and
requests that the court hold any decision on the motion in
abeyance pending en banc consideration of Arthrex.
Upon consideration thereof,
IT IS ORDERED THAT:
(1) The Director of the United States Patent and
Trademark Office is added as an intervenor. The revised
official caption is reflected above.
(2) Appellants’ motion to vacate and remand is
granted. The Patent Trial and Appeal Board’s decision is
vacated, and the case is remanded to the Board for proceedings consistent with this court’s decision in Arthrex.
(3) The motion to stay is denied.
(4) Each side shall bear its own costs.
FOR THE COURT
January 21, 2020
Date
s25

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

5a
Case: 19-1994

Document: 49

Page: 1

Filed: 01/13/2020

No. 19-1994, 19-2238

In the United States Court of Appeals
for the Federal Circuit
ALAN STUART, Trustee for the Cecil G. Stuart and Donna M. Stuart
Revocable Living Trust Agreement, CDS DEVELOPMENT LLC,
Appellants,
v.
RPM INTERNATIONAL, INC., RUST-OLEUM CORPORATION,
Cross-Appellants.
Appeals from the United States Patent and Trademark Office, Patent Trial and
Appeal Board in No. IPR2017-02158
CROSS-APPELLANTS’ REPLY TO APPELLANTS’ RESPONSE TO
MOTION TO STAY APPEALS PENDING RESOLUTION OF ANY
REHEARING EN BANC IN ARTHREX, INC. v. SMITH & NEPHEW, INC.,
2018-2140
Grantland G. Drutchas
James L. Lovsin
George T. Lyons, III
McDonnell Boehnen
Hulbert & Berghoff LLP
300 South Wacker Drive, Suite 3100
Chicago, Illinois 60606
Tel: (312) 913-0001
Fax: (312) 913-0002
drutchas@mbhb.com
lovsin@mbhb.com
lyons@mbhb.com
Counsel for Cross-Appellants

January 13, 2020

6a
Case: 19-1994

Document: 49

Page: 2

Filed: 01/13/2020

REPLY TO APPELLANTS’ RESPONSE TO MOTION TO STAY
Cross-Appellants/Appellees Rust-Oleum Corp. and RPM International, Inc.
(collectively, “Rust-Oleum”) submit this reply in support of their motion to stay
the above-captioned appeals (or hold them in abeyance), including resolution of
Appellants Alan Stuart’s and CDS Development’s (collectively, “Stuart”) motion
to vacate and remand, pending this Court’s resolution of any rehearing en banc in
Arthex, Inc. v. Smith & Nephew, Inc., 2018-2140 (“Arthrex”).
Not only did Stuart fail to argue any Appointments Clause challenge to the
Patent Trial and Appeal Board (“Board” or “PTAB”) below, but it has also ignored
the PTO’s position supporting Rust-Oleum’s request for a stay here; applied the
wrong stay standard (for stays of agency orders, not stays of proceedings as
requested by Rust-Oleum); and failed to address the substantial judicial and
administrative efficiency arising from Rust-Oleum’s proposed stay. In short, it
makes no more sense to send this action back to the PTAB for further proceedings
– which would be wasted if Arthrex is reversed in whole or in part on rehearing en
banc – than it does to move forward with this appeal – which would be wasted if
Arthrex is affirmed en banc. As the PTO noted, a stay pending a decision en banc
in Athrex is the only judicially efficient and least burdensome step at this stage.

1

7a
Case: 19-1994

I.

Document: 49

Page: 3

Filed: 01/13/2020

GROUNDS FOR CROSS-APPELLANTS’ MOTION
1)

Although Rust-Oleum opposed Stuart’s motion to vacate and remand;

tellingly, Stuart did not file a reply in support of that motion. ECF No. 38. This
fact alone weighs in favor of granting Rust-Oleum’s present motion to stay or
otherwise denying Stuart’s motion. Equally important, Stuart also failed to refute
that it never raised any Appointments Clause challenge to the PTAB below.
2)

However, Stuart’s brief response to Rust-Oleum’s present motion is

similarly deficient. See ECF No. 48, pp. 1-3.
3)

First, Stuart ignored the PTO’s position in intervention—that “[i]t

would be inefficient and burdensome for the Court, the parties, and the agency to
engage in further proceedings in this case relating to the Arthrex decision before
the en banc Court decides what to do with that decision.” ECF No. 43, p. 1. Stuart
overlooking the position of the very agency that Stuart asks this Court to remand
the IPR to weighs in favor of granting Rust-Oleum’s motion or otherwise denying
Stuart’s motion.
4)

Second, Stuart’s primary argument against Rust-Oleum’s motion is

that Nken v. Holder, 129 S. Ct. 1749 (2009), provides the correct standard for
analyzing a stay of these appeals, and Rust-Oleum did not analyze that standard.
However, Stuart’s reliance on Nken is, at best, a strawman.

2

8a
Case: 19-1994

5)

Document: 49

Page: 4

Filed: 01/13/2020

Specifically, the Supreme Court’s decision in Nken involved a stay of

an agency order, something which Stuart does not have here. Id. at 1754-55.
Instead, Rust-Oleum won the IPR, not Stuart, and Rust-Oleum is not seeking to
stay any PTAB order. Thus, Nken has no applicability here.
6)

Further, the stay of an order is very different from Rust-Oleum’s

requested stay of these appeals because, as noted by the Supreme Court in Nken, a
stay of an order has overlap with an injunction, and thus is subject to similar
constraints. Id. at 1758, 1760-61. It is true that this Court has cited Nken in
deciding stays of injunctions or judgments pending appeal. See, e.g., In re
Cyclobenzaprine Hydrochloride Extended-Release Capsule Patent Litig., 449 Fed.
App’x 35, 36 (Fed. Cir. 2011); NSK Corp. v. U.S., 431 Fed. App’x 910, 911 (Fed.
Cir. 2011). But, Stuart cites no case in which this Court has applied the Nken
factors to Rust-Oleum’s type of requested stay: the stay of one appeal pending
rehearing en banc of another appeal.1

1

As explained in Rust-Oleum’s motion, this Court has regularly deferred
resolution of appeals that present the same issues as another appeal on rehearing en
banc. ECF No. 47, at 4 (citing see, e.g., 1st Media, LLC v. Electronic Arts, Inc.,
399 Fed. App’x 586 (Fed. Cir. 2010); Medinol Ltd. v. Cordis Corp., 719 Fed.
App’x 1016 (Fed. Cir. 2018); Click-To-Call Techs., LP v. Ingenio, Inc., 899 F.3d
1321, 1328 (Fed. Cir. 2018)). None of the cited cases applied Nken, and Stuart’s
attempt to distinguish them fails. Rather, similar to Medinol, Stuart’s motion seeks
relief “that necessitate[s] a stay” pending rehearing en banc in Arthrex. ECF No.
48, p. 3.

3

9a
Case: 19-1994

7)

Document: 49

Page: 5

Filed: 01/13/2020

Instead, pursuant to Landis v. N. Am. Co., 299 U.S. 248 (1936), Rust-

Oleum has properly moved this Court to stay these appeals pending rehearing en
banc. ECF No. 47, p. 4. This Court’s inherent authority under Landis governs
Rust-Oleum’s motion. Indeed, this Court has cited Landis, and not Nken, when
considering whether to stay an appeal pending resolution of another proceeding.
Realvirt, LLC v. Iancu, 17-1159, Dkt. 32 (Fed. Cir. Mar. 31, 2017) (stay of appeal
pending another appeal); Bunzl Processor Distribution, LLC v. Kappos, 468 Fed.
App’x 997 (Fed. Cir. 2012) (stay of appeal pending district court proceedings).
Stuart failed to address Landis at all in its response.
8)

As explained in Rust-Oleum’s motion, when considering Rust-

Oleum’s requested stay, this Court “must weigh competing interests and maintain
an even balance.” Landis, 299 U.S. at 254-55; ECF No. 47, p. 4. Rust-Oleum has
shown that the balance of interests weighs in favor of a stay of these appeals. ECF
No. 47, pp. 4-6. Stuart overlooked these interests in its response.
9)

Third, Stuart does not dispute that this Court’s resolution of rehearing

en banc in Arthrex would likely obviate or, at a minimum, simplify the issues
presented in Stuart’s motion, and avoid unnecessary costs for all parties and wasted
judicial effort by this Court or the Board. Stuart’s silence on these points, alone,
weighs in favor on granting Rust-Oleum’s motion or otherwise denying Stuart’s
motion.

4

10a
Case: 19-1994

II.

Document: 49

Page: 6

Filed: 01/13/2020

CONCLUSION
For reasons set forth above and in Rust-Oleum’s motion, Rust-Oleum

respectfully requests that this Court stay these appeals, including resolution of
Stuart’s motion to vacate and remand, pending this Court’s resolution of any
rehearing en banc in Arthrex. Otherwise, Stuart’s motion should be denied.

Respectfully submitted,
/s/ Grantland G. Drutchas
Grantland G. Drutchas
James L. Lovsin
George T. Lyons, III
McDonnell Boehnen
Hulbert & Berghoff LLP
300 South Wacker Drive, Suite 3100
Chicago, Illinois 60606
Tel: (312) 913-0001
Fax: (312) 913-0002
drutchas@mbhb.com
lovsin@mbhb.com
lyons@mbhb.com
Counsel for Cross-Appellants
January 13, 2020

5

11a
Case: 19-1994

Document: 49

Page: 7

Filed: 01/13/2020

UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
Stuart v. Rust-Oleum Corporation
Case No. 19-1994, 19-2238
CERTIFICATE OF INTEREST
Counsel for Cross-Appellants certifies the following:

1. Full Name of Party
Represented by me

2. Name of Real Party
3. Parent corporations
in interest (Please only
and publicly held
include any real party
companies that own
in interest NOT
10% or more of stock in
identified in Question 3)
the party
represented by me is:

RUST-OLEUM
CORPORATION

RUST-OLEUM
CORPORATION

RPM
INTERNATIONAL,
INC.

RPM
INTERNATIONAL,
INC.

RPM
INTERNATIONAL,
INC.

None.

4. The names of all law firms and the partners or associates that appeared for
the party or amicus now represented by me in the trial court or agency or are
expected to appear in this court (and who have not or will not enter an
appearance in this case) are:
Ann C. Palma formerly of McDonnell Boehnen Hulbert & Berghoff
5. The title and number of any case known to counsel to be pending in this or
any other court or agency that will directly affect or be directly affected by

1

12a
Case: 19-1994

Document: 49

Page: 8

Filed: 01/13/2020

this court’s decision in the pending appeal. See Fed. Cir. R. 47. 4(a)(5) and
47.5(b).
Alan K. Stuart et al. v. Rust-Oleum Corporation et al., 16-cv-00622-EAS-CMV,
U.S. District Court for the Southern District of Ohio
January 13, 2020

/s/ George T. Lyons, III
George T. Lyons, III

2

13a
Case: 19-1994

Document: 49

Page: 9

Filed: 01/13/2020

CERTIFICATE OF COMPLIANCE
This motion complies with the requirements of Fed. R. App. P. 27(d)(2)(A).
According to the word processing system used to prepare it, the motion contains
1,170 words, excluding the parts of the motion exempted by Fed. Cir. R. 27(d).
The motion complies with the typeface requirements of Fed. R. App. P.
27(d)(1)(E) because it has been prepared in a proportionally spaced typeface using
Microsoft Word 2013 in 14 point Times New Roman.

January 13, 2020

MCDONNELL BOEHNEN HULBERT &
BERGHOFF LLP
/s/ George T. Lyons, III
George T. Lyons, III
McDonnell Boehnen
Hulbert & Berghoff LLP
300 South Wacker Drive, Suite 3100
Chicago, Illinois 60606
(312) 913-0001
Attorney for Cross-Appellants

3

14a
Case: 19-1994

Document: 49

Page: 10

Filed: 01/13/2020

CERTIFICATE OF SERVICE
The undersigned hereby certifies that on this 13th day of January, 2020, I
caused the foregoing to be electronically filed with the Clerk of the Court for the
United States Court of Appeals for the Federal Circuit by using the appellate
CM/ECF system, which will send notice of such filing to all registered CM/ECF
users.
January 13, 2020

MCDONNELL BOEHNEN HULBERT &
BERGHOFF LLP
/s/ George T. Lyons, III
George T. Lyons, III
McDonnell Boehnen
Hulbert & Berghoff LLP
300 South Wacker Drive, Suite 3100
Chicago, Illinois 60606
(312) 913-0001
Attorney for Cross-Appellants

4

Case: 19-1994

15a
Document: 48 Page: 1

Filed: 01/06/2020

Case No. 19-1994, 19-2238
UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT
ALAN STUART, TRUSTEE FOR THE CECIL G. STUART AND DONNA M.
STUART REVOCABLE LIVING TRUST AGREEMENT,
CDS DEVELOPMENT LLC,
Appellants
v.
RPM INTERNATIONAL, INC., RUST-OLEUM CORPORATION,
Cross-Appellants
Appeal from the United States Patent and Trademark Office, Patent Trial and
Appeal Board in No. IPR2017-02158
APPELLANTS’ OPPOSITION TO CROSS-APPELLANTS’ MOTION TO
STAY APPEALS PENDING RESOLUTION OF ANY REHEARING EN
BANC IN ARTHREX, INC. v. SMITH & NEPHEW, INC., 2018-2140

Jonathan K. Waldrop
Marcus A. Barber
Kasowitz Benson Torres LLP
333 Twin Dolphin Drive, Suite 200
Redwood Shores, California 94065
Telephone: (650) 453-5170
Facsimile: (650) 453-5171
jwaldrop@kasowitz.com
mbarber@kasowitz.com
Attorneys for Appellants
Dated: January 6, 2020

16a
Case: 19-1994

I.

Document: 48

Page: 2

Filed: 01/06/2020

RESPONSE TO RUST-OLEUM’S CROSS-MOTION TO STAY &
BACKGROUND
Appellants Alan Stuart, Trustee For The Cecil G. Stuart And Donna M. Stuart

Revocable Living Trust Agreement, CDS Development LLC (“Stuart”) oppose
Cross-Appellants/Appellees Rust-Oleum Corp.’s and RPM International, Inc.’s,
(collectively, “Rust-Oleum”) cross-motion to stay. Rust-Oleum argues that this
proceeding should be stayed because Arthrex, Inc. v. Smith & Nephew, Inc., 941
F.3d 1320 (Fed. Cir. 2019) is a non-final decision in which all of the parties have
petitioned for rehearing en banc. Rust-Oleum, however, failed to demonstrate (or
even fully address) the factors for obtaining a stay favor granting that relief.
Notwithstanding Rust-Oleum’s failure, which is itself fatal to the motion to stay, the
relief Rust-Oleum now seeks threatens to further delay this case to the detriment of
Stuart and the courts. For these reasons, Rust-Oleum’s motion to stay should be
denied.
II.

ARGUMENT
1.

A stay is an intrusion into the ordinary processes of administration and

judicial review, and accordingly is not a matter of right, even if irreparable injury
might otherwise result. Nken v. Holder, 556 U.S. 418, 427 (2009). A movant
seeking a stay must establish: (1) a strong showing that he is likely to succeed on the
merits; (2) irreparable injury absent a stay; (3) that the stay will not substantially
injure the other parties interested in the proceeding; and (4) that the public interest

17a
Case: 19-1994

Document: 48

Page: 3

Filed: 01/06/2020

supports a stay. Id. at 434. As the party requesting the stay, Rust-Oleum bears the
burden of showing that the circumstances justify an exercise of the Court’s discretion
to enter the stay. Id. at 434-35.
2.

Rust-Oleum has not made any showing on likelihood of success.

Moreover, in stating their only purported harm is additional expense, Rust-Oleum
admits that the second factor, irreparable harm, cannot be demonstrated. See
Sampson v. Murray, 415 U.S. 61, 90 (1974) (“The key word in this consideration is
irreparable. Mere injuries, however substantial, in terms of money, time and energy
necessarily expended in the absence of a stay, are not enough.”) Because RustOleum has not made a showing on the first two factors, their motion may be denied
without considering the third and fourth factors. Nken, 556 U.S. at 435 (“Once an
applicant satisfies the first two factors, the traditional stay inquiry calls for assessing
the harm to the opposing party and weighing the public interest.”). Nonetheless, to
the extent this Court considers these factors, Stuart submits that no other party will
be injured by denying a stay in this case and that there is a public interest in the
speedy administration of justice. See Fed. R. Civ. P. 1.
3.

Rust-Oleum has also failed to cite any case in which this Court granted

a stay over the objection of a plaintiff-appellant like Rust-Oleum here. In 1st Media,
LLC v. Electronic Arts, Inc., 399 Fed. App’x 586 (Fed. Cir. 2010), the motion to stay
was unopposed. Similarly, in Medinol Ltd. v. Cordis Corp., 719 Fed. App’x 1016

2

18a
Case: 19-1994

Document: 48

Page: 4

Filed: 01/06/2020

(Fed. Cir. 2018) the plaintiff-appellant, Medinol, sought relief that necessitated a
stay. Finally, in Click-To-Call Techs., LP v. Ingenio, Inc., 899 F.3d 1321, 1328 (Fed.
Cir. 2018) plaintiff-appellant Click-To-Call Techs., sought to hold the case in
abeyance in conjunction with its petition for a rehearing en banc.
III.

CONCLUSION
For the foregoing reasons, the Court should deny Rust-Oleum’s cross-motion

to stay and grant Stuart’s motion to vacate and remand this case.

Respectfully Submitted,
Dated: January 6, 2020

By: /s/ Jonathan K. Waldrop
Jonathan K. Waldrop
Marcus A. Barber
Kasowitz Benson Torres LLP
333 Twin Dolphin Drive, Suite 200
Redwood Shores, California 94065
Telephone: (650) 453-5170
Facsimile: (650) 453-5171
jwaldrop@kasowitz.com
mbarber@kasowitz.com
Attorneys for Appellants

3

19a
Case: 19-1994

Document: 48

Page: 5

Filed: 01/06/2020

CERTIFICATE OF INTEREST
Counsel for Appellants Alan Stuart, Trustee for the Cecil G. Stuart and Donna M.
Stuart Revocable Living Trust Agreement, CDS Development LLC certify the
following:
1. The full name of every party or amicus represented by me is:
Alan Stuart, Trustee for the Cecil G. Stuart and Donna M. Stuart
Revocable Living Trust Agreement, CDS Development LLC
2. The name of the Real Party in interest represented by me is:
Alan Stuart, Trustee for the Cecil G. Stuart and Donna M. Stuart
Revocable Living Trust Agreement, CDS Development LLC
3. All parent corporations and any publicly held companies that own 10% or
more of the stock of the party or amicus curiae represented by me are:
None.
4. The names of all law firms and the partners or associates that appeared for
the party or amicus now represented by me in the trial court or agency or are
expected to appear in this court (and who have not or will not enter an
appearance in this case) are:
a.

KASOWITZ BENSON TORRES LLP (formerly known as
KASOWITZ, BENSON, TORRES & FRIEDMAN LLP):
Gurtej Singh (now with Hogan Lovells), Steven C. Carlson (now
with Robins Kaplan LLP), Kevin M. Pasquinelli (now with
Robins Kaplan LLP).

b.

ORGAN COLE LLP: Shawn J. Organ, Joshua M. Feasel, Sean
M. Stiff.

c.

BARNEY DEBROSSE LLC: Matthew W. Upton, Derek A.
DeBrosse.
4

20a
Case: 19-1994

Document: 48

Page: 6

Filed: 01/06/2020

5. The title and number of any case known to counsel to be pending in this or
any other court or agency that will directly affect or be directly affected by this
court’s decision in the pending appeal. See Fed.Cir.R. 47. 4(a)(5) and 47.5(b).
(The parties should attach continuation pages as necessary).
Alan K. Stuart et al. v. Rust-Oleum Corp. et al., 2:16-cv-00622-EAS-CMV
(S.D. Ohio).
Respectfully Submitted,
Dated: January 6, 2020

By: /s/ Jonathan K. Waldrop
Jonathan K. Waldrop
Marcus A. Barber
Kasowitz Benson Torres LLP
333 Twin Dolphin Drive, Suite 200
Redwood Shores, California 94065
Telephone: (650) 453-5170
Facsimile: (650) 453-5171
jwaldrop@kasowitz.com
mbarber@kasowitz.com
Attorneys for Appellants

5

21a
Case: 19-1994

Document: 48

Page: 7

Filed: 01/06/2020

CERTIFICATE OF COMPLIANCE
This motion complies with the requirements of Fed. R. App. P. 27(d)(2)(A).
According to the word processing system used to prepare it, the motion contains
561 words, excluding the parts of the motion exempted by Fed. R. App. P.
32(a)(7)(B)(iii). The motion complies with the typeface requirements of Fed. R.
App. P. 32(a)(6) because it has been prepared in a proportionally spaced typeface
using Microsoft Word 2013 in 14 point Times New Roman.

Dated: January 6, 2020

/s/ Jonathan K. Waldrop
Jonathan K. Waldrop

6

22a
Case: 19-1994

Document: 48

Page: 8

Filed: 01/06/2020

CERTIFICATE OF SERVICE
I hereby certify that on this 6th day of January, 2020, I caused the foregoing
APPELLANTS’ OPPOSITION TO CROSS-APPELLANTS’ MOTION TO STAY
APPEALS PENDING RESOLUTION OF ANY REHEARING EN BANC IN
ARTHREX, INC. v. SMITH & NEPHEW, INC., 2018-2140 to be filed with the Clerk
for the Court for the United States Court of Appeals for the Federal Circuit using
the CM/ECF system.
I further certify that all participants in the case are registered CM/ECF users
and that service will be accomplished by the appellate CM/ECF system.

/s/ Jonathan K. Waldrop
Jonathan K. Waldrop

7

23a
Case: 19-1994

Document: 47

Page: 1

Filed: 12/27/2019

No. 19-1994, 19-2238

In the United States Court of Appeals
for the Federal Circuit
ALAN STUART, Trustee for the Cecil G. Stuart and Donna M. Stuart
Revocable Living Trust Agreement, CDS DEVELOPMENT LLC,
Appellants,
v.
RPM INTERNATIONAL, INC., RUST-OLEUM CORPORATION,
Cross-Appellants.
Appeals from the United States Patent and Trademark Office, Patent Trial and
Appeal Board in No. IPR2017-02158
CROSS-APPELLANTS’ RESPONSE TO APPELLANTS’ MOTION TO
VACATE AND REMAND, AND CROSS-APPELLANTS’ MOTION TO
STAY APPEALS PENDING RESOLUTION OF ANY REHEARING EN
BANC IN ARTHREX, INC. v. SMITH & NEPHEW, INC., 2018-2140
Grantland G. Drutchas
James L. Lovsin
George T. Lyons, III
McDonnell Boehnen
Hulbert & Berghoff LLP
300 South Wacker Drive, Suite 3100
Chicago, Illinois 60606
Tel: (312) 913-0001
Fax: (312) 913-0002
drutchas@mbhb.com
lovsin@mbhb.com
lyons@mbhb.com
Counsel for Cross-Appellants

December 27, 2019

24a
Case: 19-1994

Document: 47

Page: 2

Filed: 12/27/2019

RESPONSE AND CROSS-APPELLANTS’ MOTION
Cross-Appellants/Appellees Rust-Oleum Corp. and RPM International, Inc.
(collectively, “Rust-Oleum”) oppose Appellants Alan Stuart’s and CDS
Development’s (collectively, “Stuart”) motion to vacate and remand. ECF No. 38.
Stuart’s motion is premature because briefing has not begun (much less been
completed) in this case, and the only cited support for Stuart’s motion, Arthex, Inc.
v. Smith & Nephew, Inc., 941 F.3d 1320 (Fed. Cir. 2019) (“Arthrex”), is a non-final
decision in which all of the parties have petitioned for rehearing en banc.
Accordingly, pursuant to Federal Rule of Appellate Procedure 27(a)(3)(B),
Rust-Oleum moves to stay the above-captioned appeals (or hold them in
abeyance), including resolution of Stuart’s motion, pending this Court’s resolution
of any rehearing en banc in Arthrex. Stuart’s motion presents the same issues as in
the Arthrex petitions for rehearing. Deferring resolution of Stuart’s motion until
resolution of any rehearing en banc in Arthrex would avoid unnecessary costs for
all parties and wasted judicial effort by the Court or the Patent Trial and Appeal
Board (“Board”).1 In the alternative, Stuart’s motion should be denied. The
grounds for this opposition and motion are set out below.

1

The United States Patent & Trademark Office (“PTO”) has intervened in these
appeals to oppose Stuart’s motion. Stuart v. Rust-Oleum Corp., 19-1994, ECF No.
43. Rust-Oleum agrees with the PTO’s request that the Court “hold any decision
here pending en banc consideration of the issues raised in Arthrex.” Id. at 2.
1

25a
Case: 19-1994

I.

Document: 47

Page: 3

Filed: 12/27/2019

BACKGROUND
1)

These appeals arise from a final written decision of the Board in inter

partes review of U.S. Patent No. 6,669,991 (the “’991 Patent”).
2)

Stuart sued Rust-Oleum for infringement of the ’991 Patent in the

U.S. District Court for the Southern District of Ohio. Alan K. Stuart et al. v. RustOleum Corporation et al., 16-cv-622-EAS-CMV (S.D. Ohio). The court stayed
the litigation pending a decision by the Board in the IPR. Id., ECF No. 99.
3)

On October 31, 2019, a panel of this Court issued a decision in

Arthrex holding that an Appointments Clause defect exists in the statutes
governing the constitutionality of empaneled administrative patent judges (“APJs”)
at the Board. 941 F.3d at 1338-40. The panel held in Arthrex that a cure for this
constitutional problem is vacating decisions by such APJs and remanding such
decisions for a new hearing before a new panel of constitutionally-appointed APJs.
Id. at 1340.
4)

The panel further explained that the Arthrex decision is applicable to

all cases in which “the final decision was rendered by a panel of APJs who were
not constitutionally appointed and where the parties presented an Appointments
Clause challenge on appeal.” Id. The Arthrex decision is not yet final.
5)

Following Arthrex, Judges Newman and Dyk have indicated in their

concurrence in Bedgear, LLC v. Fredman Bros. Furniture Company, Inc., 783 F.

2

26a
Case: 19-1994

Document: 47

Page: 4

Filed: 12/27/2019

App’x 1029, 1030-34 (Fed. Cir. 2019) (Dyk, J., concurring), that the proposed
remedy of remand and new hearing is unnecessary and inappropriate. Other panels
of this Court have asked for additional briefing on issues presented by Arthrex.
Polaris Innovations Ltd. v. Kingston Technology Company, Inc., 18-1768, EFC
No. 90.
6)

On November 20, 2019, Stuart filed its motion to vacate and remand

the final written decision based on, at least, Arthrex. Stuart, 19-1994, ECF No. 38.
Stuart’s motion is the first time that it raised an Appointments Clause challenge in
the IPR. Stuart failed to argue any Appointments Clause challenge to the Board.
7)

On November 21, 2019, the Court certified Stuart’s constitutional

challenge to the Attorney General. Id., ECF No. 39. The PTO responded to
Stuart’s motion to vacate and remand on December 27, 2019. Id., ECF No. 43.
8)

On November 25, 2019, Rust-Oleum filed an unopposed motion to

extend time to file a response to Stuart’s motion to vacate and remand to December
27, 2019. Id., ECF No. 40. This Court granted that motion. Id., ECF No. 41.
9)

On December 16, 2019, however, all of the parties in Arthrex filed

petitions for rehearing en banc. 2018-2140, ECF Nos. 77-79. Intervenor PTO, for
example, argued in its petition for rehearing en banc that (1) the patent owner
forfeited its Appointment Clause challenge by failing to present it to the Board,
(2) there is no Appointments Clause issue with respect to APJs, and (3) even if

3

27a
Case: 19-1994

Document: 47

Page: 5

Filed: 12/27/2019

there was a constitutional defect, remand to the Board for a new hearing is not
appropriate. 2018-2140, ECF No. 77, pp. 6-15. Similarly, Appellees in Arthrex
argued in their petition for rehearing en banc that there is no Appointments Clause
issue as APJs are inferior officers and even if there were, the appropriate remedy is
not necessarily a remand. Id., ECF No. 79, pp. 8-19.
II.

GROUNDS FOR RESPONSE AND CROSS-APPELLANTS’ MOTION
1)

This Court has inherent authority to stay appeals. Landis v. N. Am.

Co., 299 U.S. 248, 254-55 (1936). When considering such a stay, the Court “must
weigh competing interests and maintain an even balance.” Id.
2)

This Court has regularly deferred resolution of appeals that present the

same issues as another appeal on rehearing en banc. See, e.g., 1st Media, LLC v.
Electronic Arts, Inc., 399 Fed. App’x 586 (Fed. Cir. 2010) (staying appeal pending
rehearing en banc in Therasense); Medinol Ltd. v. Cordis Corp., 719 Fed. App’x
1016 (Fed. Cir. 2018) (holding appeal in abeyance pending rehearing en banc in
SCA Hygiene); Click-To-Call Techs., LP v. Ingenio, Inc., 899 F.3d 1321, 1328
(Fed. Cir. 2018) (“[t]he panel in this case subsequently held CTC’s petition for
rehearing in abeyance pending the outcome of Wi-Fi One”). This Court should do
so here as well.
3)

Stuart’s motion to vacate and remand presents the same issues as in

the petitions for rehearing in Arthrex. Similar to the Arthrex petitions, Stuart’s

4

28a
Case: 19-1994

Document: 47

Page: 6

Filed: 12/27/2019

motion presents (1) whether Stuart forfeited its Appointment Clause challenge by
failing to raise it with the Board, (2) whether the APJs in this case were inferior
officers, and (3) what is the proper remedy if they were not. See, e.g., Stuart, 191994, ECF No. 38. The Court’s resolution of rehearing en banc in Arthrex would
likely obviate the need for the Court to resolve these issues presented in Stuart’s
motion. At a minimum, en banc action in Arthrex would simplify the issues
presented in Stuart’s motion.
4)

Rust-Oleum submits that staying these appeals (or holding them in

abeyance), including resolution Stuart’s motion, pending the resolution of any
rehearing en banc of Arthrex by this Court would avoid unnecessary costs for all
parties and wasted judicial effort by the Court or the Board.
5)

Without the requested stay, the parties and these tribunals would be

faced with either (a) risking an unnecessary new hearing before the Board on
remand if Arthrex is reversed or vacated en banc or (b) risking an unnecessary
appeal, hearing and decision if Athrex is affirmed en banc. The expense and
judicial inefficiency of going forward with either route, in lieu of the requested
stay, is clear and undeniable.
6)

The balance of interests weighs in favor of a stay of these appeals,

including resolution of Stuart’s motion, pending resolution of any rehearing en
banc in Arthrex. Stuart would not be prejudiced by such a stay. The district court

5

29a
Case: 19-1994

Document: 47

Page: 7

Filed: 12/27/2019

litigation involving the ’991 Patent is stayed and would remain stayed whether
these appeals are stayed or Stuart’s motion is granted.
7)

As such, Rust-Oleum respectfully request that this Court stay these

appeals, including resolution of Stuart’s motion, pending this Court’s resolution of
any rehearing en banc in Arthrex.
8)

As required by Federal Circuit Rule 27(a)(5), Rust-Oleum’s counsel

discussed Rust-Oleum’s motion with Stuart’s counsel from December 23, 2019 to
December 26, 2019. Stuart’s counsel has not indicated whether it will object to
this motion or will file a response to this motion. Rust-Oleum’s counsel also
discussed Rust-Oluem’s motion with Intervenor PTO’s counsel, and the PTO does
not oppose this motion.
III.

IN THE ALTERNATIVE, STUART’S MOTION TO VACATE AND
REMAND SHOULD BE DENIED
1)

In the alternative, Stuart’s motion should be denied. Rust-Oleum

submits that Arthrex was wrongly decided. Fed. Cir. R. 35(a)(1).
2)

Stuart forfeited its Appointment Clause challenge by failing to

raise it with the Board. Similar to In re DBC, 545 F.3d 1373 (Fed. Cir. 2008),
Stuart waived its right to challenge to the appointment of the APJs because Stuart
“waived the issue by failing to raise it before the Board.” Id. at 1377. The Court
should not excuse Stuart’s failure to timely raise an Appointment Clause challenge.

6

30a
Case: 19-1994

3)

Document: 47

Page: 8

Filed: 12/27/2019

The APJs in this case were inferior officers. Similar to Freytag v.

Commissioner of Internal Revenue, 501 U.S. 868 (1991), and Edmond v. United
States, 520 U.S. 651 (1997), the APJs in this case were inferior officers. In further
support, the Director of the PTO, a principle officer, directs and supervises the
work of APJs. The Director, for example, has unlimited authority under 35 U.S.C.
§ 314(a) to institute IPRs at all, and unlimited authority under 35 U.S.C. § 6(c) to
designate APJs to a PTAB panel, which includes the authority to remove APJs
from panels. The Director has adequate means of control over the substance of
Board decisions, even though the Director does not have unilateral authority to
remove APJs from judicial service. See, e.g., 2018-2140, ECF No. 77, pp. 6-11.
4)

Even if the APJ’s were not inferior officers, a remand to the

Board for a new hearing is not the appropriate remedy. The severance in
Arthrex of the limits of removal of APJs was both prospective and retroactive.
Harper v. Virginia Dep’t of Taxation, 509 U.S. 86, 93-94 (1993). Thus, “when the
PTAB judges decided cases in the past, they did not act improperly.” Bedgear,
LLC, 783 Fed. App’x at 1032 (Dyk, J., concurring). Further, other saving
constructions of the statute are available, including providing the Director with
unilateral authority over rehearing or vacatur of institution after a final written
decision has been issued.

7

31a
Case: 19-1994

IV.

Document: 47

Page: 9

Filed: 12/27/2019

CONCLUSION
Rust-Oleum opposes Stuart’s motion to vacate and remand as premature.

Rust-Oleum respectfully requests that this Court stay these appeals, including
resolution of Stuart’s motion to vacate and remand, pending this Court’s resolution
of any rehearing en banc in Arthrex. Otherwise, Stuart’s motion should be denied.

December 27, 2019

Respectfully submitted,
/s/ Grantland G. Drutchas
Grantland G. Drutchas
James L. Lovsin
George T. Lyons, III
McDonnell Boehnen
Hulbert & Berghoff LLP
300 South Wacker Drive, Suite 3100
Chicago, Illinois 60606
Tel: (312) 913-0001
Fax: (312) 913-0002
drutchas@mbhb.com
lovsin@mbhb.com
lyons@mbhb.com
Counsel for Cross-Appellants

8

32a
Case: 19-1994

Document: 47

Page: 10

Filed: 12/27/2019

UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
Stuart v. Rust-Oleum Corporation
Case No. 19-1994, 19-2238
CERTIFICATE OF INTEREST
Counsel for Cross-Appellants certifies the following:

1. Full Name of Party
Represented by me

2. Name of Real Party
3. Parent corporations
in interest (Please only
and publicly held
include any real party
companies that own
in interest NOT
10% or more of stock in
identified in Question 3)
the party
represented by me is:

RUST-OLEUM
CORPORATION

RUST-OLEUM
CORPORATION

RPM
INTERNATIONAL,
INC.

RPM
INTERNATIONAL,
INC.

RPM
INTERNATIONAL,
INC.

None.

4. The names of all law firms and the partners or associates that appeared for
the party or amicus now represented by me in the trial court or agency or are
expected to appear in this court (and who have not or will not enter an
appearance in this case) are:
Ann C. Palma formerly of McDonnell Boehnen Hulbert & Berghoff
5. The title and number of any case known to counsel to be pending in this or
any other court or agency that will directly affect or be directly affected by

1

33a
Case: 19-1994

Document: 47

Page: 11

Filed: 12/27/2019

this court’s decision in the pending appeal. See Fed. Cir. R. 47. 4(a)(5) and
47.5(b).
Alan K. Stuart et al. v. Rust-Oleum Corporation et al., 16-cv-00622-EAS-CMV,
U.S. District Court for the Southern District of Ohio
December 27, 2019

/s/ George T. Lyons, III
George T. Lyons, III

2

34a
Case: 19-1994

Document: 47

Page: 12

Filed: 12/27/2019

CERTIFICATE OF COMPLIANCE
This motion complies with the requirements of Fed. R. App. P. 27(d)(2)(A).
According to the word processing system used to prepare it, the motion contains
1,872 words, excluding the parts of the motion exempted by Fed. Cir. R. 27(d).
The motion complies with the typeface requirements of Fed. R. App. P.
27(d)(1)(E) because it has been prepared in a proportionally spaced typeface using
Microsoft Word 2013 in 14 point Times New Roman.

December 27, 2019

MCDONNELL BOEHNEN HULBERT &
BERGHOFF LLP
/s/ George T. Lyons, III
George T. Lyons, III
McDonnell Boehnen
Hulbert & Berghoff LLP
300 South Wacker Drive, Suite 3100
Chicago, Illinois 60606
(312) 913-0001
Counsel for Cross-Appellant

3

35a
Case: 19-1994

Document: 47

Page: 13

Filed: 12/27/2019

CERTIFICATE OF SERVICE
The undersigned hereby certifies that on this 27th day of December, 2019, I
caused the foregoing to be electronically filed with the Clerk of the Court for the
United States Court of Appeals for the Federal Circuit by using the appellate
CM/ECF system, which will send notice of such filing to all registered CM/ECF
users.
December 27, 2019

MCDONNELL BOEHNEN HULBERT &
BERGHOFF LLP
/s/ George T. Lyons, III
George T. Lyons, III
McDonnell Boehnen
Hulbert & Berghoff LLP
300 South Wacker Drive, Suite 3100
Chicago, Illinois 60606
(312) 913-0001
Counsel for Cross-Appellant

4

36a
Case: 19-1994

Document: 43

Page: 1

Filed: 12/27/2019

2019-1994, -2238
United States Court of Appeals for the Federal Circuit
_____________________________________________________________
ALAN STUART, Trustee for the Cecil G. Stuart and Donna M. Stuart
Revocable Living Trust Agreement, CDS DEVELOPMENT LLC,

Appellants
v.

RPM INTERNATIONAL, INC., RUST-OLEUM CORPORATION,

Cross-Appellants

_______________________________________________
Appeals from the United States Patent and Trademark Office,
Patent Trial and Appeal Board in No. IPR2017-02158.
_______________________________________________
Intervenor USPTO Director’s Opposition to Appellants’ Motion to Remand
in Light of Arthrex, Inc. v. Smith & Nephew, Inc.
THOMAS W. KRAUSE
Solicitor
FARHEENA Y. RASHEED
Deputy Solicitor
FRANCES M. LYNCH
Associate Solicitor
U.S. Patent and Trademark Office
Office of the Solicitor
Mail Stop 8, P.O. Box 1450
Alexandria, Virginia 22313
(571) 272-9035
December 27, 2019

Attorneys for the Director of the USPTO

37a
Case: 19-1994

Document: 43

Page: 2

Filed: 12/27/2019

Introduction
The U.S. Patent and Trademark Office respectfully opposes Appellants Alan
Stuart and CDS Development LLC’s (“Stuart”) motion to vacate the final decision
of the Patent Trial and Appeal Board and remand to receive a new trial in front of a
different panel of Board judges in light of Arthrex, Inc. v. Smith & Nephew, Inc.,
941 F.3d 1320 (Fed. Cir. 2019). See ECF No. 38. As discussed below, this Court
should hold any decision in this case pending en banc consideration of the issues
raised by this Court’s decision in Arthrex.
Background
Rust-Oleum Corporation and RPM International, Inc. (“Rust-Oleum”) filed
an inter partes review challenging claims of U.S. Patent No 6,669,991 owned by
Stuart. In IPR2017-02158, the Board concluded that the challenged claims 1-11,
14, and 20-24 of the ’991 patent were shown to be unpatentable and that
Petitioners had not shown by a preponderance of the evidence that claim 13 is
unpatentable. Stuart appealed to this Court and Rust-Oleum filed a cross-appeal.
On November 20, 2019, before the due date for its opening brief, Stuart
filed a motion to vacate and remand, raising an Appointments Clause challenge. In
response, this Court stayed the briefing schedule and asked the United States if it
wished to intervene. ECF No. 39. The government has filed its Notice of
Intervention, and now responds to Stuart’s motion to vacate and remand.

1

38a
Case: 19-1994

Document: 43

Page: 3

Filed: 12/27/2019

Argument
Stuart never raised an Appointments Clause challenge before the agency.
The government and both private parties have all filed petitions for rehearing en
banc in Arthrex. In addition, an en banc petition on the issues raised by Arthrex
has been filed in Uniloc v. Facebook et al., No. 2018-2251, and additional en banc
petitions may be filed in other pending cases. These en banc petitions raise
significant questions regarding the underlying Appointments Clause challenge, as
well as issues relating to forfeiture and remedy, all of which are relevant to the
proper disposition of Stuart’s motion to remand in this case. It would be inefficient
and burdensome for the Court, the parties, and the agency to engage in further
proceedings in this case relating to the Arthrex decision before the en banc Court
decides what to do with that decision.
Conclusion
Accordingly, the government requests that the Court hold any decision here
pending en banc consideration of the issues raised in Arthrex.

2

39a
Case: 19-1994

Dated: December 27, 2019

Document: 43

Page: 4

Filed: 12/27/2019

Respectfully submitted,
/s/ Frances M. Lynch
THOMAS W. KRAUSE
Solicitor
FARHEENA Y. RASHEED
Deputy Solicitor
FRANCES M. LYNCH
Associate Solicitor
U.S. Patent and Trademark Office
Office of the Solicitor
Mail Stop 8, P.O. Box 1450
Alexandria, Virginia 22313
(571) 272-9035
Attorneys for the Director of the
U.S. Patent and Trademark Office

3

40a
Case: 19-1994

Document: 43

Page: 5

Filed: 12/27/2019

Certificate of Compliance
I certify that the foregoing Opposition by Intervenor Director of the United
States Patent and Trademark Office contains 389 words as measured by the wordprocessing software used to prepare this Opposition.

Dated: December 27, 2019

Respectfully submitted,
/s/ Frances M. Lynch
FRANCES M. LYNCH
Associate Solicitor
U.S. Patent and Trademark Office

41a
Case: 19-1994

Document: 43

Page: 6

Filed: 12/27/2019

Certificate of Service
I hereby certify that on December 27, 2019, the foregoing Opposition by
Intervenor Director of the United States Patent and Trademark Office was
electronically filed with the Court’s CM/ECF filing system, which constitutes
service, pursuant to Fed. R. App. P. 25(c)(2) and Fed. Cir. R. 25(e)(1).

/s/ Frances M. Lynch
FRANCES M. LYNCH
Associate Solicitor
Office of the Solicitor
U.S. Patent and Trademark Office
Mail Stop 8, P.O. Box 1450
Alexandria, Virginia 22313
(571) 272-9035

42a
Case: 19-1994

Document: 39

Page: 1

Filed: 11/21/2019

NOTE: This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________

ALAN STUART, Trustee for the Cecil G. Stuart and
Donna M. Stuart Revocable Living Trust Agreement, CDS DEVELOPMENT LLC,
Appellants
v.
RPM INTERNATIONAL, INC., RUST-OLEUM
CORPORATION,
Cross-Appellants
______________________
2019-1994, -2238
______________________
Appeals from the United States Patent and Trademark Office, Patent Trial and Appeal Board in No.
IPR2017-02158.
______________________
ON MOTION
______________________
Appellants submit a motion to vacate the decision of
the Patent Trial and Appeal Board and to remand for a
new hearing before a differently constituted panel in light
of this court’s decision in Arthrex, Inc. v. Smith & Nephew, Inc., No. 2018-2140, 2019 WL 5616010 (Fed. Cir. Oct.
31, 2019). Appellants state that Cross-Appellants oppose
the motion. Appellants also inform the court that they

43a
Case: 19-1994

Document: 39

Page: 2

Filed: 11/21/2019

STUART v. RUST-OLEUM CORPORATION

2

are challenging the Board’s decision as rendered by a
panel of administrative patent judges who were appointed
in violation of the Appointments Clause of the Constitution.
Upon notice of the fact that “a party questions the
constitutionality of an Act of Congress in a proceeding in
which the United States . . . is not a party,” the clerk of
this court must “certify that fact to the Attorney General.”
Fed. R. App. P. 44(a); see also 28 U.S.C. § 2403(a) (“In any
action . . . in a court of the United States to which the
United States . . . is not a party, wherein the constitutionality of any Act of Congress affecting the public interest is
drawn into question, the court shall certify such fact to
the Attorney General, and shall permit the United States
to intervene . . . for argument on the question of constitutionality.”).
Upon consideration thereof,
IT IS ORDERED THAT:
(1) Notice of Appellants’ constitutional challenge is
hereby certified to the Attorney General.
(2) The United States’ request to intervene and any
response by the United States to the motion is due no
later than December 27, 2019.
(3) The briefing schedule is stayed. See Fed. Cir. R.
31(c).
FOR THE COURT
November 21, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

s25
cc: United States Attorney General

44a
Case: 19-1994

Document: 38

Page: 1

Filed: 11/20/2019

Case No. 19-1994, 19-2238
UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT
ALAN STUART, TRUSTEE FOR THE CECIL G. STUART AND DONNA M.
STUART REVOCABLE LIVING TRUST AGREEMENT,
CDS DEVELOPMENT LLC,
Appellants
v.
RPM INTERNATIONAL, INC., RUST-OLEUM CORPORATION,
Cross-Appellants
Appeal from the United States Patent and Trademark Office, Patent Trial and
Appeal Board in No. IPR2017-02158
APPELLANTS’ MOTION TO VACATE AND REMAND

Jonathan K. Waldrop
Marcus A. Barber
Kasowitz Benson Torres LLP
333 Twin Dolphin Drive, Suite 200
Redwood Shores, California 94065
Telephone: (650) 453-5170
Facsimile: (650) 453-5171
jwaldrop@kasowitz.com
mbarber@kasowitz.com
Dated: November 20, 2019

Attorneys for Appellants

45a
Case: 19-1994

A.

Document: 38

Page: 2

Filed: 11/20/2019

RELIEF SOUGHT

Appellants Alan Stuart, Trustee For The Cecil G. Stuart And Donna M. Stuart
Revocable Living Trust Agreement, CDS Development LLC (“Stuart”) (hereby
“Appellants”) move the Court Pursuant to Federal Rule of Appellate Procedure 27
and Federal Circuit Rule 27(f) for an order vacating and remanding the case to the
Board.
B.

GROUNDS FOR RELIEF SOUGHT

The present case is not yet calendared for argument. Appellant’s Opening Brief
is due on December 2, 2019. On October 31, 2019 this Court issued its opinion in
Arthrex, Inc. v. Smith & Nephew, Inc., No. 2018-2140, 2019 U.S. App. LEXIS 32613
(Fed. Cir, October 31, 2019).

Arthrex addressed the constitutionality of the

appointment of the Board’s Administrative Patent Judges (“APJs”). This Court held:
[T]hat APJs are principal officers under Title 35 as currently
constituted. As such, they must be appointed by the President
and confirmed by the Senate; because they are not, the current
structure of the Board violates the Appointments Clause.
Id. at *27. To address this, the Court severed the statutory removal provisions as
applied to APJs, thus making APJs inferior rather than principal officers of the United
States. Id. at *34. Because the Board’s final written decision was made by a panel of
APJs that were not constitutionally appointed at the time of the decision was rendered,
this Court vacated and remanded the Board’s decision without reaching the merits. Id.
at *36. The Court further explained that this decision is applicable to cases in which

46a
Case: 19-1994

Document: 38

Page: 3

Filed: 11/20/2019

“the final decision was rendered by a panel of APJs who were not constitutionally
appointed and where the parties presented an Appointments Clause challenge on
appeal.” Id. at *39.
Stuart hereby raises a challenge to the constitutionality of the Appointments
Clause for the APJs assigned to IPR2017-02158. At the time of the final decision in
this case, these APJs were principal officers of the United States who were not
appointed by the President and confirmed by the Senate. Because these APJs were
not properly appointed and confirmed, the APJs lacked the constitutional authority
to issue a final decision in this case. In accordance with Arthrex, Stuart respectfully
requests this Court vacate the Board’s final decision and remand this case to the
PTAB with an order to empanel a new panel of APJs for a new hearing.
C.

MOVANT’S STATEMENT UNDER FEDERAL CIRCUIT
RULES 27(A)(5)

Stuart notified Rust-Oleum of its intention of filing this motion on November 15,
2019. During a meet-and-confer on November 20, 2019, Rust-Oleum advised that they
intend to oppose this motion.
D.

CONCLUSION

For the foregoing reasons, the Court should grant this motion to vacate and
remand this case.

2

47a
Case: 19-1994

Document: 38

Page: 4

Filed: 11/20/2019

Respectfully Submitted,
Dated: November 20, 2019

By: /s/ Jonathan K. Waldrop
Jonathan K. Waldrop
Marcus A. Barber
Kasowitz Benson Torres LLP
333 Twin Dolphin Drive, Suite 200
Redwood Shores, California 94065
Telephone: (650) 453-5170
Facsimile: (650) 453-5171
jwaldrop@kasowitz.com
mbarber@kasowitz.com
Attorneys for Appellants

3

48a
Case: 19-1994

Document: 38

Page: 5

Filed: 11/20/2019

CERTIFICATE OF INTEREST
Counsel for Appellants Alan Stuart, Trustee for the Cecil G. Stuart and Donna M.
Stuart Revocable Living Trust Agreement, CDS Development LLC certify the
following:
1. The full name of every party or amicus represented by me is:
Alan Stuart, Trustee for the Cecil G. Stuart and Donna M. Stuart Revocable Living
Trust Agreement, CDS Development LLC
2. The name of the Real Party in interest represented by me is:
Alan Stuart, Trustee for the Cecil G. Stuart and Donna M. Stuart Revocable Living
Trust Agreement, CDS Development LLC
3. All parent corporations and any publicly held companies that own 10% or
more of the stock of the party or amicus curiae represented by me are:
None.
4. The names of all law firms and the partners or associates that appeared for
the party or amicus now represented by me in the trial court or agency or are
expected to appear in this court (and who have not or will not enter an
appearance in this case) are:
a.

KASOWITZ BENSON TORRES LLP (formerly known as
KASOWITZ, BENSON, TORRES & FRIEDMAN LLP):
Gurtej Singh (now with Hogan Lovells), Steven C. Carlson (now
with Robins Kaplan LLP), Kevin M. Pasquinelli (now with
Robins Kaplan LLP).

b.

ORGAN COLE LLP: Shawn J. Organ, Joshua M. Feasel, Sean
M. Stiff.

c.

BARNEY DEBROSSE LLC: Matthew W. Upton, Derek A.
DeBrosse.
4

49a
Case: 19-1994

Document: 38

Page: 6

Filed: 11/20/2019

5. The title and number of any case known to counsel to be pending in this or
any other court or agency that will directly affect or be directly affected by this
court’s decision in the pending appeal. See Fed.Cir.R. 47. 4(a)(5) and 47.5(b).
(The parties should attach continuation pages as necessary).
Alan K. Stuart et al. v. Rust-Oleum Corp. et al., 2:16-cv-00622-EAS-CMV
(S.D. Ohio).
Respectfully Submitted,
Dated: November 20, 2019

By: /s/ Jonathan K. Waldrop
Jonathan K. Waldrop
Marcus A. Barber
Kasowitz Benson Torres LLP
333 Twin Dolphin Drive, Suite 200
Redwood Shores, California 94065
Telephone: (650) 453-5170
Facsimile: (650) 453-5171
jwaldrop@kasowitz.com
mbarber@kasowitz.com
Attorneys for Appellants

5

50a
Case: 19-1994

Document: 38

Page: 7

Filed: 11/20/2019

United States District Court action involving the patent at issue
Alan K. Stuart et al. v. Rust-Oleum Corp. et al., 2:16-cv-00622-EAS-CMV, United
States District Court for the Southern District of Ohio (filed on June 28, 2016).

Dated: November 20, 2019

By: /s/ Jonathan K. Waldrop
Jonathan K. Waldrop
Marcus A. Barber
Kasowitz Benson Torres LLP
333 Twin Dolphin Drive, Suite 200
Redwood Shores, California 94065
Telephone: (650) 453-5170
Facsimile: (650) 453-5171
jwaldrop@kasowitz.com
mbarber@kasowitz.com
Attorneys for Appellants

6

51a
Case: 19-1994

Document: 38

Page: 8

Filed: 11/20/2019

CERTIFICATE OF COMPLIANCE
This motion complies with the requirements of Fed. R. App. P. 27(d)(2)(A).
According to the word processing system used to prepare it, the motion contains
439 words, excluding the parts of the motion exempted by Fed. R. App. P.
32(a)(7)(B)(iii). The motion complies with the typeface requirements of Fed. R.
App. P. 32(a)(6) because it has been prepared in a proportionally spaced typeface
using Microsoft Word 2013 in 14 point Times New Roman.

Dated: November 20, 2019

/s/ Jonathan K. Waldrop
Jonathan K. Waldrop

7

52a
Case: 19-1994

Document: 38

Page: 9

Filed: 11/20/2019

CERTIFICATE OF SERVICE
I hereby certify that on this 20th day of November, 2019, I caused the
foregoing APPELLANTS’ MOTION TO VACATE AND REMAND to be filed
with the Clerk for the Court for the United States Court of Appeals for the Federal
Circuit using the CM/ECF system.
I further certify that all participants in the case are registered CM/ECF users
and that service will be accomplished by the appellate CM/ECF system.

/s/ Jonathan K. Waldrop
Jonathan K. Waldrop

8

53a

UNITED STATES PATENT AND TRADEMARK OFFICE

BEFORE THE PATENT TRIAL AND APPEAL BOARD
RUST-OLEUM CORPORATION and
RPM INTERNATIONAL, INC.,
Petitioners
v.
ALAN STUART, TRUSTEE FOR THE CECIL G. STUART AND
DONNA M. STUART REVOCABLE LIVING TRUST AGREEMENT
and
CDS DEVELOPMENT LLC,
Patent Owners

Case IPR No.: IPR2017-02158
U.S. Patent No. 6,669,991
Title: METHOD AND COMPOSITION FOR REJUVENATING
WEATHERED POLYMERIC MATERIALS

PATENT OWNERS’ AMENDED NOTICE OF APPEAL

54a

Case No. IPR2017-02158
Patent No.: 6,669,991
Director of the United States Patent and Trademark Office
c/o Office of the General Counsel, 10B20
Madison Building East
600 Dulany Street
Alexandria, VA 22314-5793
Notice is hereby given, pursuant to 37 C.F.R. § 90.2(a), that Patent Owners Alan
Stuart, Trustee for the Cecil G. Stuart and Donna M. Stuart Revocable Living Trust
Agreement and CDS Development LLC hereby appeal to the United States Court of
Appeals for the Federal Circuit from the Final Written Decision entered on April 8,
2019 (Paper No. 29), as amended by the Erratum to Final Written Decision entered on
April 12, 2019 (Paper No. 30), and the Decision Denying Patent Owners’ Request for
Rehearing entered on July 23, 2019 (Paper No. 35), and from all underlying orders,
decisions, rulings and opinions that are adverse to Patent Owners, including, without
limitation, those within the Decision on Institution of Inter Partes Review, entered on
April 9, 2018 (Paper No. 7). Patent Owners’ Notice of Appeal was timely filed within
63 days of the Board’s Final Written Decision. 37 C.F.R. § 90.3(a)(1). This Amended
Notice of Appeal is timely filed within 63 days of the Board’s Decision Denying Patent
Owners’ Request for Rehearing. 37 C.F.R. § 90.3(b)(1).
In accordance with 37 C.F.R. § 90.2(a)(3)(ii), Patent Owners further indicate
that the issues on appeal include, without limitation, the following:
(i) the Board’s claim constructions;

1

55a

Case No. IPR2017-02158
Patent No.: 6,669,991
(ii) the Board’s determination that claims 1-11, 14, and 20-24 of U.S. Patent No.
6,669,991 are unpatentable over the art of record in this proceeding;
(iii) the Board’s obviousness analysis;
(iv) the Board’s determination that proposed substitute claims 25-35 and 37-42
are unpatentable over the art of record in this proceeding;
(v) the Board’s determination that the petition established the unpatentability of
claims 1-11, 14, and 20-24 of U.S. Patent No. 6,669,991;
(vi) any finding or determination supporting or related to the above-mentioned
issues as well as other issues decided adversely to Patent Owners including in any
orders, decisions, rulings, and/or opinions.
Simultaneously with this submission, Patent Owners are filing a true and correct
copy of this Amended Notice of Appeal with the Director of the U.S. Patent and
Trademark Office and electronically filing the same, along with any required docketing
fees, with the Clerk of the U.S. Court of Appeals for the Federal Circuit as set forth in
the accompanying Certificate of Filing.
Respectfully Submitted,
Date: August 5, 2019

By: /s/ Jonathan K. Waldrop
Name: Jonathan K. Waldrop
Registration No.: 50,334
Kasowitz Benson Torres LLP
333 Twin Dolphin Drive, Suite 200
Redwood Shores, CA 94065

2

56a

Case No. IPR2017-02158
Patent No.: 6,669,991
CERTIFICATE OF FILING
The undersigned hereby certifies that, in addition to being electronically filed
through E2E, a true and correct copy of the above-captioned PATENT OWNERS’
AMENDED NOTICE OF APPEAL is being filed by hand with the Director of the
U.S. Patent and Trademark Office on August 6, 2019, at the following address:
Director of the United States Patent and Trademark Office
c/o Office of the General Counsel, 10B20
Madison Building East
600 Dulany Street
Alexandria, VA 22314-5793
The undersigned also hereby certifies that a true and correct copy of the abovecaptioned PATENT OWNERS’ AMENDED NOTICE OF APPEAL is being filed and
the filing fee paid via electronic filing system, CM/ECF, with the Clerk’s Office of the
U.S. Court of Appeals for the Federal Circuit on August 5, 2019.

57a

Case No. IPR2017-02158
Patent No.: 6,669,991
CERTIFICATE OF SERVICE
Under 37 C.F.R. § 42.6(e), the undersigned certifies that the foregoing PATENT
OWNERS’ AMENDED NOTICE OF APPEAL along with any accompanying
exhibits was served via email on August 5, 2019 to Petitioners’ counsel of record at
the following email addresses:

Grantland Drutchas
Lead Counsel for Petitioner
Email: drutchas@mbhb.com
USPTO Reg. No. 32,565
Ann C. Palma
Backup Counsel for Petitioner
Email: palma@mbhb.com
USPTO Reg. No. 68,168
MCDONNELL BOEHNEN HULBERT &
BERGHOFF LLP
300 S. Wacker, Suite 3100
Chicago, IL 60606

Dated: August 5, 2019

/s/ Jonathan K. Waldrop
Jonathan K. Waldrop, Reg. No. 50,334

58a

Exhibit A

59a

Trials@uspto.gov
571-272-7822
21April 8, 2019

Paper No. 29
Date: April 8, 2019

UNITED STATES PATENT AND TRADEMARK OFFICE
____________
BEFORE THE PATENT TRIAL AND APPEAL BOARD
____________
RUST-OLEUM CORPORATION and
RPM INTERNATIONAL, INC.,
Petitioners,
v.
ALAN STUART, TRUSTEE FOR THE CECIL G. STUART AND
DONNA M. STUART REVOCABLE LIVING TRUST AGREEMENT
and
CDS DEVELOPMENT LLC,
Patent Owners.
____________
Case IPR2017-02158
Patent 6,669,991 B2
____________

Before JO-ANNE M. KOKOSKI, CHRISTOPHER G. PAULRAJ, and
DAVID COTTA, Administrative Patent Judges.
PAULRAJ, Administrative Patent Judge.

FINAL WRITTEN DECISION
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73

60a

Case IPR2017-02158
Patent 6,669,991 B2
I.

INTRODUCTION
Rust-Oleum Corporation and RPM International, Inc. (collectively,

“Petitioners”) 1 filed a Petition (Paper 2, “Pet.”) to institute an inter partes
review of claims 1–11, 13, 14, and 20–24 of U.S. Patent No. 6,669,991 B2
(Ex. 1001, “the ’991 patent”). Alan Stuart, Trustee for the Cecil G. Stuart
and Donna M. Stuart Revocable Trust Agreement, and CDS Development
LLC (collectively, “Patent Owners”) timely filed a Preliminary Response
(Paper 6, “Prelim. Resp.”). We determined, based on the information
presented in the Petition and Preliminary Response, that there was a
reasonable likelihood that Petitioners would prevail in challenging claims 1–
11, 13, 14, and 20–24 as unpatentable under 35 U.S.C. § 102(b) as
anticipated by Baumgärtel 2 and under § 103(a) as rendered obvious by
Baumgärtel and Billmeyer. 3 Pursuant to 35 U.S.C. § 314, the Board
instituted trial on April 9, 2018, as to those claims of the ’991 patent. Paper
7 (“Institution Decision” or “Inst. Dec.”). Subsequently, in view of SAS
Inst., Inc. v. Iancu, 138 S. Ct. 1348 (2018), we modified our Institution
Decision to include within the scope of this proceeding the anticipation and

1

The Petition additionally identifies Wipe New LLC and The Avento Corp.
as real parties in interest. Pet. 1.
2
Baumgärtel et al., German Patent Application DE 28 080 005 A1, with
certified English Translation (published Aug. 30, 1979) (Ex. 1002,
“Baumgärtel”).
3
Fred W. Billmeyer, TEXTBOOK OF POLYMER SCIENCE, 151–153,
396, and 397 (3d. ed. 1984) (Ex. 1003, “Billmeyer”).
2

61a

Case IPR2017-02158
Patent 6,669,991 B2
obviousness grounds based on Gladstone4 that were also set forth in the
Petition. Paper 9.
Patent Owners filed a Response to the Petition (Paper 13, “PO Resp.”)
and Petitioners filed a Reply to Patent Owners’ Response (Paper 16,
“Reply”). Patent Owners also filed a Motion for Conditional Amendment
under 37 C.F.R. § 42.121 (Paper 14, “Motion to Amend” or “Mot.”),
Petitioners filed an Opposition (Paper 17, “Opp.”), and Patent Owners filed
a Reply (Paper 19, “Amend. Reply”). An oral hearing was held on January
9, 2019, and a transcript has been entered into the record. Paper 28 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6. This Final Written
Decision is issued pursuant to 35 U.S.C. § 318(a) and 37 C.F.R. § 42.73.
Based on the record before us, we conclude that Petitioners have
demonstrated by a preponderance of the evidence that claims 1–11, 13, 14,
and 20–24 of the ’991 patent are unpatentable. We deny Patent Owners’
Motion to Amend.
a. Related Proceedings
Patent Owners have asserted the ’991 patent against Petitioners in a
copending litigation in the Southern District of Ohio: Alan Stuart, Trustee
for The Cecil G. Stuart and Donna M. Stuart Revocable Living Trust
Agreement et al. v. RPM International et al., No. Civil Action No: 2:16-cv00622-EAS-TPK (S.D. Ohio). Paper 5, 2. That litigation has been stayed
pending our final written decision in this proceeding.

4

Bernard Gladstone, Tarred 'N' Bothered – Kitchen Scouring Pad Can
Restore a ‘Dull’ Finish to Vinyl Siding, CHICAGO TRIBUNE, Feb. 18, 2000,
available at http://www.chicagotribune.com (Ex. 1004) (“Gladstone”).
3

62a

Case IPR2017-02158
Patent 6,669,991 B2
b. The ’991 patent (Ex. 1001)
The ’991 patent issued on December 30, 2003, with Alan Stuart as the
named inventor. Ex. 1001 at (45), (76). The ’991 patent issued from an
application filed March 22, 2002. Id. at (22). The ’991 patent relates
generally “to a composition and method for rejuvenating polymeric
materials, especially those comprised of vinyl resins such as vinyl siding.”
Id. at 1:7–9. The Background section of the patent indicates that ultraviolet
light can cause vinyl resins, such as poly(vinyl chloride), “to discolor, chalk,
loose [sic] gloss, and even to become brittle leading to possible deformation
of the product.” Id. at 1:18–20. According to the patent, prior attempts at
solving this problem, such as using ultraviolet stabilizers or cleaning the
surface, have not proven to be satisfactory, and thus “a need remains to
rejuvenate the surfaces of these products.” Id. at 1:22–54.
The invention described in the patent includes the use of a
composition with an organic solvent that has a particular “solubility
parameter” (δ), which is matched to the solubility parameter of the vinyl
polymer to be rejuvenated. Id. at 2:40–45. The patent states that the term
“solubility parameter” is known in the art, defined using one of two
formulas:
1) δ = [(ΔEv)/(V)]½, where ΔEv is energy of vaporization and V
is the molar volume; or
2) δ2 = δD2 + δE2+ δH2, where δD is the dispersion component, δE
is the polar component, and δH is the hydrogen bonding
component.

4

63a

Case IPR2017-02158
Patent 6,669,991 B2
Id. at 2:46–61 (citing and incorporating by reference Kirk-Othmer 5 and
Grulke6). The organic solvent may have a solubility parameter either within
the range of 8.0 to about 10.6 (cal/cm3)½, or within about 1.8 (cal/cm3)½ of
the solubility parameter of the target polymeric surface. Id. at 1:57–61,
2:13–18. Specific organic solvents that may be used for such a composition
are also identified, including methylene chloride and acetone. Id. at 3:58–
4:35.
The patent teaches that “[t]he composition and method of this
invention advantageously removes or transforms the chalky surface that
develops on polymeric surfaces that are exposed to sunlight and other
environmental conditions,” and “[a]dditionally, the color, luster, and gloss of
the surface can be restored.” Id. at 2:20–24. The patent notes that “the fact
that the composition of this invention restores the original luster of the
surface, especially the surfaces of vinyl siding, was highly unexpected since
conventional wisdom suggests that a solvent would remove and thereby
deteriorate the luster of the surface.” Id. at 3:29–33. The patent further
notes that “it has been found that the rejuvenation, e.g., restoration of color
and luster, does not necessarily result from cleaning the surface.” Id. at
5:62–65. The only example provided in the patent describes the use of a
colorimeter in determining that the original color of the vinyl siding was
restored within 1 Delta E, which was tantamount to the color differentiation
of a new product and not noticeable to the human eye. Id. at 6:20–7:9.

5

Kirk-Othmer, ENCYCLOPEDIA OF CHEMICAL TECHNOLOGY, Supplement,
889–910 (2d. ed. 1971) (Ex. 1006, “Kirk-Othmer”).
6
Eric A. Grulke, Solubility Parameter Values, POLYMER HANDBOOK,
VII/519–VII/559 (3d ed. 1989) (Ex. 1008, “Grulke”).
5

64a

Case IPR2017-02158
Patent 6,669,991 B2
c. Illustrative Claim
Petitioners challenge claims 1–11, 13, 14, and 20–24 of the ’991
patent. Among the challenged claims, claims 1, 20, and 22 are each
independent and reproduced below:
1. A method for rejuvenating the surface of vinyl siding, the
method comprising:
applying a composition to the surface of the vinyl siding, where
the composition consists essentially of one or more organic
solvent compounds that have a solubility parameter (δ) of from
about 8.0 to about 10.6 (cal/cm3)½, optionally one or more
diluents selected from the group consisting of aliphatic
distillates, aromatic distillates, naphtha, pine oil, tricresyl
phosphate, and mixtures thereof, and optionally one or more
antioxidants, thermal stabilizers, bacteriostats, ultraviolet
absorbers, and a mixture thereof.
20. A method for rejuvenating and cleaning the surface of
weathered vinyl siding, the composition comprising:
applying a composition to the surface of the vinyl siding, where
the composition comprises from about 50 to about 100 percent
by weight of an organic solvent component that is an ether, a
heterocyclic ether, an aldehyde, a ketone, an ester, a chlorinated
hydrocarbon, an amide, a cyclic amide, a compound that is both
an ether and an ester, or a mixture thereof, where the organic
solvent component has a solubility parameter (δ) of from about
8.0 to about 10.6 (cal/cm3)½.
22. A method for rejuvenating the surface of vinyl siding, the
method comprising:
applying a composition to the surface of vinyl siding, where the
vinyl siding includes poly(vinylchoride) or other vinyl
copolymers that are characterized by having a solubility
parameter of from about 9.4 to about 9.8 (cal/cm3)½, where the
composition includes at least 50 percent by weight of one or
more organic solvent compounds that have a solubility
parameter of from about 8.0 to about 10.6 (cal/cm3)½.
Ex. 1001, 7:16–27, 8:49–59, 8:64–9:6.
6

65a

Case IPR2017-02158
Patent 6,669,991 B2
d. The Asserted Grounds of Unpatentability
Petitioners challenge the patentability of the claims of the ’991 patent
based on the following grounds:

References

Basis

Claims challenged

Baumgärtel

§ 102(b)

1–11, 13, 14, and 20–24

Baumgärtel and Billmeyer

§ 103(a)

1–11, 13, 14, and 20–24

Gladstone

§ 102(b)

1–10, 13, and 20

Gladstone

§ 103(a)

11

Petitioners further rely upon the declarations of Robson F. Storey,
Ph. D. (Ex. 1005 and Ex. 1022). In their Response, Patent Owners rely upon
the declaration of Eric Grulke, Ph.D. (Ex. 2003).
II.

ANALYSIS
a. Claim Construction
For petitions filed before November 13, 2018,7 we interpret claims

using the “broadest reasonable construction in light of the specification of
the patent in which [they] appear[].” 37 C.F.R. § 42.100(b) (2017); see also
Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct. 2131, 2144–46 (2016). Under
the broadest reasonable construction standard, claim terms are generally
given their ordinary and customary meaning, as would be understood by one
of ordinary skill in the art at the time of the invention. In re Translogic
Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007). “Absent claim language

7

A recent amendment to 37 C.F.R. § 42.100(b) does not apply here because
the Petition was filed before November 13, 2018. See Changes to the Claim
Construction Standard for Interpreting Claims in Trial Proceedings Before
the Patent Trial and Appeal Board, 83 Fed. Reg. 51,340 (Oct. 11, 2018).
7

66a

Case IPR2017-02158
Patent 6,669,991 B2
carrying a narrow meaning, the PTO should only limit the claim based on
the specification . . . when [it] expressly disclaim[s] the broader definition.”
In re Bigio, 381 F.3d 1320, 1325 (Fed. Cir. 2004). “Although an inventor is
indeed free to define the specific terms used to describe his or her invention,
this must be done with reasonable clarity, deliberateness, and precision.” In
re Paulsen, 30 F.3d 1475, 1480 (Fed. Cir. 1994).
1. “solubility parameter”
Each of the challenged claims require the use of a solvent having a
“solubility parameter” within a specified range. Petitioners note that
the ’991 patent describes two alternative measures for the solubility
parameter, known in the industry as the Hildebrand solubility parameter
(δ = [(ΔEv)/(V)]½) and the Hansen solubility parameter (δ2 = δD2 + δE2+ δH2).
Pet. 6–7. Petitioners contend that the claims are indefinite because the
specification teaches at least two different methods of measuring a
parameter in the claims without specifying which method should be used.
Id. at 8–9.
Although the Hildebrand and Hansen solubility parameters can
diverge for a given solvent, Petitioners acknowledge that the prior art relied
upon in the Petition teaches solvents that fall within the claimed ranges
regardless of which of these two measures of solubility parameter is used.
Id. at 10–11. Thus, as we noted in our Institution Decision, we can
determine the scope and meaning of the claims sufficiently for purposes of
addressing the anticipation and obviousness challenges set forth in the

8

67a

Case IPR2017-02158
Patent 6,669,991 B2
Petition. Inst. Dec. 7. 8 As an alternative to their indefiniteness argument,
Petitioners propose a construction of “solubility parameter as measured by
any of the measures of solubility parameters disclosed in the ’991 patent or
in the publications incorporated by reference in the specification, including
but not limited to Hildebrand and Hansen solubility parameters.” Pet. 15.
In our Institution Decision, we preliminarily construed “solubility
parameter” to encompass either the Hildebrand solubility parameter or the
Hansen solubility parameter as taught in the ’991 patent. Inst. Dec. 7.
Patent Owners do not dispute this construction. PO Resp. 11. Accordingly,
we do not modify our construction of “solubility parameter.”
2. “rejuvenating”
The challenged claims are each directed to “rejuvenating” the surface
of vinyl siding. In particular, independent claims 1 and 22 recite “[a]
method for rejuvenating the surface of vinyl siding,” while independent
claim 20 recites “[a] method for rejuvenating and cleaning the surface of
weathered vinyl siding.” Ex. 1001, cls. 1, 20, 22.
Although the “rejuvenating” term appears in the preamble, Petitioners
assert that it is nonetheless limiting because the applicant argued during
prosecution that rejuvenation of vinyl siding is a feature that distinguishes
the amended claims from the prior art, and further because the preamble
provides antecedent basis for the “applying a composition to the surface of
the vinyl siding” limitations in the body of the independent claims. Pet. 14.
Based on the specification’s teaching that “the color, luster, and gloss of the

8

Although Petitioners make the same indefiniteness argument for the
proposed substitute claims included with Patent Owners’ Motion to Amend,
we can also decide that Motion without reaching this issue.
9

68a

Case IPR2017-02158
Patent 6,669,991 B2
surface can be restored” (Ex. 1001, 2:20–27), Petitioners propose a
construction of “rejuvenating the surface of vinyl siding” as “to remove or
transform the chalky surface that develops on vinyl siding that is exposed to
sunlight and other environmental conditions, and restore the color, luster,
and/or gloss of the vinyl siding.” Pet. 15 (citing Ex. 1005 ¶¶ 33–38).
We preliminarily adopted Petitioners’ proposed construction for
“rejuvenating” in our Institution Decision. Inst. Dec. 8–10.9 In their
Response, Patent Owners do not dispute that the preamble language is
limiting, but contend that “‘rejuvenating [and cleaning] the surface of vinyl
siding’ should be construed as ‘restoring the color and luster of the surface
of vinyl siding [and removing or transforming the chalky surface that
develops on the surface of vinyl siding from exposure to sunlight and other
environmental conditions].’” PO Resp. 4 (alterations in original). Thus,
Patent Owners argue that both color and luster must be restored in order to
satisfy the “rejuvenating” term, and further seek to distinguish
“rejuvenating” from the term “cleaning.”
In that regard, Patent Owners contend that “the rejuvenation of the
surface of vinyl siding (as claimed) requires restoration of color” because
Webster’s American Dictionary College Edition (1997) (Ex. 2005, 865), the
Fourth Edition of the American Heritage Dictionary (Ex. 2006, 705), and
Merriam-Webster (Ex. 2007) each equate “rejuvenate” with “restore,” and
also because color is an essential aspect of the appearance of vinyl siding.

9

For purposes of our Institution Decision, we treated luster and gloss as both
referring to the shininess of the surface. See Inst. Dec. 8, n.7 (citing Ex.
2001, 53:9–20). As there is no dispute on this point, we continue to treat
luster and gloss in the same manner for this decision.
10

69a

Case IPR2017-02158
Patent 6,669,991 B2
PO Resp. 5–6 (citing Ex. 2003 ¶¶ 15–24). Noting that the ’991 patent
contemplates the rejuvenation of “numerous products made from polymeric
materials, including vinyl resins, plastics and rubbers” (Ex. 1001, 1:49–54),
Patent Owners contend “it is unsurprising that the specification describes the
restoration of color as an example of rejuvenation in the context of
describing an invention for rejuvenating weathered polymeric materials in
general, as opposed to rejuvenation of vinyl siding specifically.” PO Resp. 6
(citing Ex. 2003 ¶ 15, 17–18).
Based on our consideration of the full record of this proceeding, we
are unpersuaded by Patent Owners’ argument that the proper construction of
“rejuvenating” requires restoration of both color and luster. As
acknowledged by Patent Owners, the plain and ordinary meaning of
“rejuvenating” does not require color to be restored. PO Resp. 5 (“It is true
that rejuvenation in general does not require the restoration of color.”). The
claims do not otherwise mention color, luster, or gloss as a characteristic of
the vinyl siding.
Moreover, contrary to Patent Owners’ arguments, neither the claims
nor the specification indicate that color is such an essential aspect of vinyl
siding that “rejuvenating the surface of vinyl siding” would have been
understood to necessarily require the restoration of color. While the
specification teaches that “color, luster, and gloss can be restored,” we do
not interpret that statement to require that all three characteristics must be
restored according to the claimed methods. Ex. 1001, 2:23–24 (emphasis
added). Rather, the specification indicates that restoration of both color and
luster is only an example of “rejuvenation” of vinyl siding:

11

70a

Case IPR2017-02158
Patent 6,669,991 B2
During this method of application, some of the chalky surface
of the vinyl siding may be removed on the cloth, but it should
be appreciated that this removal is not required to achieve the
benefits of rejuvenation. In other words, it has been found that
the rejuvenation, e.g., restoration of color and luster, does not
necessarily result from cleaning the surface. Instead, the
restoration or rejuvenation is believed to result from a
replasticizing of the vinyl surface. A residual benefit of the
invention is the fact that debris other than the chalky surface
can be removed, i.e., cleaned.
Id. at 5:59–6:1 (emphasis added); see Interval Licensing LLC v. AOL, Inc.,
766 F.3d 1364, 1374 (Fed. Cir. 2014) (determining that “person of ordinary
skill in the art would not understand the ‘e.g.’ phrase to constitute an
exclusive definition”). Patent Owners’ argument that this exemplary
statement was only made in the context of discussing weathered polymeric
materials in general is not convincing in view of the fact that the
immediately both the preceding and subsequent sentences specifically
discuss vinyl siding. We also note that other portions of the specification
only focus on the restoration of luster, rather than color, of vinyl siding
surfaces. See Ex. 1001, 3:29–33 (indicating that restoration of “the original
luster of the surface, especially the surfaces of vinyl siding, was highly
unexpected since conventional wisdom suggests that a solvent would
remove and thereby deteriorate the luster of the surface”).
Furthermore, while we recognize that the only example included in
the specification describes the use of a colorimeter test (Ex. 1001, 6:20–7:9),
we do not find that the claims are limited by that example’s teachings to
require the restoration of color. See Liebel–Flarsheim Co. v. Medrad, Inc.,
358 F.3d 898, 906 (Fed. Cir. 2004) (“[T]his court has expressly rejected the

12

71a

Case IPR2017-02158
Patent 6,669,991 B2
contention that if a patent describes only a single embodiment, the claims of
the patent must be construed as being limited to that embodiment.”).
Additionally, Patent Owners contend that Petitioners’ proposed
construction for “rejuvenating” improperly reads in “remove or transform
the chalky surface that develops on vinyl siding that is exposed to sunlight
and other environmental conditions” because “[t]he specification clearly
considers rejuvenating and cleaning to be two related, but distinct actions.”
PO Resp. 10. Patent Owners assert that this requirement should only be
included for those claims in which “cleaning” also appears. Id. at 11. Upon
consideration of Patent Owners’ arguments in the Response and Petitioners’
arguments in the Reply, we are still persuaded that this aspect of our
preliminary construction is correct.
The specification recites that “[t]he composition and method of this
invention advantageously removes or transforms the chalky surface that
develops on polymeric surfaces that are exposed to sunlight and other
environmental conditions.” Ex. 1001, 2:20–24. According to the
specification, “rejuvenation . . . does not necessarily result from cleaning the
surface,” but instead “is believed to result from a replasticizing of the vinyl
surface.” Id. at 5:63–66. Furthermore, the specification defines “cleaned”
as when debris other than the chalky surface is removed. Ex. 1001, 5:66–
6:5 (“A residual benefit of the invention is the fact that debris other than the
chalky surface can be removed, i.e., cleaned.”); see Edwards Lifesciences
LLC v. Cook Inc., 582 F.3d 1322, 1334 (Fed. Cir. 2009) (“[T]he
specification’s use of ‘i.e.’ signals an intent to define the word to which it
refers.”).

13

72a

Case IPR2017-02158
Patent 6,669,991 B2
At the same time, however, the specification states that removal of the
chalky surface is not required to achieve rejuvenation. See id. at 5:59–62
(“During this method of application, some of the chalky surface of the vinyl
siding may be removed on the cloth, but it should be appreciated that this
removal is not required to achieve the benefits of rejuvenation.”); id. at 6:1–
5 (“In other embodiments, the composition can be sprayed or rolled onto the
surface to be treated. Again, these techniques are useful because the chalky
surface does not need to [be] removed from the surface.”). The specification
also teaches that rejuvenation is specifically attributable to the use of an
organic solvent with a solubility parameter that matches the solubility
parameter of the vinyl surface, and that this was unexpected because
“conventional wisdom suggests that the use of a matched solvent would lead
to the destruction, via solubilization, of the surface.” See id. at 2:40–45
(stating that “[v]inyl siding and other weathered polymeric materials can be
rejuvenated by applying a particular composition of matter to the surface of
the siding or material,” wherein “[t]he composition includes at least one
organic solvent compound that has a solubility parameter (δ) that is matched
to the solubility parameter of the polymeric surface to be rejuvenated”)
(emphasis added); id. at 3:23–28 (“The use of a solvent that is matched to
the solubility parameter of the target polymer within the article to be
rejuvenated or cleaned has led to unexpected advantages . . . .”).
Based on the foregoing, we determine that the specification draws a
distinction between “rejuvenating” the chalky surface that develops on
polymeric surfaces exposed to sunlight and other environmental conditions,
and simply “cleaning” the surface. See also Ex. 1001, 1:43–48 (discussing
drawbacks to “[c]onventional approaches to cleaning”); id. at 8:49–50
14

73a

Case IPR2017-02158
Patent 6,669,991 B2
(claim 20 requiring both “rejuvenating” and “cleaning” the weathered vinyl
siding surface). The rejuvenation discussed in the ’991 patent is believed to
result from solubilizing and replasticizing the vinyl surface due to the
application of an organic solvent with a solubility parameter that matches the
surface. Although the specification states that the chalky surface does not
actually need to be removed in order to achieve this rejuvenation, neither the
claims nor the specification categorically excludes removal of the chalky
surface from being part of the claimed process. Petitioners’ proposed
construction encompassing either removing or transforming the chalky
surface properly takes these teachings into account.
Accordingly, we maintain our construction of “rejuvenating” as “to
remove or transform the chalky surface that develops on vinyl siding that is
exposed to sunlight and other environmental conditions, and restore the
color, luster, and/or gloss of the vinyl siding.”
3. Other Claim Terms
We determine that no other claim terms need to be construed for
purposes of our analysis in this Decision. See Nidec Motor Corp. v.
Zhongshan Broad Ocean Motor Co., 868 F.3d 1013, 1017 (Fed. Cir. 2017)
(“we need only construe terms ‘that are in controversy, and only to the
extent necessary to resolve the controversy’”) (quoting Vivid Techs., Inc. v.
Am. Sci. & Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir. 1999)).
b. Level of Skill in the Art
Petitioners contend that a person of ordinary skill in the art
(“POSITA”) for the ’991 patent “was someone with a bachelor of science
degree in chemistry or polymer science and three to four years of experience
in developing coatings and other formulations for treating polymeric
15

74a

Case IPR2017-02158
Patent 6,669,991 B2
materials,” and “would have been familiar with the fundamentals of polymer
solvation.” Pet. 17 (citing Ex. 1005 ¶ 23). Patent Owners contend that the
POSITA “would have had at least a bachelor’s degree in chemistry and/or
material science and two or more years of experience in the field, or [would
have served as] a mechanic with five or more years of experience working
with solvents and their interaction on various substrates.” PO Resp. 3 (citing
Ex. 2003 ¶ 8).
We preliminarily adopted Petitioners’ definition of the skill level of
the POSITA in our Institution Decision, as it was undisputed at the time and
consistent with the evidence of record. Inst. Dec. 10–11. Although Patent
Owners’ newly proposed skill level appears to allow for lesser education
and/or experience than Petitioners’ proposed skill level, the parties have not
suggested, and we do not perceive, that there is any meaningful difference
between the proposals that would impact our patentability analysis.
Nonetheless, we continue to adopt Petitioners’ proposed skill level for a
POSITA as more apt given the focus of the ’991 patent on rejuvenating
polymeric surfaces through the use of an organic solvent with a particular
solubility parameter. We have also taken into account the level of skill in
the art that is reflected in the prior art of record. See Okajima v. Bourdeau,
261 F.3d 1350, 1355 (Fed. Cir. 2001). We find that Dr. Storey and
Dr. Grulke are both qualified to provide opinions as to the perspective and
knowledge of a POSITA. See Ex. 1005 ¶¶ 23–24; Ex. 2003 ¶¶ 8–9.
c. Patentability Analysis
1. Content of the Prior Art
Petitioners rely primarily upon the following prior art teachings in
their challenges.
16

75a

Case IPR2017-02158
Patent 6,669,991 B2
a. Baumgärtel (Ex. 1002)
Baumgärtel is a German patent application published August 30,
1979. Baumgärtel describes compositions and methods for “Regenerating
and Restoring Surfaces or Surface Layers of Molded Parts or Objects Made
of Thermoplastic Resins Damaged by Light or Weather.” Ex. 1002, 1
(Title). Baumgärtel notes that “[t]his weather damage becomes apparent
through a change in color, or through damage to the surface, which can
reach a layer depth of 50 μm and more in the case of, e.g., polyvinyl chloride
molded parts damaged by weather or light.” Id. at 9. According to
Baumgärtel, “conventional commercial household cleaning agents can in
some cases refresh the color to a certain degree, but cannot eliminate
damage to surface layers caused by weather, or lead to a restoration of the
original appearance of the surface of the plastic.” Id. Baumgärtel teaches
that using the compositions described therein will “regenerate and restore
objects and molded parts made of thermoplastic resins increasingly used for
exterior applications, e.g. polyvinyl chloride . . , which are exposed to
weather and light effects,” such that “siding . . . which already exhibit light
or weather damaged surfaces or surface layers [will] appear new on one
hand, and have a protected and restored surface or surface layer on the other
hand.” Id. at 12–13.
“[A]n organic chemical liquid that swells the thermoplastic resin”
may be used as the treatment agent. Id. at 12. “According to a particularly
advantageous embodiment” of Baumgärtel’s method, “the molded parts or
objects made of thermoplastic resins are regenerated and restored” with a
composition containing “portions of (in relation to 100 parts liquid or liquid
mixture) ca. 80% to 99.9% (by weight), preferably 90% to 99% (by weight),
17

76a

Case IPR2017-02158
Patent 6,669,991 B2
of an organic chemical liquid or liquid mixture that swells the surface.” Id.
at 15. More specifically, for thermoplastic resins such as polyvinyl chloride,
“particularly suitable” treatment agents are “composed of portions of ca. 5%
to ca. 0.1% (by weight), preferably 2.5% to 0.5% (by weight), of a UV
absorber and/or light stabilizer, or mixtures of one or more UV absorbers
and/or light stabilizers, and dichloromethane or an organic chemical liquid
mixture that swells the thermoplastic resin (e.g. polyvinyl chloride),
dissolves the UV absorber and/or light stabilizer.” Id. at 12. Baumgärtel
also allows for “[t]he partial replacement of dichloromethane . . . with the
provision that the overall liquid has only a swelling effect on the objects to
be treated, and does not dissolve them.” Id. at 13. In particular, “acetone,
ethyl acetate or methyl acetate or a mixture of these compounds” may be
used as the organic chemical liquid that “swells polyvinyl chloride, and
partially replaces dichloromethane.” Id. at 14.
Baumgärtel further teaches that an “additional restoration and/or
surface treatment agent . . . should be implemented for practical purposes.”
Id. “Preferably, an optical brightener, antioxidant, antistatic, pigment, wax
and/or silicone, or a mixture of one or more of these components, is used as
the additional restoration and/or surface treatment agent.” Id. at 12. Such an
additional restoration/surface treatment agent may also include a pigment.
Id. at 17. And “[w]ith the treatment agent containing pigments, it is also
possible to color the molded part or object made of thermoplastic resin on
the surface layer, such that either nearly the original ‘restored’ color, or
some other color, can be obtained.” Id. at 18.
Example 1 of Baumgärtel is reproduced below:

18

77a

Case IPR2017-02158
Patent 6,669,991 B2
The yellowed surface layer of a white siding made of impact
resistant polyvinyl chloride is rubbed with a solution of 0.3 g 2hydroxy-4-methoxybenzophenon (UV absorber), 0.3 g dibutyl
tin-bis-maleic acid isobutyl ester (light stabilizer) and 0.4 g
cetyl palmitate (wax) in 99 g dichloromethane using cellulose
towels, such that the damaged surface layer is removed and the
layer unprotected against the effects of weather is protected by
the quantity of UV absorber, light stabilizer and wax remaining
in and on it against further weathering and the yellowing caused
thereby.
Id. at 20.
b. Billmeyer (Ex. 1003)
Billmeyer is an excerpt from the Textbook of Polymer Science, with a
copyright date of 1984. Ex. 1003. Billmeyer teaches the criteria for
polymer solubility, noting that “[d]issolving a polymer is a slow process that
occurs in two stages” wherein “[f]irst, solvent molecules slowly diffuse into
the polymer to produce a swollen gel” and second, “the gel gradually
disintegrates into a true solution.” Id. at 151. Billmeyer teaches the
selection of solvents for solvation (including swelling) of polymers using the
solubility parameter (δ), as originally approximated by Hildebrand. Id. at
152–53. In particular, “[t]he value of the solubility-parameter approach is
that δ can be calculated for both polymer and solvent,” and “[a]s a first
approximation, and in the absence of strong interactions such as hydrogen
bonding, solubility can be expected if δ1 – δ2 is less than 3.5–4.0 [J/cm3)½],
but not if it is appreciably larger.” Id. Billmeyer notes that this approach to
polymer solubility has been extensively used, particularly in the paint
industry. Id. at 153.
Billmeyer includes the following table of typical values of the
solubility parameter for some common polymers and solvents:
19

78a

Case IPR2017-02158
Patent 6,669,991 B2

Id. As noted in Table 7-1 above, poly(vinyl chloride) has a solubility
parameter of 19.4 (J/cm3)½, which converts to 9.5 (cal/cm3)½. Ex. 1005
¶ 150.
c. Gladstone (Ex. 1004)
Gladstone appears to be a newspaper advice column concerning home
improvement bearing a date of February 18, 2000. Ex. 1004. In the
question posed to the columnist, the homeowner stated that a contractor
accidently spilled tar on light colored vinyl siding and cleaned it using
acetone, but the homeowner complained, “now that we are getting more sun,
those places where the tar was removed have a slight shine or gloss that
makes them very noticeable,” and asked “how to dull these glossy spots so
that they do not stand out as much?” Id. at 1. In response, the columnist
advised as follows:

20

79a

Case IPR2017-02158
Patent 6,669,991 B2
When the tar was washed off, the solvent also removed the
“chalking” on the finish, thus exposing the original luster. You
could use a solvent to clean off all the siding in the same way.
But if you want to avoid this big job, you may be able to get by
with simply dulling the shiny places by rubbing down with a mild
abrasive such as a kitchen scouring pad (sold for cleaning pots)
or even an automobile cleaning and polishing compound (sold
for restoring old, dull finishes).
Id. at 1–2.
2. Anticipation Based on Baumgärtel
Petitioners contend that claims 1–11, 13, 14, and 20–24 are
anticipated by Baumgärtel. Pet. 23–24. Petitioners provide a claim chart
detailing how each limitation of the challenged claims is allegedly taught by
Baumgärtel. Id. at 24–34.
In our Institution Decision, we found that Petitioners demonstrated a
reasonable likelihood of prevailing with respect to at least one claim based
on this anticipation challenge. Inst. Dec. 14–16. We have revisited the
analysis set forth in our Institution Decision and considered the question of
patentability anew in view of all the evidence and arguments presented in
this proceeding. Based on the record developed during this proceeding, we
now determine that Petitioners have shown by a preponderance of the
evidence that Baumgärtel anticipates claims 1–11, 14, and 20–24, but have
not demonstrated that Baumgärtel anticipates claim 13.
Independent Claims 1, 20, and 22
With respect to independent claim 1, Petitioners contend that the
preamble’s recitation of “[a] method of rejuvenating the surface of vinyl
siding” is satisfied by Baumgärtel’s teaching of a method for regeneration
and restoring surfaces of molded parts made of thermoplastic resins
damaged by light or weather. Pet. 24 (citing Ex. 1002, 1). Petitioners focus
21

80a

Case IPR2017-02158
Patent 6,669,991 B2
on Example 1 of Baumgärtel, which discloses the application of a
composition containing 99 wt. % dichloromethane to the surface of weatherdamaged vinyl siding. Id. at 24–25 (citing Ex. 1002, 20). Petitioners
contend that dichloromethane (aka methylene chloride or methylene
dichloride)10 is an organic solvent compound that has a solubility parameter
(δ) within the claimed range of about 8.0 to about 10.6 (cal/cm3)½, and in
particular a Hildebrand solubility parameter of 9.7 (cal/cm3)½ and a Hansen
solubility parameter of 9.9 (cal/cm3)½. Id. at 25 (citing Ex. 1005 ¶ 80;
Ex. 1008 (Grulke); Ex. 1009 (Kirk-Othmer)).
With respect to the “consisting essentially of”11 phrase in claim 1,
Petitioners contend that the additional ingredients included in Example 1 (a
UV absorber, light stabilizer, and wax) do not affect the rejuvenation
characteristics of dichloromethane. Id. at 25–26 (citing Ex. 1005 ¶¶ 81–84).
With regard to claim 1’s optional inclusion of one or more diluents,
Petitioners cite to Example 4 of Baumgärtel, which teaches the use of the
diluent n-heptane, which is an aliphatic distillate. Id. at 26 (citing Ex. 1002,
20; Ex. 1005 ¶¶ 85–88). Additionally, with respect to other optional
ingredients recited in claim 1, Petitioners cite to Baumgärtel’s teaching that
“an optical brightener, antioxidant, antistatic, pigment, wax and/or silicone,
or a mixture of one or more of these components, is used as the additional

10

It is undisputed that the dichloromethane referenced in Baumgärtel is the
same compound as the methylene chloride referenced in the ’991 patent.
Ex. 1005 ¶ 53.
11
The transitional phrase “consisting essentially of” is understood to exclude
additional ingredients that would “materially affect the basic and novel
characteristics” of the claimed composition. Atlas Powder Co. v. E.I. du
Pont De Nemours & Co., 750 F.2d 1569, 1574 (Fed. Cir. 1984).
22

81a

Case IPR2017-02158
Patent 6,669,991 B2
restoration and/or surface treatment agent.” Id. (citing Ex. 1002, 12).
Petitioners rely upon the same teachings to assert that independent claims 20
and 22 are anticipated by Baumgärtel. Id. at 31–33.
Patent Owners do not separately argue the challenged claims in their
Response. Instead, Patent Owners argue that Petitioners failed to show that
Baumgärtel anticipates any claim because the reference “does not teach that
its disclosed solvents will restore the color of the vinyl siding.” PO
Resp. 12. Patent Owners do not dispute that the dichloromethane used in
Example 1 of Baumgärtel is an organic solvent that inherently meets the
solubility parameter requirements of the challenged claims. See Ex. 1005
¶¶ 53, 80. Patent Owners, however, contend that the solvent mixture
disclosed in Baumgärtel does not restore the color of vinyl siding on its own;
instead, the reference discloses that the addition of pigments is required to
restore color. Id. (citing Ex. 1002, 14, 17–18). Patent Owners additionally
contend that Baumgärtel does not teach that the disclosed organic solvent
rejuvenates the vinyl siding because the reference does not specify that the
solvent restores color, but rather only discusses the regeneration and
restoration of objects and molded parts such that they “appear new” and
“have a protected and restored surface or surface layer.” Id. at 13 (citing
Ex. 1002, 12–13).
Consistent with their claim construction position, Petitioners in their
Reply contend that the claimed methods of “rejuvenating” do not require
restoration of color. Reply 11–12. Petitioners further argue that Baumgärtel
anticipates the claims even if “rejuvenating” were construed to require
restoration of both color and luster. Id. In support of this argument,
Petitioners cite Baumgärtel’s teaching that dichloromethane can be applied
23

82a

Case IPR2017-02158
Patent 6,669,991 B2
“to vinyl siding that has ‘weather damage [that has] become[] apparent
through a change in color’ in order to ‘regenerate and restore’ that vinyl
siding and to make that vinyl siding ‘appear new.’” Id. at 12–13 (citing Ex.
1002, 9, 12–13). Petitioners explain that, in Example 1, Baumgärtel
demonstrates the application of 99% dichloromethane to remove a
“yellowed” layer from the surface of weather-damaged vinyl siding. Id. at
13–14 (citing Ex. 1002, 20). Petitioners admit it is “not clear that
Baumgärtel’s Example 1 restored the vinyl siding to the ‘original’ color
when it removed the yellowed surface layer to reveal the unprotected layer
of white vinyl siding underneath,” but contend that the claims do not require
restoring the “original” color and “there is no doubt that Example 1 results in
some restoration of color.” Id. at 14.
Having considered the parties’ arguments and the evidence of record,
we find that Baumgärtel teaches either explicitly or inherently all the
limitations of independent claims 1, 20, and 22. As set forth above, we have
construed “rejuvenating” as it appears in the preambles of each of these
claims to mean “remove or transform the chalky surface that develops on
vinyl siding that is exposed to sunlight and other environmental conditions,
and restore the color, luster, and/or gloss of the vinyl siding.” Additionally,
we have construed “solubility parameter” to encompass either the
Hildebrand solubility parameter or the Hansen solubility parameter as taught
in the ’991 patent.
Although Baumgärtel does not mention solubility parameters, it is
undisputed that dichloromethane is an organic solvent compound with a
Hildebrand solubility parameter of 9.7 (cal/cm3)½ and a Hansen solubility
parameter of 9.9 (cal/cm3)½, thereby falling within the claimed range of
24

83a

Case IPR2017-02158
Patent 6,669,991 B2
about 8.0 to about 10.6 (cal/cm3)½ using either method of calculation.
Ex. 1005 ¶ 80; Ex. 1008; Ex. 1009. It is also undisputed that the additional
ingredients besides the 99 g dichloromethane included in the composition of
Baumgärtel’s Example 1 would not materially affect the basic and novel
properties of the claimed composition. Indeed, as noted by Dr. Storey, two
of those additional ingredients, namely, the UV absorber (0.3 g 2-hydroxy-4methoxybenzophenon) and light stabilizer (0.3 g dibutyl tin-bis-maleic acid
isobutyl ester), are among the “optional” ingredients recited in claim 1. 12
Ex. 1005 ¶ 81; Ex. 1020 (teaching that dihydrocarbyl tin maleic acid esters
provide stabilization of vinyl chloride resins against both heat and light).
Dr. Storey further attests, without dispute, that the third additional ingredient
of Baumgärtel’s Example 1 composition (0.4 g cetyl palmitate wax) would
not have affected the rejuvenation characteristics of the composition at such
low concentrations. Ex. 1005 ¶ 82. As such, we find that the composition in
Baumgärtel Example 1 “consists essentially of one or more organic solvent
compounds” meeting the solubility parameter requirement, i.e.,
dichloromethane.
Furthermore, in view of both the specific teaching in Example 1 that
the weather-damaged “yellowed surface layer” of a white polyvinyl chloride
siding was removed as well as the more generalized teachings elsewhere in
12

Given that the additional ingredients are identified as optional, they need
not be taught by the prior art for us to find anticipation. Cf. Cadence Pharm.
Inc. v. Exela PharmSci Inc., 780 F.3d 1364, 1373 (Fed. Cir. 2015) (finding
optional claim limitation did not need to be satisfied for a finding of
infringement). Petitioners, nonetheless, identify ingredients taught by
Baumgärtel that correspond to at least some of these optional ingredients.
See Pet. 26–27.
25

84a

Case IPR2017-02158
Patent 6,669,991 B2
Baumgärtel that weather damage becomes apparent through a change in
color and Baumgärtel’s stated objective of restoring such damaged surfaces
to its original appearance (e.g., Ex. 1002, 9), we find that Baumgärtel
teaches removing or transforming the chalky surface that develops on vinyl
siding that is exposed to sunlight and other environmental conditions, and
restoring the color, luster, and/or gloss of the vinyl siding. Additionally, we
find that Baumgärtel’s teaching that the composition “swells the surface of
the plastic, but does not dissolve the resin” (id.) is consistent with the ’991
patent’s teaching that “conventional wisdom suggests that the use of a
matched solvent would lead to the destruction, via solubilization, of the
surface,” but instead such use unexpectedly results in rejuvenation of the
surface (“believed to result from a replasticization of the vinyl surface”).
Ex. 1001, 3:23–28, 5:65–66. This is evidenced by Billmeyer, which is a
textbook teaching that dissolving a polymer generally involves “solvent
molecules slowly diffus[ing] into the polymer to produce a swollen gel” and
that matching the solubility parameter of the solvent with the polymer
enhances solubility. See Ex. 1003, 151–53. Thus, we find that Baumgärtel
teaches “rejuvenating” the surface of vinyl siding using such a composition
in the same manner as the ’991 patent.
Accordingly, we determine that Baumgärtel anticipates claims 1, 20, and 22.
Dependent Claims 2–11, 13, 14, 21, 23, and 24
Petitioners provide a claim chart and supporting expert testimony
showing how the challenged dependent claims are taught by Baumgärtel.
Pet. 27–34. Patent Owners have not have made any separate arguments for
these dependent claims. We nonetheless ascertain whether Petitioners have
met their burden with respect to these claims.
26

85a

Case IPR2017-02158
Patent 6,669,991 B2
Claim 2 recites that “the organic solvent compound is a polar
compound.” Dr. Storey explains that dichloromethane has a dipole moment
and is thus a polar compound. Ex. 1005 ¶ 94. Claim 3 recites that the
organic solvent compound can be a chlorinated hydrocarbon while claim 4
recites that the organic solvent compound can be methylene chloride.
Dr. Storey explains that dichloromethane also meets these requirements. Id.
¶¶ 96–99. Claims 5, 6, and 7 specify progressively narrower ranges for the
solubility parameter of the organic solvent compound, with the narrowest
recited range of “from about 8.9 to about 10.0 (cal/cm3)½.” As noted above,
dichloromethane has a Hildebrand solubility parameter of 9.7 (cal/cm3)½ and
a Hansen solubility parameter of 9.9 (cal/cm3)½, which fall within these
narrower ranges. Id. ¶¶ 100–105. Claim 8 (dependent from claim 1), claim
9 (dependent from claim 3), and claim 10 (dependent from claim 4) specify
that the composition includes from about 50 to about 100 percent by weight
of the organic solvent compounds. We find this requirement to be satisfied
by Baumgärtel’s Example 1 composition, which includes 99 % (by weight)
of dichloromethane. Id. ¶¶ 106–111. Claim 11 specifies that “the step of
applying includes wiping the surface with a cloth or sponge.” We find this
to also be satisfied by Baumgärtel’s Example 1, which teaches the
application of the dichloromethane composition using cellulose towels. Id.
¶¶ 112–113. Claim 14 (dependent from claim 1), claim 21 (dependent from
claim 20), and claim 24 (dependent from claim 22) specify that the vinyl
surface comprises poly(vinylchloride) or a vinyl chloride copolymer having
a solubility parameter of from about 9.4 to about 9.8 (cal/cm3)½. We find
that the polyvinyl chloride surface treated according to Baumgärtel’s

27

86a

Case IPR2017-02158
Patent 6,669,991 B2
Example 1 inherently satisfies this solubility parameter requirement. Id.
¶¶ 117–119, 125–127, 139–140; Ex. 1001, 3:10–12; Ex. 1003, 153.
Claim 13 (dependent from claim 1) specifies that “the organic solvent
compound is selected from the group consisting of ethyl 3-ethoxypropionate,
ethylene glycol monobutyl ether acetate, and acetone.” Similarly, claim 23
(dependent from claim 22) specifies that “the one or more organic solvent
compounds include ethyl 3-ethoxypropionate, ethylene glycol monobutyl
ether acetate, and acetone.” For both these requirements, Petitioners rely
upon Baumgärtel’s teaching that dichloromethane can be partially replaced
with an “aliphatic, acyclical liquid that swells the thermoplastic resin,”
including in particular acetone. Pet. 30, 34 (citing Ex. 1002, 13–14).
However, as recognized by Petitioners, Baumgärtel teaches just partially
replacing dichloromethane with another solvent such as acetone. While this
teaching is sufficient to satisfy claim 23, which uses the open-ended
transitional phrase “include,” we do not find it satisfies claim 13, which only
recites acetone as part of a closed Markush group. As such, claim 13 does
not allow for the inclusion of ingredients other than the specifically
enumerated organic solvent compounds, which does not include
dichloromethane. See Multilayer Stretch Cling Film Holdings, Inc. v. Berry
Plastics Corp., 831 F.3d 1350, 1357–62 (Fed. Cir. 2016) (applying
presumption that a Markush group using the transitional phrase “consisting
of” is closed to other unrecited ingredients).
Accordingly, we determine that Baumgärtel anticipates dependent
claims 2–11, 14, 21, 23, and 24. Petitioners, however, have not met their
burden of showing that Baumgärtel anticipates dependent claim 13.

28

87a

Case IPR2017-02158
Patent 6,669,991 B2
3. Obviousness Based on Baumgärtel and Billmeyer
Petitioners contend that claims 1–11, 13, 14, and 20–24 are also
rendered obvious by the combined teachings of Baumgärtel and Billmeyer.
Pet. 34–38. Petitioners provide a claim chart detailing how each limitation
of the challenged claims is taught by Baumgärtel and Billmeyer. Id. at 38–
50. Because we having determined that Baumgärtel alone anticipates
claims 1–11, 14, and 20–24, we only address this challenge as applied to
dependent claim 13. Petitioners do not rely upon Billmeyer to argue that it
would have been obvious to entirely replace the dichloromethane taught by
Baumgärtel with acetone or any of the other organic solvent compounds
enumerated in claim 13. See id. at 46 (relying only upon Baumgärtel’s
teachings in obviousness challenge as to claim 13). Accordingly, for the
reasons discussed above, we determine that Petitioners have not met their
burden of showing that the combination of Baumgärtel and Billmeyer
renders obvious dependent claim 13.
4. Anticipation/Obviousness Based on Gladstone
Petitioners contend that claims 1–10, 13, and 20 are anticipated by
Gladstone, and that claim 11 is rendered obvious by Gladstone. Pet. 51–60.
Petitioners provide claim charts detailing how each limitation of the
challenged claims is allegedly taught or suggested by Gladstone. Id. at 53–
60.
In our Institution Decision, we determined that Petitioners did not
demonstrate a reasonable likelihood of prevailing with respect to the
challenges based on Gladstone. Inst. Dec. 17–19. We have revisited the
analysis set forth in our Institution Decision and considered the question of
patentability anew in view of all the evidence and arguments presented in
29

88a

Case IPR2017-02158
Patent 6,669,991 B2
this proceeding. Based on the record developed during this proceeding, we
determine that Petitioners have not shown by a preponderance of the
evidence that claims 1–10, 13, and 20 are anticipated by Gladstone, or that
claim 11 is rendered obvious by Gladstone.
According to Petitioners, Gladstone describes the treatment of
weathered vinyl siding with acetone to “remove[] the ‘chalking’ on the
finish, thus exposing the original luster.” Pet. 51. Although Gladstone does
not discuss solubility parameters, Petitioners assert that “the solubility
parameter is an inherent property of a solvent,” and that the Hildebrand and
Hansen solubility parameters of the acetone are 9.8–9.9 (cal/cm3)½. Id.
(citing Ex. 1005 ¶¶ 54, 223). Furthermore, Petitioners rely upon Patent
Owners’ Infringement Contentions from the co-pending District Court
litigation, in which Patent Owners allegedly admitted that a 75–100%
acetone formulation meets the limitations of the challenged claims. Id. at
51–53 (citing Ex. 1009, Table 1).
Patent Owners argue that Gladstone does not anticipate or render any
claim obvious because it does not endorse using acetone to restore the luster
of vinyl siding and does not mention color restoration. PO Resp. 15–17
(citing Ex. 1004, 1). Patent Owners also argue that Gladstone does not
disclose the exact composition of the acetone solvent referenced in the
article, so Petitioners have not established that Gladstone teaches a
composition consisting essentially of an organic solvent having the claimed
solubility parameters. Id. at 17. Additionally, Patent Owners contend that
there is no statutory basis for Petitioners to rely upon Patent Owners’
infringement contentions to support its grounds. Id. at 16 (citing 35 U.S.C.
§ 311).
30

89a

Case IPR2017-02158
Patent 6,669,991 B2
Petitioners have not demonstrated why the POSITA would have
understood this newspaper column to teach the claimed methods. See
Sundance, Inc. v. DeMonte Fabricating Ltd., 550 F.3d 1356, 1361 (Fed. Cir.
2008) (“What a prior art reference discloses or teaches is determined from
the perspective of one of ordinary skill in the art.”). For instance, other than
simply referring to “acetone,” no details are provided in Gladstone as to the
exact composition of the solvent discussed therein. That is, Petitioners have
not established that a POSITA would have understood Gladstone to teach a
composition “consisting essentially” of an organic solvent having the
claimed solubility parameters as required by claim 1. Petitioners, in their
Reply, contend that a POSITA reading Gladstone would have concluded that
the acetone identified therein is the “same, pure acetone that can be
purchased in [the] corner hardware store.” Reply 19. Petitioners, however,
do not point to any evidence of record showing the composition or purity
level of acetone that can be purchased in a hardware store. Petitioners’
reliance upon Patent Owners’ infringement contentions from the district
court litigation does not remedy this deficiency since there is no basis to
conclude that the products accused of infringement have the same
composition as the “acetone” identified in Gladstone.
Furthermore, we agree with Patent Owners that Gladstone did not
endorse using acetone to restore the luster of vinyl siding—rather, the
homeowner had complained that acetone made a patch of vinyl siding shiny,
and the columnist responded that “[y]ou could use a solvent to clean off all
the siding in the same way,” but noted that was a “big job” to be avoided,
and instead recommended “simply dulling the shiny places by rubbing down
with a mild abrasive.” Ex. 1004, 1–2 (emphasis added). While we agree
31

90a

Case IPR2017-02158
Patent 6,669,991 B2
with Petitioners that “teaching away is not relevant to an anticipation
analysis,” Reply 16 (citing Krippelz v. Ford Motor Co., 667 F.3d 1261, 1269
(Fed. Cir. 2012)), we find that Gladstone’s recommendation against using
acetone to clean off the siding is relevant to at least Petitioners’ obviousness
contentions as to claim 11.
Accordingly, we determine that Petitioners have not demonstrated that
claims 1–10, 13, and 20 are anticipated by Gladstone, or that claim 11 is
rendered obvious by Gladstone.
III.

PATENT OWNERS’ MOTION FOR CONDITIONAL
AMENDMENT
As discussed above, we determine that Petitioners have demonstrated

by a preponderance of the evidence that claims 1–11, 14, and 20–24 are
unpatentable. Accordingly, we address Patent Owners’ Motion to Amend
with respect to proposed substitute claims 25–35 and 37–42. Mot. 2–6.
Because we did not find claim 13 unpatentable, we do not address Patent
Owners’ Motion to Amend with respect to proposed substitute claim 36. Id.
at 4.
Proposed substitute claim 25, reproduced below, is illustrative:
25. (Proposed substitute for claim 1) A method for
rejuvenating the surface of vinyl siding, the method comprising:
applying a composition to the surface of the vinyl siding, wherein
applying the composition restores a color and luster of the
surface of the vinyl siding, where the composition consists
essentially of one or more organic solvent compounds that have
a solubility parameter (δ) of from about 8.0 to about 10.6
(cal/cm3)½, optionally one or more diluents selected from the
group consisting of aliphatic distillates, aromatic distillates,
naphtha, pine oil, tricresyl phosphate, and mixtures thereof, and
optionally one or more antioxidants, thermal stabilizers,
bacteriostats, ultraviolet absorbers, and a mixture thereof.
32

91a

Case IPR2017-02158
Patent 6,669,991 B2
Id. at 2. Patent Owners have proposed similar amendments in independent
claims 38 (proposed substitute for claim 20) and 40 (proposed substitute for
claim 22). Id. at 4–5.
a. Procedural Requirements for Motion to Amend
In an inter partes review, amended claims are not added to a patent as
of right, but rather must be proposed as a part of a motion to amend.
35 U.S.C. § 316(d). “During an inter partes review instituted under this
chapter, the patent owner may file 1 motion to amend the patent,” and “[f]or
each challenged claim, propose a reasonable number of substitute claims.”
Id.; see also 37 C.F.R. § 42.121(a)(3). The Board must assess the
patentability of proposed substitute claims “without placing the burden of
persuasion on the patent owner.” Aqua Prods., Inc. v. Matal, 872 F.3d 1290,
1296 (Fed. Cir. 2017) (en banc). However, Patent Owners’ proposed
substitute claims must meet the statutory requirements of 35 U.S.C. § 316(d)
and the procedural requirements of 37 C.F.R. § 42.121. See Lectrosonics,
Inc. v. Zaxcom, Inc., IPR2018-01129, Paper 15 at 2 (PTAB Feb. 25, 2019)
(precedential); Memorandum “Guidance on Motions to Amend in view of
Aqua Products” (Nov. 21, 2017)
(https://www.uspto.gov/sites/default/files/documents/guidance_on_motions_
to_amend_11_2017.pdf) (“Board’s Memorandum”).
Accordingly, Patent Owners must demonstrate: (1) the amendment
proposes a reasonable number of substitute claims; (2) the amendment
responds to a ground of unpatentability involved in the trial; and (3) the
amendment does not seek to enlarge the scope of the claims of the patent or
introduce new subject matter, such that the proposed claims are supported in
the original disclosure. See 35 U.S.C. § 316(d); 37 C.F.R. § 42.121. We
33

92a

Case IPR2017-02158
Patent 6,669,991 B2
determine that these procedural requirements are satisfied. In particular,
Patent Owners propose one substitute claim per challenged claim, which is a
presumptively reasonable number of substitute claims. See 37 C.F.R.
§ 42.121(a)(3) (“The presumption is that only one substitute claim would be
needed to replace each challenged claim.”). Furthermore, through its
proposed amendments and supporting arguments, Patent Owners specifically
respond to the unpatentability grounds set forth in the Petition.
Additionally, we find that the written description provides adequate
support for the proposed amended claims. Patent Owners point out that
support for the added limitation “wherein applying the composition restores
a color and luster of the surface of the vinyl siding” can be found in the
originally-filed application, No. 10/102,714 (Ex. 1010) at 3:17–19; 8:18–28;
and 9:9–10:24. Mot. 6. Petitioners argue that “these are the same passages
that Patent Owners previously identified, and the Board rejected, as support
for a finding that both color and luster are required during the rejuvenation
process.” Opp. 21 (citing Inst. Dec. 9). However, we did not suggest in our
Institution Decision (and do not suggest here) that the ’991 patent fails to
provide written description support for restoring both color and luster.
Rather, as we recognized previously, the specification contemplates (but
does not require) restoration of both color and luster as one example of
“rejuvenation.” See Ex. 1001, 2:20–27 (“[T]he color, luster, and gloss of the
surface can be restored”); id. at 5:62–65 (‘[I]t has been found that the
rejuvenation, e.g., restoration of color and luster, does not necessarily result
from cleaning the surface.”). Accordingly, we determine that the proposed
amendments do not seek to enlarge the scope of the claims of the patent or
introduce new subject matter.
34

93a

Case IPR2017-02158
Patent 6,669,991 B2
In addition to the requirements of 37 C.F.R. § 42.121, Petitioners
contend that Patent Owners’ Motion should be denied because Patent
Owners did not inform Petitioners of their conferral with the Board prior to
filing the Motion. Opp. 19–20. We discussed this argument with the parties
in a conference call and rejected it in an Order issued on Nov. 9, 2018.
Paper 18, 3. As discussed in our Order, “[u]pon consideration of the
arguments and positions presented during the call, we waived the
requirement to confer with the Board for Patent Owners’ Motion to Amend
in order ‘to secure the just, speedy, and inexpensive resolution of this
proceeding.’ 37 C.F.R. § 42.1(b); see also id. § 42.5(b).” Id. Therefore, we
refuse to deny Patent Owners’ Motion on this basis.
b. Patentability Analysis for Proposed Amended Claims
In accordance with Aqua Products, Patent Owners do not bear the
burden of persuasion to demonstrate the patentability of the substitute claims
presented in the Motion to Amend. Rather, ordinarily, “the petitioner bears
the burden of proving that the proposed amended claims are unpatentable by
a preponderance of the evidence.” Bosch Auto. Serv. Sols., LLC v. Matal,
878 F.3d 1027, 1040 (Fed. Cir. 2017), as amended on reh’g in part
(Mar. 15, 2018). The Board itself also may justify any finding of
unpatentability by reference to evidence of record in the proceeding. Id.
(citing Aqua Products, 872 F.3d at 1311 (O’Malley, J.)). Thus, the Board
determines whether the proposed substitute claims are unpatentable based on
the entirety of the record, including any opposition made by Petitioners.
In their Opposition, Petitioners assert that the proposed substitute
claims are unpatentable due to 1) anticipation based on the explicit teachings
of, as well as inherency by, Baumgärtel; 2) obviousness based on
35

94a

Case IPR2017-02158
Patent 6,669,991 B2
Baumgärtel in view of Billmeyer; 3) lack of enablement under § 112(a); and
4) indefiniteness under § 112(b). Opp. 6–19. Because we are persuaded by
Petitioners’ arguments and the evidence of record that the proposed
substitute claims are still anticipated by Baumgärtel, we deny the Motion to
Amend on that basis and do not address the other unpatentability arguments
argued by Petitioners.
Construction of “Restores a Color and Luster”
Before we turn to our anticipation analysis, we address one disputed
issue of claim construction with respect to the proposed amended claims. In
effect, Patent Owners’ proposed amendments seek to incorporate as an
explicit recitation at least part of their proposed claim construction for the
term “rejuvenating” that we rejected in our analysis of the original claims.
However, in contrast to their prior construction requiring “restoring the color
and luster of the surface of vinyl siding,” the proposed amendments now
only require “restor[ing] a color and luster of the surface of the vinyl
siding.”
Petitioners contend that the broadest reasonable interpretation of this
phrase is “to alter the surface of vinyl siding to noticeably improve any
aspects of both the color and luster.” Opp. 4–5. Patent Owners, on the other
hand, contend that “restores a color and luster” has its plain and ordinary
meaning, which is “to return to the original color and luster.” Amend. Reply
1–3.
We find Petitioners’ proposed construction for this phrase to be
unreasonably broad and unsupported by the specification. Although
Petitioners assert that the ’991 patent “discloses the restoration of color and
luster generally and that color and luster are improved in some meaningful
36

95a

Case IPR2017-02158
Patent 6,669,991 B2
way,” none of the cited passages of the specification discuss restoration in
such broad terms. Opp. 4 (citing Ex. 1001, 2:23–24, 2:29–34, 5:62–65,
6:44–47, 7:1–4). Furthermore, adopting Petitioners’ construction would
introduce ambiguity since it depends on the purely subjective preferences of
the observer as to what constitutes an improvement. See Sonix Tech. Co. v.
Publications Int’l, Ltd., 844 F.3d 1370, 1378 (Fed. Cir. 2017) (noting that
claims terms that “turned on a person’s tastes or opinion” or “a value
judgment that inherently varies from person to person” are likely indefinite).
We find Patent Owners’ proposed construction to be more reasonable.
Although the phrase “a color and luster” might be read in isolation to
suggest that any color or luster might be the end result of the claimed
methods, Patent Owners point out that the reason they used “a” instead of
“the” in the proposed amendments is because “basic tenets of claim
drafting” normally require claim terms to have proper antecedent basis.
Amend. Reply 3 (citing MPEP § 2173.05(e), which states that a claim term
without antecedent basis could potentially, but not necessarily, be
indefinite). Additionally, the plain and ordinary meaning of “restores,” like
the term “rejuvenating,” already means returning to an original state. See
Ex. 2005 (defining “rejuvenate” as: “1. to restore to youthful vigor,
appearance etc.; make young again. 2. to restore to a former state; make
fresh again. . . . 3. to undergo rejuvenation.”). Furthermore, the ’991 patent
specifically mentions that restoration of the “original color” or the “original
luster” of the surface is either an unexpected advantage or an objective of the
invention. See Ex. 1001, 3:29–31 (“[T]he fact that the composition of this
invention restores the original luster of the surface . . . was highly
unexpected.” (emphasis added)); id. at 6:49–50, 7:1–4 (describing
37

96a

Case IPR2017-02158
Patent 6,669,991 B2
colorimeter test used “to establish the degree to which the original color of
the vinyl siding was restored” and indicating that “[t]he results of the
colorimeter tests indicated that . . . the original color of the vinyl siding was
restored within 1 Delta E (0.92 Delta E).” (emphasis added)).
Thus, in view of the foregoing, we determine that “restores a color
and luster” in the proposed amendments should be construed as “to return to
the original color and luster.” We note, however, that neither the claims nor
the specification require the treated surface to have the exact same color and
luster as the original or otherwise require a quantitative determination of
those parameters. While the specification reports that the colorimeter test
results showed a difference of less than 1 Delta E, which is within the
quality assurance standards of most vinyl siding manufacturers, it does not
suggest that the use of a colorimeter test is required in order to assess
whether restoration has been achieved. Rather, consistent with the teaching
that “the restoration and color provided by practicing this invention is
tantamount to the color differentiation of new products” and such “a
difference . . . is not noticeable to the human eye” (Ex. 1001, 7:4–9), we
determine that the requirement to “restore[e] a color and luster” in the
proposed substitute claims is satisfied so long as any differences in color and
luster between the original and treated surfaces are not noticeable to the
normal human eye.
Anticipation by Baumgärtel
Petitioners rely upon the same teachings of Baumgärtel discussed
above to assert that the proposed substitute claims are also anticipated. In
particular, with respect to the additional requirement to restore color recited
in the proposed substituted claims, Petitioners contend that by “teaching the
38

97a

Case IPR2017-02158
Patent 6,669,991 B2
application of dichloromethane to vinyl siding that has ‘weather damage
[that has] become[] apparent through a change in color’ in order to
‘regenerate and restore’ that vinyl siding and to make it ‘appear new,’
Baumgärtel teaches the restoration of color.” Opp. 6–7 (citing Ex. 1002, 9,
12–13). Petitioner further contends that Baumgärtel, in Example 1,
explicitly teaches that the solvent restores color, as well as luster, by
teaching that dichloromethane removed the yellowed, damaged surface layer
of white siding. Id. at 7 (citing Ex. 1002, 20). Petitioners include a claim
chart detailing how each of the limitations of proposed substitute claim 25
are taught by Baumgärtel. Id. at 8–12.
In addition to relying on the explicit teachings of Baumgärtel,
Petitioners contend that the proposed substitute claims are inherently
anticipated because restoration of color and luster is likewise the natural
result of the method disclosed in Baumgärtel. Id. at 12–17. Petitioners
contend that, “[a]s taught by the ’991 patent, the restoration of color and
luster is the natural result of the following steps: 1) having an organic
solvent with a solubility parameter of from about 8.0 to about 10.6
(cal/cm3)½ and 2) applying that organic solvent to the surface of vinyl
siding.” Id. at 13.
Petitioners further rely upon experiments performed by Dr. Storey in
which he applied a dichloromethane solution (99.5% purity) to the surface of
weathered vinyl siding according to the methods disclosed in Baumgärtel
and observed a change in both color and luster, as seen in the photo below:

39

98a

Case IPR2017-02158
Patent 6,669,991 B2

Id. at 15–16; see also Ex. 1022 (Second Storey Decl.) ¶¶ 19–25. As shown
above, Dr. Storey compared a portion of the siding that was treated with
dichloromethane with the untreated (weathered) front and back sides of
siding, and attests that both color and luster was restored after application.
Ex. 1022 ¶¶ 31–36. Dr. Storey explains that he relied on his visual
inspection instead of a colorimeter to analyze the degree of color restoration
because the colorimeter test data presented in the ’991 patent were unreliable
since it did not use the prescribed and accepted calculation for determining
the numerical color difference value (∆E*). Id. ¶¶ 26–30. With respect to
restoration of luster, Dr. Storey relied upon both his visual inspection as well
as gloss measurements taken using a BYK micro-TRI-gloss meter. Id. ¶¶
31–36.
Patent Owners argue that the proposed substitute claims are not
anticipated by Baumgärtel because it explicitly teaches that it is necessary to
separately add pigments to the mixture in order to restore the original color.
Mot. 9–10 (citing Ex. 1002, 14, 17–18); Amend. Reply 5. Furthermore,
Patent Owners argue that the claims require more than simply applying an
organic solvent with the required solubility parameter to the surface of vinyl
40

99a

Case IPR2017-02158
Patent 6,669,991 B2
siding. Amend. Reply 4. Patent Owners assert that “Baumgärtel does not
teach the use of dichloromethane in the claimed proportions,” but “[r]ather,
Baumgärtel teaches the use of dichloromethane in small proportions
sufficient to dissolve UV absorbers and/or light stabilizers that have
migrated to the surface in the thermoplastic resin and replace the UV
absorbers, not to replasticize the thermoplastic resin.” Id. at 4–5 (citing Ex.
1002, 12). As such, Patent Owners contend that “Baumgärtel subscribes to
the conventional wisdom the ’991 patent identifies as contradicted by the
claimed invention.” Id. at 5 (comparing Ex. 1002, 15 with Ex 1001, 3:2529). With regard to the experiment conducted by Dr. Storey to show
inherent anticipation, Patent Owners contend that “the experiment used
‘pure dichloromethane,’ not the mixture disclosed in Baumgärtel,” and thus
“Petitioners have failed to show that the method in Baumgärtel ‘must
necessarily include the unstated limitation.’” Id. at 6 (emphasis added)
(citing Transclean Corp. v. Bridgewood Servs., Inc., 290 F.3d 1364, 1373
(Fed. Cir. 2002)).
Having considered the parties’ contentions, we are persuaded that
Petitioners have demonstrated by a preponderance of the evidence that the
proposed substitute claims are anticipated, either explicitly or inherently, by
Baumgärtel. Contrary to Patent Owners’ arguments, we do not interpret
Baumgärtel as requiring pigments for the composition in all instances.
While Baumgärtel states that “nearly the original ‘restored’ color, or some
other color, can be obtained” with pigments, the reference plainly suggests
that such pigments are optional and may only be needed to restore certain
colors. Ex. 1002, 18 (“Thus, by way of example, white light-damaged or
weather-damaged profiles made of hard polyvinyl chloride are regenerated
41

100a

Case IPR2017-02158
Patent 6,669,991 B2
or restored using a treatment agent that contains pigments, wherein the
molded parts can be colored light pink, pale blue, light green or light
yellow.”). Indeed, Example 1 of Baumgärtel does not mention the use of
pigments yet discusses the removal of the yellowed/damaged surface layer
of white siding using a composition containing 99% dichloromethane. Id.
at 20.
Furthermore, we are not persuaded by Patent Owners’ arguments that
Baumgärtel only teaches the use of dichloromethane in “small proportions.”
Baumgärtel teaches generally that molded parts are regenerated and restored
with a swelling liquid or swelling liquid mixture composed of about “80% to
99.9% (by weight), preferably 90% to 99% (by weight), of an organic
chemical liquid or liquid mixture that swells the surface” of the
thermoplastic resin. Ex. 1002, 15. Furthermore, Example 1 of Baumgärtel
specifically teaches a composition containing 99% (by weight)
dichloromethane. Id. at 15. Patent Owners misleadingly quotes Baumgärtel
as suggesting that smaller proportions of dichloromethane (5% to about
0.1% by weight) are used (Amend. Reply 4–5), but the cited portions only
mention the amount of UV absorbers and/or light stabilizers in the
composition, and not the amount of dichloromethane or other organic
chemical liquids. Ex. 1002, 12; see also Tr. 48:1–12 (Patent Owners
counsel acknowledging that page 12 of Baumgärtel only discusses only the
amount of UV absorber).
We also are not persuaded that Baumgärtel simply follows what the
’991 patent identifies as “conventional wisdom” as compared to the claimed
invention. As we discussed with respect to the original claims, Baumgärtel’s
teaching that the composition “swells the surface of the plastic, but does not
42

101a

Case IPR2017-02158
Patent 6,669,991 B2
dissolve the resin” (Ex. 1002, 9) is fully consistent with the ’991 patent’s
teaching that “conventional wisdom suggests that the use of a matched
solvent would lead to the destruction, via solubilization, of the surface,” but
instead such use unexpectedly resulted in rejuvenation of the surface
(“believed to result from a replasticization of the vinyl surface”). Ex. 1001,
3:23–28, 5:65–66. In order words, despite the ’991 patent characterizing the
result as unexpected, Baumgärtel recognizes that rejuvenation can result
from the use of particular solvents that swell the thermoplastic resin. This
swelling of the polymer is due to increased solubility as a result of the
matched solubility parameter. See Ex. 1003, 151–53 (teaching that “solvent
molecules slowly diffuse into the polymer to produce a swollen gel” and that
matching the solubility parameter of the solvent with the polymer enhances
solubility). Although Baumgärtel may not have recognized the role of the
solubility parameter in this process, “the discovery of a previously
unappreciated property of a prior art composition, or of a scientific
explanation for the prior art’s functioning, does not render the old
composition patentably new to the discoverer.” Atlas Powder Co. v. IRECO
Inc., 190 F.3d 1342, 1347 (Fed. Cir. 1999).
Finally, we are persuaded that the experiments conducted by
Dr. Storey also support a finding of inherent anticipation by Baumgärtel.
Ex. 1022 ¶¶ 12–36. Patent Owners’ only argument as to these experiments
is that “Dr. Storey has merely confirmed what the inventor discovered and
disclosed in the ’991 patent.” Amend. Reply 6. But Dr. Storey based his
experiments on the composition of Baumgärtel’s Example 1. Although we
recognize that the 99.5% pure dichloromethane used by Dr. Storey for his
experiments did not include the 1% of additional ingredients identified in
43

102a

Case IPR2017-02158
Patent 6,669,991 B2
Example 1 (i.e., 0.3 g UV absorber, 0.3 g light stabilizer, and 0.4 g wax),
Dr. Storey attests that those additional ingredients in such small proportions
would not have materially affected the rejuvenation characteristics of
dichloromethane. Ex. 1005 ¶¶ 81–82. Despite having the right to do so
under 37 C.F.R. § 42.51(b)(1)(ii), Patent Owners did not cross-examine
Dr. Storey as to his declaration testimony in this proceeding; nor did Patent
Owners’ expert Dr. Grulke address these points in his own declaration. See
Ex. 2003 ¶ 25–29. We, therefore, credit Dr. Storey’s opinion based on his
experiments that “performing the method set forth in Baumgärtel necessarily
results in the restoration of color and luster on the surface of vinyl siding.”
Ex. 1022 ¶ 37.
Accordingly, we deny Patent Owners’ Motion to Amend.
IV.

CONCLUSION

After reviewing the entire record and weighing evidence offered by
both parties, we determine that Petitioners have shown by a preponderance
of the evidence that claims 1–11, 14, and 20–24 of the ’991 patent are
unpatentable as anticipated by Baumgärtel. We determine that Petitioners
have not shown by a preponderance of the evidence that claim 13 is
unpatentable. We also determine that Petitioners have shown by a
preponderance of the evidence that proposed substitute claims 25–35 and
37–42 are unpatentable as anticipated by Baumgärtel.

44

103a

Case IPR2017-02158
Patent 6,669,991 B2
V.

ORDER
Accordingly, it is:
ORDERED that claims 1–11, 14, and 20–24 of the ’991 patent are

determined to be unpatentable;
FURTHER ORDERED that Patent Owner’s Motion for Conditional
Amendment is denied; and
FURTHER ORDERED that, because this is a final written decision,
parties to this proceeding seeking judicial review of our Decision must
comply with the notice and service requirements of 37 C.F.R. § 90.2.

45

104a

Case IPR2017-02158
Patent 6,669,991 B2
PETITIONER:
Grantland Drutchas
Ann C. Palma
MCDONNELL BOEHNEN HULBERT & BERGHOFF LLP
drutchas@mbhb.com
palma@mbhb.com
PATENT OWNER:
Jonathan K. Waldrop
Gurtej Singh
KASOWITZ BENSON TORRES LLP
jwaldrop@kasowitz.com
gsingh@kasowitz.com

46

105a

Exhibit B

106a

Trials@uspto.gov
571-272-7822

Paper No. 30
Date: April 12, 2019

UNITED STATES PATENT AND TRADEMARK OFFICE
____________
BEFORE THE PATENT TRIAL AND APPEAL BOARD
____________
RUST-OLEUM CORPORATION and
RPM INTERNATIONAL, INC.,
Petitioners,
v.
ALAN STUART, TRUSTEE FOR THE CECIL G. STUART AND
DONNA M. STUART REVOCABLE LIVING TRUST AGREEMENT
and
CDS DEVELOPMENT LLC,
Patent Owners.
____________
Case IPR2017-02158
Patent 6,669,991 B2
____________

Before JO-ANNE M. KOKOSKI, CHRISTOPHER G. PAULRAJ, and
DAVID COTTA, Administrative Patent Judges.
PAULRAJ, Administrative Patent Judge.

ERRATUM TO FINAL WRITTEN DECISION
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73

107a

Case IPR2017-02158
Patent 6,669,991 B2
An error was made in our Final Witten Decision issued April 8, 2019.
Paper 29. On page 3 of that decision, we replace the sentence:
“Based on the record before us, we conclude that Petitioners have
demonstrated by a preponderance of the evidence that claims 1–11, 13, 14,
and 20–24 of the ’991 patent are unpatentable.”
with:
“Based on the record before us, we conclude that Petitioners have
demonstrated by a preponderance of the evidence that claims 1–11, 14, and
20–24 of the ’991 patent are unpatentable, but have not demonstrated by a
preponderance of the evidence that claim 13 is unpatentable.”
No other changes to the Final Written Decision are made.

PETITIONER:
Grantland Drutchas
Ann C. Palma
MCDONNELL BOEHNEN HULBERT & BERGHOFF LLP
drutchas@mbhb.com
palma@mbhb.com
PATENT OWNER:
Jonathan K. Waldrop
Gurtej Singh
KASOWITZ BENSON TORRES LLP
jwaldrop@kasowitz.com
gsingh@kasowitz.com

2

108a

Exhibit C

109a

Trials@uspto.gov
571-272-7822
21April 8, 2019

Paper No. 35
Date: July 23, 2019

UNITED STATES PATENT AND TRADEMARK OFFICE
____________
BEFORE THE PATENT TRIAL AND APPEAL BOARD
____________
RUST-OLEUM CORPORATION and
RPM INTERNATIONAL, INC.,
Petitioners,
v.
ALAN STUART, TRUSTEE FOR THE CECIL G. STUART AND
DONNA M. STUART REVOCABLE LIVING TRUST AGREEMENT
and
CDS DEVELOPMENT LLC,
Patent Owners.
____________
Case IPR2017-02158
Patent 6,669,991 B2
____________

Before JO-ANNE M. KOKOSKI, CHRISTOPHER G. PAULRAJ, and
DAVID COTTA, Administrative Patent Judges.
PAULRAJ, Administrative Patent Judge.

DECISION
Granting Patent Owners’ Motion to Accept Patent Owners’ Request for
Rehearing as Timely Filed
Denying Patent Owners’ Request for Rehearing
37 C.F.R. § 42.71

110a

Case IPR2017-02158
Patent 6,669,991 B2
I.

INTRODUCTION
On April 8, 2019, we entered our Final Witten Decision determining

that claims 1–11, 14, and 20–24 of U.S. Patent 6,669,991 B1 are
unpatentable. Paper 29. Under 37 C.F.R. § 42.71(d)(2), a request for
rehearing of our Final Written Decision was due by May 8, 2019. 37 C.F.R.
§ 42.71(d)(2). On that date, we received an email automatically generated
by the PTAB E2E system indicating that Patent Owners attempted to file a
Request for Rehearing, but that no documents were submitted with the
request. Ex. 3001. We, thereafter, held a conference call with the parties to
inquire about whether Patent Owners intended to file a Request for
Rehearing. Following that conference call and pursuant to our authorization
(Paper 31), Patent Owners filed a motion to accept their Request for
Rehearing as timely filed, and in the alternative, accept the late filing of their
Request for Rehearing, along with a copy of the document that was intended
to be filed on May 8, 2019. Paper 32; Ex. 2010. Simultaneously, in order to
preserve their right to appeal, Patent Owners also filed a Notice of Appeal to
United States Court of Appeals for the Federal Circuit pursuant to 37 C.F.R.
§ 90.2(a). Paper 33. Petitioners filed an opposition to Patent Owners’
motion. Paper 34.
Having considered the arguments and supporting evidence submitted
with Patent Owners’ motion and Petitioners’ opposition, we determine it
would be in the interests of justice to deem Patent Owners’ Request for
Rehearing to be timely filed. However, based on our consideration of the
merits of the Request for Rehearing, we are not persuaded that we
misapprehended or overlooked any issues of fact or law that would
necessitate a modification of our Final Written Decision.
2

111a

Case IPR2017-02158
Patent 6,669,991 B2
II.

PATENT OWNERS’ MOTION TO ACCEPT THE REQUEST
FOR REHEARING AS TIMELY FILED
In their motion, Patent Owners request that the Board (1) accept the

filing of Patent Owners’ Request for Rehearing as timely filed on May 8,
2019 (Ex. 2010); or, in the alternative, (2) accept the late filing of Patent
Owners’ Request for Rehearing. Paper 32, 1.
Patent Owners’ motion sets forth a statement of facts explaining the
circumstances in which their counsel attempted to file their Request for
Rehearing on May 8, 2019. In particular, Patent Owners contend that:
On May 8, 2019, at approximately 3:45 P.M. PDT (6:45 P.M.
EDT), counsel for Patent Owners received an email from staff
indicating the filing of Patent Owners’ Request for Rehearing
had been completed and attaching a copy of the filed pdf and a
printout of the “Rehearings For IPR2017-02158” docket
through the E2E system indicating a filing date of “05/08/2019”
for IPR2017-02158 filed by Patent Owner.
Id. at 2. Patent Owners further contend that, on the same day, “[a]t
approximately 4:06 P.M. PDT (7:06 P.M. EDT), Patent Owners caused a
copy of the Request for Rehearing to be served on counsel for Petitioners.”
Id. at 3. In support of these facts, Patent Owners include a declaration by
their counsel, Marcus A. Barber (Ex. 2011), a printout from the PTAB E2E
system (Ex. 2012), and a copy of the service email sent to Petitioners’
counsel (Ex. 2013).
In their opposition, Petitioners acknowledge that their counsel was
served with a copy of the Request for Rehearing on May 8, 2019, and thus
would not be prejudiced with respect to acceptance of a late filing.
Paper 34, 1 n.1. Petitioners, however, object to having the Request for
Rehearing deemed timely filed insofar as it would cause further delays in the
3

112a

Case IPR2017-02158
Patent 6,669,991 B2
resolution of this matter, including with respect to the appeal to the Federal
Circuit. Id. at 3–4. Petitioners further contend that Patent Owners’ filing of
a Notice of Appeal divests the Board of jurisdiction to rehearing the issue,
and thus gives an alternative basis for denial of Patent Owners’ motion. Id.
at 1–2.
Under 37 C.F.R. § 42.5(c)(3), “[a] late action will be excused on a
showing of good cause or upon a Board decision that consideration on the
merits would be in the interests of justice.” 37 C.F.R. § 42.5(c)(3)
(emphasis added). Patent Owners have presented evidence tending to show
that their counsel believed that the Request for Rehearing was timely filed
on May 8, 2019. See Exs. 2011–2013. It does not appear, however, that
they attached any document with their filing before clicking the submit
button on PTAB E2E. In this regard, we note that the email generated by the
PTAB E2E system and sent to counsel of record on May 8, 2019 clearly
stated “THERE WERE NO DOCUMENTS SUBMITTED WITH THIS
REQUEST.” Ex. 3001. Patent Owners have not explained why they did not
take immediate action after receiving that email to determine whether the
Request for Rehearing was actually filed. 1 Indeed, Patent Owners remained
1

The manner of filing a petition is governed, in part, by 37 C.F.R.
§ 42.6(b)(1), which states that “[u]nless otherwise authorized, submissions
are to be made to the Board electronically via the Internet according to the
parameters established by the Board and published on the [website] of the
Office.” 37 C.F.R. § 42.6(b)(1). The Board’s website states the following:
A8. How can I check whether I filed a document properly?
After you upload a document in the proper format (i.e., PDF or
MPEG for exhibits and PDF for all other documents) and click
“Submit,” you will receive an acknowledgement on the screen
in PRPS and a filing receipt via email if the document is filed
4

113a

Case IPR2017-02158
Patent 6,669,991 B2
silent for over three weeks until the Board initiated contact with the parties
sua sponte to inquire about whether Patent Owners intended to file a
Request for Rehearing. Thus, we do not find that Patent Owners have
shown good cause to excuse the late filing.
Nonetheless, based on the facts and circumstances presented,
including the lack of significant prejudice to Petitioners, we determine that it
would be in the interests of justice to deem Patent Owners’ Request for
Rehearing to be timely filed and consider the merits of the arguments
presented in the Request for Rehearing. We caution the parties and counsel
that the “interests of justice” consideration under 37 C.F.R. § 42.5(c)(3) will
not always excuse such late filings in the future. But in this case, we are of
the view that providing our assessment of whether we misapprehended or
overlooked any of the issues raised in the Request for Rehearing would
create a more complete record that may be beneficial to the parties and the
Federal Circuit during any subsequent appeal. 2

properly. If you did not receive an acknowledgement on the
screen or a filing receipt via email, the document most likely
has not been uploaded properly and you should contact the
Board at (571) 272-7822. You may also check whether the
document is listed in the file contents of the proceeding.
http://www.uspto.gov/ip/boards/bpai/prps.jsp#heading-5 (emphasis added).
2

We are also not persuaded that the filing of a Notice of Appeal (Paper 33)
by Patent Owners divested the Board of jurisdiction to decide the merits of
the Request for Rehearing. The Federal Circuit’s decision in In re Graves,
69 F.3d 1147 (Fed. Cir. 1995), is instructive on this point. There, the
applicant had filed a notice of appeal to the Federal Circuit after the Board
entered its initial decision but before the Board’s decision on a request for
reconsideration. Id. at 1150. Because the notice of appeal was filed too late
if based on the initial decision, the court determined that the Board’s initial
5

114a

Case IPR2017-02158
Patent 6,669,991 B2
III.

PATENT OWNERS’ REQUEST FOR REHEARING
As to the arguments presented in the Request for Rehearing, Patent

Owners focus on our denial of Patent Owners’ Motion to Amend in our
Final Written Decision, and contend that we overlooked and/or
misapprehended Patent Owners’ evidence and argument showing that
Petitioner failed to carry its burden of proving the Proposed Substitute
Claims anticipated by Baumgärtel. Ex. 2010, 2. Upon consideration of the
merits of the Request for Rehearing, we are not persuaded that we should
modify our conclusions in the Final Written Decision.
In particular, Patent Owners argue that we did not address, and
therefore overlooked, their evidence and arguments demonstrating that
Baumgärtel requires the use of pigments to restore color unless the surface

decision was not an “appealable decision,” and thus the Board had
jurisdiction to enter its reconsideration decision. Id. Here, unlike in Graves,
Patent Owners’ Notice of Appeal was filed within the sixty-three (63) day
deadline prescribed under 37 C.F.R. § 90.3(a)(1) and would be considered
timely, if timeliness was based on our April 8, 2019 Final Written Decision.
However, 37 C.F.R. § 90.3(b)(1) further provides that “[a] timely request for
rehearing will reset the time for appeal or civil action to no later than sixtythree (63) days after action on the request.” 37 C.F.R. § 90.3(b)(1). Given
that we hereby deem Patent Owners’ Request for Rehearing to be timely
filed, we likewise determine that the time period for an appeal is hereby
reset, and that Patent Owners’ Notice of Appeal from our Final Written
Decision was premature and did not divest our jurisdiction to decide the
Request for Rehearing. Cf. Laboratoire Francais v. Novo Nordisk
Healthcare AG, No. 2019-1054 (Fed. Cir. Dec. 27, 2018) (non-precedential)
(order dismissing appeal as premature where Board had not completed its
decision as to rehearing grounds). We further note that Patent Owners have
indicated “[s]hould the Board deem Patent Owners’ Request for Rehearing
as timely filed, Patent Owners are willing to withdraw or stay their Notice of
Appeal pending the outcome of the Request for Rehearing.” Paper 32, 1–2.
6

115a

Case IPR2017-02158
Patent 6,669,991 B2
layer is being removed (i.e., Example 1). Id. at 2–3. We are not persuaded
that we misapprehended or overlooked the evidence of record regarding
whether Baumgärtel requires the use of pigments for rejuvenation. As we
noted in our Final Written Decision, Example 1 of Baumgärtel does not
mention the use of any pigments yet discusses the removal of the
yellowed/damaged surface layer of white siding using a composition
containing 99% dichloromethane. Paper 29, 42. Although the amendment
in the Proposed Substitute Claims required both color and luster to be
restored, it did not otherwise modify our construction of “rejuvenating,”
which encompasses either “remov[ing] or transform[ing] the chalky surface
that develops on vinyl siding that is exposed to sunlight and other
environmental conditions.” Id. at 15 (emphasis added). The teaching in
Baumgärtel’s Example 1 of removing the surface layer using a 99%
dichloromethane solution satisfies our construction of “rejuvenating.” We,
therefore, did not misapprehend or overlook Patent Owners’ evidence and
arguments in determining that Example 1 of Baumgärtel anticipates the
Proposed Substitute Claims.
Patent Owners further argue that we overlooked and/or
misapprehended evidence and arguments showing that Dr. Storey’s
experiment was not based on Example 1 of Baumgärtel, and thus insufficient
for Petitioners to meet their burden of showing inherent anticipation.
Ex. 2010, 4–6. But, as set forth in our Final Written Decision, we fully
considered the evidence of record and determined that the experiments
conducted by Dr. Storey further support a finding of inherent anticipation by
Baumgärtel. Paper 29, 43 (citing Ex. 1022 ¶¶ 12–36). We recognized that
the 99.5% pure dichloromethane used by Dr. Storey for his experiments did
7

116a

Case IPR2017-02158
Patent 6,669,991 B2
not include the 1% of additional ingredients identified in Example 1, but
took into account Dr. Storey’s unrebutted testimony that those additional
ingredients in such small proportions would not have materially affected the
rejuvenation characteristics of dichloromethane. Id. at 43–44 (citing
Ex. 1005 ¶¶ 81–82). As we noted, Patent Owners did not cross-examine
Dr. Storey as to his declaration testimony in this proceeding; nor did Patent
Owners’ expert Dr. Grulke address these points in his own declaration. Id.
at 44. Thus, we are not persuaded that we misapprehended or overlooked
the cited testimony of Dr. Storey regarding inherent anticipation.
IV.

CONCLUSION

For the reasons set forth above, we determine it would be in the
interests of justice to deem Patent Owners’ Request for Rehearing to be
timely filed. However, we are not persuaded based on our consideration of
the merits of the Request for Rehearing that we misapprehended or
overlooked any issues of fact or law that would necessitate a modification of
our Final Written Decision.
V.

ORDER
According, in consideration of the foregoing, it is hereby
ORDERED that Patent Owners’ motion to accept the filing of Patent

Owners’ Request for Rehearing as timely filed on May 8, 2019 is granted;
and
FURTHER ORDERED that Patent Owners’ Request for Rehearing is
denied.

8

117a

Case IPR2017-02158
Patent 6,669,991 B2
PETITIONER:
Grantland Drutchas
Ann C. Palma
MCDONNELL BOEHNEN HULBERT & BERGHOFF LLP
drutchas@mbhb.com
palma@mbhb.com
PATENT OWNER:
Jonathan K. Waldrop
Gurtej Singh
KASOWITZ BENSON TORRES LLP
jwaldrop@kasowitz.com
gsingh@kasowitz.com

9

118a

Trials@uspto.gov
571-272-7822
21April 8, 2019

Paper No. 29
Date: April 8, 2019

UNITED STATES PATENT AND TRADEMARK OFFICE
____________
BEFORE THE PATENT TRIAL AND APPEAL BOARD
____________
RUST-OLEUM CORPORATION and
RPM INTERNATIONAL, INC.,
Petitioners,
v.
ALAN STUART, TRUSTEE FOR THE CECIL G. STUART AND
DONNA M. STUART REVOCABLE LIVING TRUST AGREEMENT
and
CDS DEVELOPMENT LLC,
Patent Owners.
____________
Case IPR2017-02158
Patent 6,669,991 B2
____________

Before JO-ANNE M. KOKOSKI, CHRISTOPHER G. PAULRAJ, and
DAVID COTTA, Administrative Patent Judges.
PAULRAJ, Administrative Patent Judge.

FINAL WRITTEN DECISION
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73

119a

Case IPR2017-02158
Patent 6,669,991 B2
I.

INTRODUCTION
Rust-Oleum Corporation and RPM International, Inc. (collectively,

“Petitioners”) 1 filed a Petition (Paper 2, “Pet.”) to institute an inter partes
review of claims 1–11, 13, 14, and 20–24 of U.S. Patent No. 6,669,991 B2
(Ex. 1001, “the ’991 patent”). Alan Stuart, Trustee for the Cecil G. Stuart
and Donna M. Stuart Revocable Trust Agreement, and CDS Development
LLC (collectively, “Patent Owners”) timely filed a Preliminary Response
(Paper 6, “Prelim. Resp.”). We determined, based on the information
presented in the Petition and Preliminary Response, that there was a
reasonable likelihood that Petitioners would prevail in challenging claims 1–
11, 13, 14, and 20–24 as unpatentable under 35 U.S.C. § 102(b) as
anticipated by Baumgärtel 2 and under § 103(a) as rendered obvious by
Baumgärtel and Billmeyer. 3 Pursuant to 35 U.S.C. § 314, the Board
instituted trial on April 9, 2018, as to those claims of the ’991 patent. Paper
7 (“Institution Decision” or “Inst. Dec.”). Subsequently, in view of SAS
Inst., Inc. v. Iancu, 138 S. Ct. 1348 (2018), we modified our Institution
Decision to include within the scope of this proceeding the anticipation and

1

The Petition additionally identifies Wipe New LLC and The Avento Corp.
as real parties in interest. Pet. 1.
2
Baumgärtel et al., German Patent Application DE 28 080 005 A1, with
certified English Translation (published Aug. 30, 1979) (Ex. 1002,
“Baumgärtel”).
3
Fred W. Billmeyer, TEXTBOOK OF POLYMER SCIENCE, 151–153,
396, and 397 (3d. ed. 1984) (Ex. 1003, “Billmeyer”).
2

120a

Case IPR2017-02158
Patent 6,669,991 B2
obviousness grounds based on Gladstone4 that were also set forth in the
Petition. Paper 9.
Patent Owners filed a Response to the Petition (Paper 13, “PO Resp.”)
and Petitioners filed a Reply to Patent Owners’ Response (Paper 16,
“Reply”). Patent Owners also filed a Motion for Conditional Amendment
under 37 C.F.R. § 42.121 (Paper 14, “Motion to Amend” or “Mot.”),
Petitioners filed an Opposition (Paper 17, “Opp.”), and Patent Owners filed
a Reply (Paper 19, “Amend. Reply”). An oral hearing was held on January
9, 2019, and a transcript has been entered into the record. Paper 28 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6. This Final Written
Decision is issued pursuant to 35 U.S.C. § 318(a) and 37 C.F.R. § 42.73.
Based on the record before us, we conclude that Petitioners have
demonstrated by a preponderance of the evidence that claims 1–11, 13, 14,
and 20–24 of the ’991 patent are unpatentable. We deny Patent Owners’
Motion to Amend.
a. Related Proceedings
Patent Owners have asserted the ’991 patent against Petitioners in a
copending litigation in the Southern District of Ohio: Alan Stuart, Trustee
for The Cecil G. Stuart and Donna M. Stuart Revocable Living Trust
Agreement et al. v. RPM International et al., No. Civil Action No: 2:16-cv00622-EAS-TPK (S.D. Ohio). Paper 5, 2. That litigation has been stayed
pending our final written decision in this proceeding.

4

Bernard Gladstone, Tarred 'N' Bothered – Kitchen Scouring Pad Can
Restore a ‘Dull’ Finish to Vinyl Siding, CHICAGO TRIBUNE, Feb. 18, 2000,
available at http://www.chicagotribune.com (Ex. 1004) (“Gladstone”).
3

121a

Case IPR2017-02158
Patent 6,669,991 B2
b. The ’991 patent (Ex. 1001)
The ’991 patent issued on December 30, 2003, with Alan Stuart as the
named inventor. Ex. 1001 at (45), (76). The ’991 patent issued from an
application filed March 22, 2002. Id. at (22). The ’991 patent relates
generally “to a composition and method for rejuvenating polymeric
materials, especially those comprised of vinyl resins such as vinyl siding.”
Id. at 1:7–9. The Background section of the patent indicates that ultraviolet
light can cause vinyl resins, such as poly(vinyl chloride), “to discolor, chalk,
loose [sic] gloss, and even to become brittle leading to possible deformation
of the product.” Id. at 1:18–20. According to the patent, prior attempts at
solving this problem, such as using ultraviolet stabilizers or cleaning the
surface, have not proven to be satisfactory, and thus “a need remains to
rejuvenate the surfaces of these products.” Id. at 1:22–54.
The invention described in the patent includes the use of a
composition with an organic solvent that has a particular “solubility
parameter” (δ), which is matched to the solubility parameter of the vinyl
polymer to be rejuvenated. Id. at 2:40–45. The patent states that the term
“solubility parameter” is known in the art, defined using one of two
formulas:
1) δ = [(ΔEv)/(V)]½, where ΔEv is energy of vaporization and V
is the molar volume; or
2) δ2 = δD2 + δE2+ δH2, where δD is the dispersion component, δE
is the polar component, and δH is the hydrogen bonding
component.

4

122a

Case IPR2017-02158
Patent 6,669,991 B2
Id. at 2:46–61 (citing and incorporating by reference Kirk-Othmer 5 and
Grulke6). The organic solvent may have a solubility parameter either within
the range of 8.0 to about 10.6 (cal/cm3)½, or within about 1.8 (cal/cm3)½ of
the solubility parameter of the target polymeric surface. Id. at 1:57–61,
2:13–18. Specific organic solvents that may be used for such a composition
are also identified, including methylene chloride and acetone. Id. at 3:58–
4:35.
The patent teaches that “[t]he composition and method of this
invention advantageously removes or transforms the chalky surface that
develops on polymeric surfaces that are exposed to sunlight and other
environmental conditions,” and “[a]dditionally, the color, luster, and gloss of
the surface can be restored.” Id. at 2:20–24. The patent notes that “the fact
that the composition of this invention restores the original luster of the
surface, especially the surfaces of vinyl siding, was highly unexpected since
conventional wisdom suggests that a solvent would remove and thereby
deteriorate the luster of the surface.” Id. at 3:29–33. The patent further
notes that “it has been found that the rejuvenation, e.g., restoration of color
and luster, does not necessarily result from cleaning the surface.” Id. at
5:62–65. The only example provided in the patent describes the use of a
colorimeter in determining that the original color of the vinyl siding was
restored within 1 Delta E, which was tantamount to the color differentiation
of a new product and not noticeable to the human eye. Id. at 6:20–7:9.

5

Kirk-Othmer, ENCYCLOPEDIA OF CHEMICAL TECHNOLOGY, Supplement,
889–910 (2d. ed. 1971) (Ex. 1006, “Kirk-Othmer”).
6
Eric A. Grulke, Solubility Parameter Values, POLYMER HANDBOOK,
VII/519–VII/559 (3d ed. 1989) (Ex. 1008, “Grulke”).
5

123a

Case IPR2017-02158
Patent 6,669,991 B2
c. Illustrative Claim
Petitioners challenge claims 1–11, 13, 14, and 20–24 of the ’991
patent. Among the challenged claims, claims 1, 20, and 22 are each
independent and reproduced below:
1. A method for rejuvenating the surface of vinyl siding, the
method comprising:
applying a composition to the surface of the vinyl siding, where
the composition consists essentially of one or more organic
solvent compounds that have a solubility parameter (δ) of from
about 8.0 to about 10.6 (cal/cm3)½, optionally one or more
diluents selected from the group consisting of aliphatic
distillates, aromatic distillates, naphtha, pine oil, tricresyl
phosphate, and mixtures thereof, and optionally one or more
antioxidants, thermal stabilizers, bacteriostats, ultraviolet
absorbers, and a mixture thereof.
20. A method for rejuvenating and cleaning the surface of
weathered vinyl siding, the composition comprising:
applying a composition to the surface of the vinyl siding, where
the composition comprises from about 50 to about 100 percent
by weight of an organic solvent component that is an ether, a
heterocyclic ether, an aldehyde, a ketone, an ester, a chlorinated
hydrocarbon, an amide, a cyclic amide, a compound that is both
an ether and an ester, or a mixture thereof, where the organic
solvent component has a solubility parameter (δ) of from about
8.0 to about 10.6 (cal/cm3)½.
22. A method for rejuvenating the surface of vinyl siding, the
method comprising:
applying a composition to the surface of vinyl siding, where the
vinyl siding includes poly(vinylchoride) or other vinyl
copolymers that are characterized by having a solubility
parameter of from about 9.4 to about 9.8 (cal/cm3)½, where the
composition includes at least 50 percent by weight of one or
more organic solvent compounds that have a solubility
parameter of from about 8.0 to about 10.6 (cal/cm3)½.
Ex. 1001, 7:16–27, 8:49–59, 8:64–9:6.
6

124a

Case IPR2017-02158
Patent 6,669,991 B2
d. The Asserted Grounds of Unpatentability
Petitioners challenge the patentability of the claims of the ’991 patent
based on the following grounds:

References

Basis

Claims challenged

Baumgärtel

§ 102(b)

1–11, 13, 14, and 20–24

Baumgärtel and Billmeyer

§ 103(a)

1–11, 13, 14, and 20–24

Gladstone

§ 102(b)

1–10, 13, and 20

Gladstone

§ 103(a)

11

Petitioners further rely upon the declarations of Robson F. Storey,
Ph. D. (Ex. 1005 and Ex. 1022). In their Response, Patent Owners rely upon
the declaration of Eric Grulke, Ph.D. (Ex. 2003).
II.

ANALYSIS
a. Claim Construction
For petitions filed before November 13, 2018,7 we interpret claims

using the “broadest reasonable construction in light of the specification of
the patent in which [they] appear[].” 37 C.F.R. § 42.100(b) (2017); see also
Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct. 2131, 2144–46 (2016). Under
the broadest reasonable construction standard, claim terms are generally
given their ordinary and customary meaning, as would be understood by one
of ordinary skill in the art at the time of the invention. In re Translogic
Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007). “Absent claim language

7

A recent amendment to 37 C.F.R. § 42.100(b) does not apply here because
the Petition was filed before November 13, 2018. See Changes to the Claim
Construction Standard for Interpreting Claims in Trial Proceedings Before
the Patent Trial and Appeal Board, 83 Fed. Reg. 51,340 (Oct. 11, 2018).
7

125a

Case IPR2017-02158
Patent 6,669,991 B2
carrying a narrow meaning, the PTO should only limit the claim based on
the specification . . . when [it] expressly disclaim[s] the broader definition.”
In re Bigio, 381 F.3d 1320, 1325 (Fed. Cir. 2004). “Although an inventor is
indeed free to define the specific terms used to describe his or her invention,
this must be done with reasonable clarity, deliberateness, and precision.” In
re Paulsen, 30 F.3d 1475, 1480 (Fed. Cir. 1994).
1. “solubility parameter”
Each of the challenged claims require the use of a solvent having a
“solubility parameter” within a specified range. Petitioners note that
the ’991 patent describes two alternative measures for the solubility
parameter, known in the industry as the Hildebrand solubility parameter
(δ = [(ΔEv)/(V)]½) and the Hansen solubility parameter (δ2 = δD2 + δE2+ δH2).
Pet. 6–7. Petitioners contend that the claims are indefinite because the
specification teaches at least two different methods of measuring a
parameter in the claims without specifying which method should be used.
Id. at 8–9.
Although the Hildebrand and Hansen solubility parameters can
diverge for a given solvent, Petitioners acknowledge that the prior art relied
upon in the Petition teaches solvents that fall within the claimed ranges
regardless of which of these two measures of solubility parameter is used.
Id. at 10–11. Thus, as we noted in our Institution Decision, we can
determine the scope and meaning of the claims sufficiently for purposes of
addressing the anticipation and obviousness challenges set forth in the

8

126a

Case IPR2017-02158
Patent 6,669,991 B2
Petition. Inst. Dec. 7. 8 As an alternative to their indefiniteness argument,
Petitioners propose a construction of “solubility parameter as measured by
any of the measures of solubility parameters disclosed in the ’991 patent or
in the publications incorporated by reference in the specification, including
but not limited to Hildebrand and Hansen solubility parameters.” Pet. 15.
In our Institution Decision, we preliminarily construed “solubility
parameter” to encompass either the Hildebrand solubility parameter or the
Hansen solubility parameter as taught in the ’991 patent. Inst. Dec. 7.
Patent Owners do not dispute this construction. PO Resp. 11. Accordingly,
we do not modify our construction of “solubility parameter.”
2. “rejuvenating”
The challenged claims are each directed to “rejuvenating” the surface
of vinyl siding. In particular, independent claims 1 and 22 recite “[a]
method for rejuvenating the surface of vinyl siding,” while independent
claim 20 recites “[a] method for rejuvenating and cleaning the surface of
weathered vinyl siding.” Ex. 1001, cls. 1, 20, 22.
Although the “rejuvenating” term appears in the preamble, Petitioners
assert that it is nonetheless limiting because the applicant argued during
prosecution that rejuvenation of vinyl siding is a feature that distinguishes
the amended claims from the prior art, and further because the preamble
provides antecedent basis for the “applying a composition to the surface of
the vinyl siding” limitations in the body of the independent claims. Pet. 14.
Based on the specification’s teaching that “the color, luster, and gloss of the

8

Although Petitioners make the same indefiniteness argument for the
proposed substitute claims included with Patent Owners’ Motion to Amend,
we can also decide that Motion without reaching this issue.
9

127a

Case IPR2017-02158
Patent 6,669,991 B2
surface can be restored” (Ex. 1001, 2:20–27), Petitioners propose a
construction of “rejuvenating the surface of vinyl siding” as “to remove or
transform the chalky surface that develops on vinyl siding that is exposed to
sunlight and other environmental conditions, and restore the color, luster,
and/or gloss of the vinyl siding.” Pet. 15 (citing Ex. 1005 ¶¶ 33–38).
We preliminarily adopted Petitioners’ proposed construction for
“rejuvenating” in our Institution Decision. Inst. Dec. 8–10.9 In their
Response, Patent Owners do not dispute that the preamble language is
limiting, but contend that “‘rejuvenating [and cleaning] the surface of vinyl
siding’ should be construed as ‘restoring the color and luster of the surface
of vinyl siding [and removing or transforming the chalky surface that
develops on the surface of vinyl siding from exposure to sunlight and other
environmental conditions].’” PO Resp. 4 (alterations in original). Thus,
Patent Owners argue that both color and luster must be restored in order to
satisfy the “rejuvenating” term, and further seek to distinguish
“rejuvenating” from the term “cleaning.”
In that regard, Patent Owners contend that “the rejuvenation of the
surface of vinyl siding (as claimed) requires restoration of color” because
Webster’s American Dictionary College Edition (1997) (Ex. 2005, 865), the
Fourth Edition of the American Heritage Dictionary (Ex. 2006, 705), and
Merriam-Webster (Ex. 2007) each equate “rejuvenate” with “restore,” and
also because color is an essential aspect of the appearance of vinyl siding.

9

For purposes of our Institution Decision, we treated luster and gloss as both
referring to the shininess of the surface. See Inst. Dec. 8, n.7 (citing Ex.
2001, 53:9–20). As there is no dispute on this point, we continue to treat
luster and gloss in the same manner for this decision.
10

128a

Case IPR2017-02158
Patent 6,669,991 B2
PO Resp. 5–6 (citing Ex. 2003 ¶¶ 15–24). Noting that the ’991 patent
contemplates the rejuvenation of “numerous products made from polymeric
materials, including vinyl resins, plastics and rubbers” (Ex. 1001, 1:49–54),
Patent Owners contend “it is unsurprising that the specification describes the
restoration of color as an example of rejuvenation in the context of
describing an invention for rejuvenating weathered polymeric materials in
general, as opposed to rejuvenation of vinyl siding specifically.” PO Resp. 6
(citing Ex. 2003 ¶ 15, 17–18).
Based on our consideration of the full record of this proceeding, we
are unpersuaded by Patent Owners’ argument that the proper construction of
“rejuvenating” requires restoration of both color and luster. As
acknowledged by Patent Owners, the plain and ordinary meaning of
“rejuvenating” does not require color to be restored. PO Resp. 5 (“It is true
that rejuvenation in general does not require the restoration of color.”). The
claims do not otherwise mention color, luster, or gloss as a characteristic of
the vinyl siding.
Moreover, contrary to Patent Owners’ arguments, neither the claims
nor the specification indicate that color is such an essential aspect of vinyl
siding that “rejuvenating the surface of vinyl siding” would have been
understood to necessarily require the restoration of color. While the
specification teaches that “color, luster, and gloss can be restored,” we do
not interpret that statement to require that all three characteristics must be
restored according to the claimed methods. Ex. 1001, 2:23–24 (emphasis
added). Rather, the specification indicates that restoration of both color and
luster is only an example of “rejuvenation” of vinyl siding:

11

129a

Case IPR2017-02158
Patent 6,669,991 B2
During this method of application, some of the chalky surface
of the vinyl siding may be removed on the cloth, but it should
be appreciated that this removal is not required to achieve the
benefits of rejuvenation. In other words, it has been found that
the rejuvenation, e.g., restoration of color and luster, does not
necessarily result from cleaning the surface. Instead, the
restoration or rejuvenation is believed to result from a
replasticizing of the vinyl surface. A residual benefit of the
invention is the fact that debris other than the chalky surface
can be removed, i.e., cleaned.
Id. at 5:59–6:1 (emphasis added); see Interval Licensing LLC v. AOL, Inc.,
766 F.3d 1364, 1374 (Fed. Cir. 2014) (determining that “person of ordinary
skill in the art would not understand the ‘e.g.’ phrase to constitute an
exclusive definition”). Patent Owners’ argument that this exemplary
statement was only made in the context of discussing weathered polymeric
materials in general is not convincing in view of the fact that the
immediately both the preceding and subsequent sentences specifically
discuss vinyl siding. We also note that other portions of the specification
only focus on the restoration of luster, rather than color, of vinyl siding
surfaces. See Ex. 1001, 3:29–33 (indicating that restoration of “the original
luster of the surface, especially the surfaces of vinyl siding, was highly
unexpected since conventional wisdom suggests that a solvent would
remove and thereby deteriorate the luster of the surface”).
Furthermore, while we recognize that the only example included in
the specification describes the use of a colorimeter test (Ex. 1001, 6:20–7:9),
we do not find that the claims are limited by that example’s teachings to
require the restoration of color. See Liebel–Flarsheim Co. v. Medrad, Inc.,
358 F.3d 898, 906 (Fed. Cir. 2004) (“[T]his court has expressly rejected the

12

130a

Case IPR2017-02158
Patent 6,669,991 B2
contention that if a patent describes only a single embodiment, the claims of
the patent must be construed as being limited to that embodiment.”).
Additionally, Patent Owners contend that Petitioners’ proposed
construction for “rejuvenating” improperly reads in “remove or transform
the chalky surface that develops on vinyl siding that is exposed to sunlight
and other environmental conditions” because “[t]he specification clearly
considers rejuvenating and cleaning to be two related, but distinct actions.”
PO Resp. 10. Patent Owners assert that this requirement should only be
included for those claims in which “cleaning” also appears. Id. at 11. Upon
consideration of Patent Owners’ arguments in the Response and Petitioners’
arguments in the Reply, we are still persuaded that this aspect of our
preliminary construction is correct.
The specification recites that “[t]he composition and method of this
invention advantageously removes or transforms the chalky surface that
develops on polymeric surfaces that are exposed to sunlight and other
environmental conditions.” Ex. 1001, 2:20–24. According to the
specification, “rejuvenation . . . does not necessarily result from cleaning the
surface,” but instead “is believed to result from a replasticizing of the vinyl
surface.” Id. at 5:63–66. Furthermore, the specification defines “cleaned”
as when debris other than the chalky surface is removed. Ex. 1001, 5:66–
6:5 (“A residual benefit of the invention is the fact that debris other than the
chalky surface can be removed, i.e., cleaned.”); see Edwards Lifesciences
LLC v. Cook Inc., 582 F.3d 1322, 1334 (Fed. Cir. 2009) (“[T]he
specification’s use of ‘i.e.’ signals an intent to define the word to which it
refers.”).

13

131a

Case IPR2017-02158
Patent 6,669,991 B2
At the same time, however, the specification states that removal of the
chalky surface is not required to achieve rejuvenation. See id. at 5:59–62
(“During this method of application, some of the chalky surface of the vinyl
siding may be removed on the cloth, but it should be appreciated that this
removal is not required to achieve the benefits of rejuvenation.”); id. at 6:1–
5 (“In other embodiments, the composition can be sprayed or rolled onto the
surface to be treated. Again, these techniques are useful because the chalky
surface does not need to [be] removed from the surface.”). The specification
also teaches that rejuvenation is specifically attributable to the use of an
organic solvent with a solubility parameter that matches the solubility
parameter of the vinyl surface, and that this was unexpected because
“conventional wisdom suggests that the use of a matched solvent would lead
to the destruction, via solubilization, of the surface.” See id. at 2:40–45
(stating that “[v]inyl siding and other weathered polymeric materials can be
rejuvenated by applying a particular composition of matter to the surface of
the siding or material,” wherein “[t]he composition includes at least one
organic solvent compound that has a solubility parameter (δ) that is matched
to the solubility parameter of the polymeric surface to be rejuvenated”)
(emphasis added); id. at 3:23–28 (“The use of a solvent that is matched to
the solubility parameter of the target polymer within the article to be
rejuvenated or cleaned has led to unexpected advantages . . . .”).
Based on the foregoing, we determine that the specification draws a
distinction between “rejuvenating” the chalky surface that develops on
polymeric surfaces exposed to sunlight and other environmental conditions,
and simply “cleaning” the surface. See also Ex. 1001, 1:43–48 (discussing
drawbacks to “[c]onventional approaches to cleaning”); id. at 8:49–50
14

132a

Case IPR2017-02158
Patent 6,669,991 B2
(claim 20 requiring both “rejuvenating” and “cleaning” the weathered vinyl
siding surface). The rejuvenation discussed in the ’991 patent is believed to
result from solubilizing and replasticizing the vinyl surface due to the
application of an organic solvent with a solubility parameter that matches the
surface. Although the specification states that the chalky surface does not
actually need to be removed in order to achieve this rejuvenation, neither the
claims nor the specification categorically excludes removal of the chalky
surface from being part of the claimed process. Petitioners’ proposed
construction encompassing either removing or transforming the chalky
surface properly takes these teachings into account.
Accordingly, we maintain our construction of “rejuvenating” as “to
remove or transform the chalky surface that develops on vinyl siding that is
exposed to sunlight and other environmental conditions, and restore the
color, luster, and/or gloss of the vinyl siding.”
3. Other Claim Terms
We determine that no other claim terms need to be construed for
purposes of our analysis in this Decision. See Nidec Motor Corp. v.
Zhongshan Broad Ocean Motor Co., 868 F.3d 1013, 1017 (Fed. Cir. 2017)
(“we need only construe terms ‘that are in controversy, and only to the
extent necessary to resolve the controversy’”) (quoting Vivid Techs., Inc. v.
Am. Sci. & Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir. 1999)).
b. Level of Skill in the Art
Petitioners contend that a person of ordinary skill in the art
(“POSITA”) for the ’991 patent “was someone with a bachelor of science
degree in chemistry or polymer science and three to four years of experience
in developing coatings and other formulations for treating polymeric
15

133a

Case IPR2017-02158
Patent 6,669,991 B2
materials,” and “would have been familiar with the fundamentals of polymer
solvation.” Pet. 17 (citing Ex. 1005 ¶ 23). Patent Owners contend that the
POSITA “would have had at least a bachelor’s degree in chemistry and/or
material science and two or more years of experience in the field, or [would
have served as] a mechanic with five or more years of experience working
with solvents and their interaction on various substrates.” PO Resp. 3 (citing
Ex. 2003 ¶ 8).
We preliminarily adopted Petitioners’ definition of the skill level of
the POSITA in our Institution Decision, as it was undisputed at the time and
consistent with the evidence of record. Inst. Dec. 10–11. Although Patent
Owners’ newly proposed skill level appears to allow for lesser education
and/or experience than Petitioners’ proposed skill level, the parties have not
suggested, and we do not perceive, that there is any meaningful difference
between the proposals that would impact our patentability analysis.
Nonetheless, we continue to adopt Petitioners’ proposed skill level for a
POSITA as more apt given the focus of the ’991 patent on rejuvenating
polymeric surfaces through the use of an organic solvent with a particular
solubility parameter. We have also taken into account the level of skill in
the art that is reflected in the prior art of record. See Okajima v. Bourdeau,
261 F.3d 1350, 1355 (Fed. Cir. 2001). We find that Dr. Storey and
Dr. Grulke are both qualified to provide opinions as to the perspective and
knowledge of a POSITA. See Ex. 1005 ¶¶ 23–24; Ex. 2003 ¶¶ 8–9.
c. Patentability Analysis
1. Content of the Prior Art
Petitioners rely primarily upon the following prior art teachings in
their challenges.
16

134a

Case IPR2017-02158
Patent 6,669,991 B2
a. Baumgärtel (Ex. 1002)
Baumgärtel is a German patent application published August 30,
1979. Baumgärtel describes compositions and methods for “Regenerating
and Restoring Surfaces or Surface Layers of Molded Parts or Objects Made
of Thermoplastic Resins Damaged by Light or Weather.” Ex. 1002, 1
(Title). Baumgärtel notes that “[t]his weather damage becomes apparent
through a change in color, or through damage to the surface, which can
reach a layer depth of 50 μm and more in the case of, e.g., polyvinyl chloride
molded parts damaged by weather or light.” Id. at 9. According to
Baumgärtel, “conventional commercial household cleaning agents can in
some cases refresh the color to a certain degree, but cannot eliminate
damage to surface layers caused by weather, or lead to a restoration of the
original appearance of the surface of the plastic.” Id. Baumgärtel teaches
that using the compositions described therein will “regenerate and restore
objects and molded parts made of thermoplastic resins increasingly used for
exterior applications, e.g. polyvinyl chloride . . , which are exposed to
weather and light effects,” such that “siding . . . which already exhibit light
or weather damaged surfaces or surface layers [will] appear new on one
hand, and have a protected and restored surface or surface layer on the other
hand.” Id. at 12–13.
“[A]n organic chemical liquid that swells the thermoplastic resin”
may be used as the treatment agent. Id. at 12. “According to a particularly
advantageous embodiment” of Baumgärtel’s method, “the molded parts or
objects made of thermoplastic resins are regenerated and restored” with a
composition containing “portions of (in relation to 100 parts liquid or liquid
mixture) ca. 80% to 99.9% (by weight), preferably 90% to 99% (by weight),
17

135a

Case IPR2017-02158
Patent 6,669,991 B2
of an organic chemical liquid or liquid mixture that swells the surface.” Id.
at 15. More specifically, for thermoplastic resins such as polyvinyl chloride,
“particularly suitable” treatment agents are “composed of portions of ca. 5%
to ca. 0.1% (by weight), preferably 2.5% to 0.5% (by weight), of a UV
absorber and/or light stabilizer, or mixtures of one or more UV absorbers
and/or light stabilizers, and dichloromethane or an organic chemical liquid
mixture that swells the thermoplastic resin (e.g. polyvinyl chloride),
dissolves the UV absorber and/or light stabilizer.” Id. at 12. Baumgärtel
also allows for “[t]he partial replacement of dichloromethane . . . with the
provision that the overall liquid has only a swelling effect on the objects to
be treated, and does not dissolve them.” Id. at 13. In particular, “acetone,
ethyl acetate or methyl acetate or a mixture of these compounds” may be
used as the organic chemical liquid that “swells polyvinyl chloride, and
partially replaces dichloromethane.” Id. at 14.
Baumgärtel further teaches that an “additional restoration and/or
surface treatment agent . . . should be implemented for practical purposes.”
Id. “Preferably, an optical brightener, antioxidant, antistatic, pigment, wax
and/or silicone, or a mixture of one or more of these components, is used as
the additional restoration and/or surface treatment agent.” Id. at 12. Such an
additional restoration/surface treatment agent may also include a pigment.
Id. at 17. And “[w]ith the treatment agent containing pigments, it is also
possible to color the molded part or object made of thermoplastic resin on
the surface layer, such that either nearly the original ‘restored’ color, or
some other color, can be obtained.” Id. at 18.
Example 1 of Baumgärtel is reproduced below:

18

136a

Case IPR2017-02158
Patent 6,669,991 B2
The yellowed surface layer of a white siding made of impact
resistant polyvinyl chloride is rubbed with a solution of 0.3 g 2hydroxy-4-methoxybenzophenon (UV absorber), 0.3 g dibutyl
tin-bis-maleic acid isobutyl ester (light stabilizer) and 0.4 g
cetyl palmitate (wax) in 99 g dichloromethane using cellulose
towels, such that the damaged surface layer is removed and the
layer unprotected against the effects of weather is protected by
the quantity of UV absorber, light stabilizer and wax remaining
in and on it against further weathering and the yellowing caused
thereby.
Id. at 20.
b. Billmeyer (Ex. 1003)
Billmeyer is an excerpt from the Textbook of Polymer Science, with a
copyright date of 1984. Ex. 1003. Billmeyer teaches the criteria for
polymer solubility, noting that “[d]issolving a polymer is a slow process that
occurs in two stages” wherein “[f]irst, solvent molecules slowly diffuse into
the polymer to produce a swollen gel” and second, “the gel gradually
disintegrates into a true solution.” Id. at 151. Billmeyer teaches the
selection of solvents for solvation (including swelling) of polymers using the
solubility parameter (δ), as originally approximated by Hildebrand. Id. at
152–53. In particular, “[t]he value of the solubility-parameter approach is
that δ can be calculated for both polymer and solvent,” and “[a]s a first
approximation, and in the absence of strong interactions such as hydrogen
bonding, solubility can be expected if δ1 – δ2 is less than 3.5–4.0 [J/cm3)½],
but not if it is appreciably larger.” Id. Billmeyer notes that this approach to
polymer solubility has been extensively used, particularly in the paint
industry. Id. at 153.
Billmeyer includes the following table of typical values of the
solubility parameter for some common polymers and solvents:
19

137a

Case IPR2017-02158
Patent 6,669,991 B2

Id. As noted in Table 7-1 above, poly(vinyl chloride) has a solubility
parameter of 19.4 (J/cm3)½, which converts to 9.5 (cal/cm3)½. Ex. 1005
¶ 150.
c. Gladstone (Ex. 1004)
Gladstone appears to be a newspaper advice column concerning home
improvement bearing a date of February 18, 2000. Ex. 1004. In the
question posed to the columnist, the homeowner stated that a contractor
accidently spilled tar on light colored vinyl siding and cleaned it using
acetone, but the homeowner complained, “now that we are getting more sun,
those places where the tar was removed have a slight shine or gloss that
makes them very noticeable,” and asked “how to dull these glossy spots so
that they do not stand out as much?” Id. at 1. In response, the columnist
advised as follows:

20

138a

Case IPR2017-02158
Patent 6,669,991 B2
When the tar was washed off, the solvent also removed the
“chalking” on the finish, thus exposing the original luster. You
could use a solvent to clean off all the siding in the same way.
But if you want to avoid this big job, you may be able to get by
with simply dulling the shiny places by rubbing down with a mild
abrasive such as a kitchen scouring pad (sold for cleaning pots)
or even an automobile cleaning and polishing compound (sold
for restoring old, dull finishes).
Id. at 1–2.
2. Anticipation Based on Baumgärtel
Petitioners contend that claims 1–11, 13, 14, and 20–24 are
anticipated by Baumgärtel. Pet. 23–24. Petitioners provide a claim chart
detailing how each limitation of the challenged claims is allegedly taught by
Baumgärtel. Id. at 24–34.
In our Institution Decision, we found that Petitioners demonstrated a
reasonable likelihood of prevailing with respect to at least one claim based
on this anticipation challenge. Inst. Dec. 14–16. We have revisited the
analysis set forth in our Institution Decision and considered the question of
patentability anew in view of all the evidence and arguments presented in
this proceeding. Based on the record developed during this proceeding, we
now determine that Petitioners have shown by a preponderance of the
evidence that Baumgärtel anticipates claims 1–11, 14, and 20–24, but have
not demonstrated that Baumgärtel anticipates claim 13.
Independent Claims 1, 20, and 22
With respect to independent claim 1, Petitioners contend that the
preamble’s recitation of “[a] method of rejuvenating the surface of vinyl
siding” is satisfied by Baumgärtel’s teaching of a method for regeneration
and restoring surfaces of molded parts made of thermoplastic resins
damaged by light or weather. Pet. 24 (citing Ex. 1002, 1). Petitioners focus
21

139a

Case IPR2017-02158
Patent 6,669,991 B2
on Example 1 of Baumgärtel, which discloses the application of a
composition containing 99 wt. % dichloromethane to the surface of weatherdamaged vinyl siding. Id. at 24–25 (citing Ex. 1002, 20). Petitioners
contend that dichloromethane (aka methylene chloride or methylene
dichloride)10 is an organic solvent compound that has a solubility parameter
(δ) within the claimed range of about 8.0 to about 10.6 (cal/cm3)½, and in
particular a Hildebrand solubility parameter of 9.7 (cal/cm3)½ and a Hansen
solubility parameter of 9.9 (cal/cm3)½. Id. at 25 (citing Ex. 1005 ¶ 80;
Ex. 1008 (Grulke); Ex. 1009 (Kirk-Othmer)).
With respect to the “consisting essentially of”11 phrase in claim 1,
Petitioners contend that the additional ingredients included in Example 1 (a
UV absorber, light stabilizer, and wax) do not affect the rejuvenation
characteristics of dichloromethane. Id. at 25–26 (citing Ex. 1005 ¶¶ 81–84).
With regard to claim 1’s optional inclusion of one or more diluents,
Petitioners cite to Example 4 of Baumgärtel, which teaches the use of the
diluent n-heptane, which is an aliphatic distillate. Id. at 26 (citing Ex. 1002,
20; Ex. 1005 ¶¶ 85–88). Additionally, with respect to other optional
ingredients recited in claim 1, Petitioners cite to Baumgärtel’s teaching that
“an optical brightener, antioxidant, antistatic, pigment, wax and/or silicone,
or a mixture of one or more of these components, is used as the additional

10

It is undisputed that the dichloromethane referenced in Baumgärtel is the
same compound as the methylene chloride referenced in the ’991 patent.
Ex. 1005 ¶ 53.
11
The transitional phrase “consisting essentially of” is understood to exclude
additional ingredients that would “materially affect the basic and novel
characteristics” of the claimed composition. Atlas Powder Co. v. E.I. du
Pont De Nemours & Co., 750 F.2d 1569, 1574 (Fed. Cir. 1984).
22

140a

Case IPR2017-02158
Patent 6,669,991 B2
restoration and/or surface treatment agent.” Id. (citing Ex. 1002, 12).
Petitioners rely upon the same teachings to assert that independent claims 20
and 22 are anticipated by Baumgärtel. Id. at 31–33.
Patent Owners do not separately argue the challenged claims in their
Response. Instead, Patent Owners argue that Petitioners failed to show that
Baumgärtel anticipates any claim because the reference “does not teach that
its disclosed solvents will restore the color of the vinyl siding.” PO
Resp. 12. Patent Owners do not dispute that the dichloromethane used in
Example 1 of Baumgärtel is an organic solvent that inherently meets the
solubility parameter requirements of the challenged claims. See Ex. 1005
¶¶ 53, 80. Patent Owners, however, contend that the solvent mixture
disclosed in Baumgärtel does not restore the color of vinyl siding on its own;
instead, the reference discloses that the addition of pigments is required to
restore color. Id. (citing Ex. 1002, 14, 17–18). Patent Owners additionally
contend that Baumgärtel does not teach that the disclosed organic solvent
rejuvenates the vinyl siding because the reference does not specify that the
solvent restores color, but rather only discusses the regeneration and
restoration of objects and molded parts such that they “appear new” and
“have a protected and restored surface or surface layer.” Id. at 13 (citing
Ex. 1002, 12–13).
Consistent with their claim construction position, Petitioners in their
Reply contend that the claimed methods of “rejuvenating” do not require
restoration of color. Reply 11–12. Petitioners further argue that Baumgärtel
anticipates the claims even if “rejuvenating” were construed to require
restoration of both color and luster. Id. In support of this argument,
Petitioners cite Baumgärtel’s teaching that dichloromethane can be applied
23

141a

Case IPR2017-02158
Patent 6,669,991 B2
“to vinyl siding that has ‘weather damage [that has] become[] apparent
through a change in color’ in order to ‘regenerate and restore’ that vinyl
siding and to make that vinyl siding ‘appear new.’” Id. at 12–13 (citing Ex.
1002, 9, 12–13). Petitioners explain that, in Example 1, Baumgärtel
demonstrates the application of 99% dichloromethane to remove a
“yellowed” layer from the surface of weather-damaged vinyl siding. Id. at
13–14 (citing Ex. 1002, 20). Petitioners admit it is “not clear that
Baumgärtel’s Example 1 restored the vinyl siding to the ‘original’ color
when it removed the yellowed surface layer to reveal the unprotected layer
of white vinyl siding underneath,” but contend that the claims do not require
restoring the “original” color and “there is no doubt that Example 1 results in
some restoration of color.” Id. at 14.
Having considered the parties’ arguments and the evidence of record,
we find that Baumgärtel teaches either explicitly or inherently all the
limitations of independent claims 1, 20, and 22. As set forth above, we have
construed “rejuvenating” as it appears in the preambles of each of these
claims to mean “remove or transform the chalky surface that develops on
vinyl siding that is exposed to sunlight and other environmental conditions,
and restore the color, luster, and/or gloss of the vinyl siding.” Additionally,
we have construed “solubility parameter” to encompass either the
Hildebrand solubility parameter or the Hansen solubility parameter as taught
in the ’991 patent.
Although Baumgärtel does not mention solubility parameters, it is
undisputed that dichloromethane is an organic solvent compound with a
Hildebrand solubility parameter of 9.7 (cal/cm3)½ and a Hansen solubility
parameter of 9.9 (cal/cm3)½, thereby falling within the claimed range of
24

142a

Case IPR2017-02158
Patent 6,669,991 B2
about 8.0 to about 10.6 (cal/cm3)½ using either method of calculation.
Ex. 1005 ¶ 80; Ex. 1008; Ex. 1009. It is also undisputed that the additional
ingredients besides the 99 g dichloromethane included in the composition of
Baumgärtel’s Example 1 would not materially affect the basic and novel
properties of the claimed composition. Indeed, as noted by Dr. Storey, two
of those additional ingredients, namely, the UV absorber (0.3 g 2-hydroxy-4methoxybenzophenon) and light stabilizer (0.3 g dibutyl tin-bis-maleic acid
isobutyl ester), are among the “optional” ingredients recited in claim 1. 12
Ex. 1005 ¶ 81; Ex. 1020 (teaching that dihydrocarbyl tin maleic acid esters
provide stabilization of vinyl chloride resins against both heat and light).
Dr. Storey further attests, without dispute, that the third additional ingredient
of Baumgärtel’s Example 1 composition (0.4 g cetyl palmitate wax) would
not have affected the rejuvenation characteristics of the composition at such
low concentrations. Ex. 1005 ¶ 82. As such, we find that the composition in
Baumgärtel Example 1 “consists essentially of one or more organic solvent
compounds” meeting the solubility parameter requirement, i.e.,
dichloromethane.
Furthermore, in view of both the specific teaching in Example 1 that
the weather-damaged “yellowed surface layer” of a white polyvinyl chloride
siding was removed as well as the more generalized teachings elsewhere in
12

Given that the additional ingredients are identified as optional, they need
not be taught by the prior art for us to find anticipation. Cf. Cadence Pharm.
Inc. v. Exela PharmSci Inc., 780 F.3d 1364, 1373 (Fed. Cir. 2015) (finding
optional claim limitation did not need to be satisfied for a finding of
infringement). Petitioners, nonetheless, identify ingredients taught by
Baumgärtel that correspond to at least some of these optional ingredients.
See Pet. 26–27.
25

143a

Case IPR2017-02158
Patent 6,669,991 B2
Baumgärtel that weather damage becomes apparent through a change in
color and Baumgärtel’s stated objective of restoring such damaged surfaces
to its original appearance (e.g., Ex. 1002, 9), we find that Baumgärtel
teaches removing or transforming the chalky surface that develops on vinyl
siding that is exposed to sunlight and other environmental conditions, and
restoring the color, luster, and/or gloss of the vinyl siding. Additionally, we
find that Baumgärtel’s teaching that the composition “swells the surface of
the plastic, but does not dissolve the resin” (id.) is consistent with the ’991
patent’s teaching that “conventional wisdom suggests that the use of a
matched solvent would lead to the destruction, via solubilization, of the
surface,” but instead such use unexpectedly results in rejuvenation of the
surface (“believed to result from a replasticization of the vinyl surface”).
Ex. 1001, 3:23–28, 5:65–66. This is evidenced by Billmeyer, which is a
textbook teaching that dissolving a polymer generally involves “solvent
molecules slowly diffus[ing] into the polymer to produce a swollen gel” and
that matching the solubility parameter of the solvent with the polymer
enhances solubility. See Ex. 1003, 151–53. Thus, we find that Baumgärtel
teaches “rejuvenating” the surface of vinyl siding using such a composition
in the same manner as the ’991 patent.
Accordingly, we determine that Baumgärtel anticipates claims 1, 20, and 22.
Dependent Claims 2–11, 13, 14, 21, 23, and 24
Petitioners provide a claim chart and supporting expert testimony
showing how the challenged dependent claims are taught by Baumgärtel.
Pet. 27–34. Patent Owners have not have made any separate arguments for
these dependent claims. We nonetheless ascertain whether Petitioners have
met their burden with respect to these claims.
26

144a

Case IPR2017-02158
Patent 6,669,991 B2
Claim 2 recites that “the organic solvent compound is a polar
compound.” Dr. Storey explains that dichloromethane has a dipole moment
and is thus a polar compound. Ex. 1005 ¶ 94. Claim 3 recites that the
organic solvent compound can be a chlorinated hydrocarbon while claim 4
recites that the organic solvent compound can be methylene chloride.
Dr. Storey explains that dichloromethane also meets these requirements. Id.
¶¶ 96–99. Claims 5, 6, and 7 specify progressively narrower ranges for the
solubility parameter of the organic solvent compound, with the narrowest
recited range of “from about 8.9 to about 10.0 (cal/cm3)½.” As noted above,
dichloromethane has a Hildebrand solubility parameter of 9.7 (cal/cm3)½ and
a Hansen solubility parameter of 9.9 (cal/cm3)½, which fall within these
narrower ranges. Id. ¶¶ 100–105. Claim 8 (dependent from claim 1), claim
9 (dependent from claim 3), and claim 10 (dependent from claim 4) specify
that the composition includes from about 50 to about 100 percent by weight
of the organic solvent compounds. We find this requirement to be satisfied
by Baumgärtel’s Example 1 composition, which includes 99 % (by weight)
of dichloromethane. Id. ¶¶ 106–111. Claim 11 specifies that “the step of
applying includes wiping the surface with a cloth or sponge.” We find this
to also be satisfied by Baumgärtel’s Example 1, which teaches the
application of the dichloromethane composition using cellulose towels. Id.
¶¶ 112–113. Claim 14 (dependent from claim 1), claim 21 (dependent from
claim 20), and claim 24 (dependent from claim 22) specify that the vinyl
surface comprises poly(vinylchloride) or a vinyl chloride copolymer having
a solubility parameter of from about 9.4 to about 9.8 (cal/cm3)½. We find
that the polyvinyl chloride surface treated according to Baumgärtel’s

27

145a

Case IPR2017-02158
Patent 6,669,991 B2
Example 1 inherently satisfies this solubility parameter requirement. Id.
¶¶ 117–119, 125–127, 139–140; Ex. 1001, 3:10–12; Ex. 1003, 153.
Claim 13 (dependent from claim 1) specifies that “the organic solvent
compound is selected from the group consisting of ethyl 3-ethoxypropionate,
ethylene glycol monobutyl ether acetate, and acetone.” Similarly, claim 23
(dependent from claim 22) specifies that “the one or more organic solvent
compounds include ethyl 3-ethoxypropionate, ethylene glycol monobutyl
ether acetate, and acetone.” For both these requirements, Petitioners rely
upon Baumgärtel’s teaching that dichloromethane can be partially replaced
with an “aliphatic, acyclical liquid that swells the thermoplastic resin,”
including in particular acetone. Pet. 30, 34 (citing Ex. 1002, 13–14).
However, as recognized by Petitioners, Baumgärtel teaches just partially
replacing dichloromethane with another solvent such as acetone. While this
teaching is sufficient to satisfy claim 23, which uses the open-ended
transitional phrase “include,” we do not find it satisfies claim 13, which only
recites acetone as part of a closed Markush group. As such, claim 13 does
not allow for the inclusion of ingredients other than the specifically
enumerated organic solvent compounds, which does not include
dichloromethane. See Multilayer Stretch Cling Film Holdings, Inc. v. Berry
Plastics Corp., 831 F.3d 1350, 1357–62 (Fed. Cir. 2016) (applying
presumption that a Markush group using the transitional phrase “consisting
of” is closed to other unrecited ingredients).
Accordingly, we determine that Baumgärtel anticipates dependent
claims 2–11, 14, 21, 23, and 24. Petitioners, however, have not met their
burden of showing that Baumgärtel anticipates dependent claim 13.

28

146a

Case IPR2017-02158
Patent 6,669,991 B2
3. Obviousness Based on Baumgärtel and Billmeyer
Petitioners contend that claims 1–11, 13, 14, and 20–24 are also
rendered obvious by the combined teachings of Baumgärtel and Billmeyer.
Pet. 34–38. Petitioners provide a claim chart detailing how each limitation
of the challenged claims is taught by Baumgärtel and Billmeyer. Id. at 38–
50. Because we having determined that Baumgärtel alone anticipates
claims 1–11, 14, and 20–24, we only address this challenge as applied to
dependent claim 13. Petitioners do not rely upon Billmeyer to argue that it
would have been obvious to entirely replace the dichloromethane taught by
Baumgärtel with acetone or any of the other organic solvent compounds
enumerated in claim 13. See id. at 46 (relying only upon Baumgärtel’s
teachings in obviousness challenge as to claim 13). Accordingly, for the
reasons discussed above, we determine that Petitioners have not met their
burden of showing that the combination of Baumgärtel and Billmeyer
renders obvious dependent claim 13.
4. Anticipation/Obviousness Based on Gladstone
Petitioners contend that claims 1–10, 13, and 20 are anticipated by
Gladstone, and that claim 11 is rendered obvious by Gladstone. Pet. 51–60.
Petitioners provide claim charts detailing how each limitation of the
challenged claims is allegedly taught or suggested by Gladstone. Id. at 53–
60.
In our Institution Decision, we determined that Petitioners did not
demonstrate a reasonable likelihood of prevailing with respect to the
challenges based on Gladstone. Inst. Dec. 17–19. We have revisited the
analysis set forth in our Institution Decision and considered the question of
patentability anew in view of all the evidence and arguments presented in
29

147a

Case IPR2017-02158
Patent 6,669,991 B2
this proceeding. Based on the record developed during this proceeding, we
determine that Petitioners have not shown by a preponderance of the
evidence that claims 1–10, 13, and 20 are anticipated by Gladstone, or that
claim 11 is rendered obvious by Gladstone.
According to Petitioners, Gladstone describes the treatment of
weathered vinyl siding with acetone to “remove[] the ‘chalking’ on the
finish, thus exposing the original luster.” Pet. 51. Although Gladstone does
not discuss solubility parameters, Petitioners assert that “the solubility
parameter is an inherent property of a solvent,” and that the Hildebrand and
Hansen solubility parameters of the acetone are 9.8–9.9 (cal/cm3)½. Id.
(citing Ex. 1005 ¶¶ 54, 223). Furthermore, Petitioners rely upon Patent
Owners’ Infringement Contentions from the co-pending District Court
litigation, in which Patent Owners allegedly admitted that a 75–100%
acetone formulation meets the limitations of the challenged claims. Id. at
51–53 (citing Ex. 1009, Table 1).
Patent Owners argue that Gladstone does not anticipate or render any
claim obvious because it does not endorse using acetone to restore the luster
of vinyl siding and does not mention color restoration. PO Resp. 15–17
(citing Ex. 1004, 1). Patent Owners also argue that Gladstone does not
disclose the exact composition of the acetone solvent referenced in the
article, so Petitioners have not established that Gladstone teaches a
composition consisting essentially of an organic solvent having the claimed
solubility parameters. Id. at 17. Additionally, Patent Owners contend that
there is no statutory basis for Petitioners to rely upon Patent Owners’
infringement contentions to support its grounds. Id. at 16 (citing 35 U.S.C.
§ 311).
30

148a

Case IPR2017-02158
Patent 6,669,991 B2
Petitioners have not demonstrated why the POSITA would have
understood this newspaper column to teach the claimed methods. See
Sundance, Inc. v. DeMonte Fabricating Ltd., 550 F.3d 1356, 1361 (Fed. Cir.
2008) (“What a prior art reference discloses or teaches is determined from
the perspective of one of ordinary skill in the art.”). For instance, other than
simply referring to “acetone,” no details are provided in Gladstone as to the
exact composition of the solvent discussed therein. That is, Petitioners have
not established that a POSITA would have understood Gladstone to teach a
composition “consisting essentially” of an organic solvent having the
claimed solubility parameters as required by claim 1. Petitioners, in their
Reply, contend that a POSITA reading Gladstone would have concluded that
the acetone identified therein is the “same, pure acetone that can be
purchased in [the] corner hardware store.” Reply 19. Petitioners, however,
do not point to any evidence of record showing the composition or purity
level of acetone that can be purchased in a hardware store. Petitioners’
reliance upon Patent Owners’ infringement contentions from the district
court litigation does not remedy this deficiency since there is no basis to
conclude that the products accused of infringement have the same
composition as the “acetone” identified in Gladstone.
Furthermore, we agree with Patent Owners that Gladstone did not
endorse using acetone to restore the luster of vinyl siding—rather, the
homeowner had complained that acetone made a patch of vinyl siding shiny,
and the columnist responded that “[y]ou could use a solvent to clean off all
the siding in the same way,” but noted that was a “big job” to be avoided,
and instead recommended “simply dulling the shiny places by rubbing down
with a mild abrasive.” Ex. 1004, 1–2 (emphasis added). While we agree
31

149a

Case IPR2017-02158
Patent 6,669,991 B2
with Petitioners that “teaching away is not relevant to an anticipation
analysis,” Reply 16 (citing Krippelz v. Ford Motor Co., 667 F.3d 1261, 1269
(Fed. Cir. 2012)), we find that Gladstone’s recommendation against using
acetone to clean off the siding is relevant to at least Petitioners’ obviousness
contentions as to claim 11.
Accordingly, we determine that Petitioners have not demonstrated that
claims 1–10, 13, and 20 are anticipated by Gladstone, or that claim 11 is
rendered obvious by Gladstone.
III.

PATENT OWNERS’ MOTION FOR CONDITIONAL
AMENDMENT
As discussed above, we determine that Petitioners have demonstrated

by a preponderance of the evidence that claims 1–11, 14, and 20–24 are
unpatentable. Accordingly, we address Patent Owners’ Motion to Amend
with respect to proposed substitute claims 25–35 and 37–42. Mot. 2–6.
Because we did not find claim 13 unpatentable, we do not address Patent
Owners’ Motion to Amend with respect to proposed substitute claim 36. Id.
at 4.
Proposed substitute claim 25, reproduced below, is illustrative:
25. (Proposed substitute for claim 1) A method for
rejuvenating the surface of vinyl siding, the method comprising:
applying a composition to the surface of the vinyl siding, wherein
applying the composition restores a color and luster of the
surface of the vinyl siding, where the composition consists
essentially of one or more organic solvent compounds that have
a solubility parameter (δ) of from about 8.0 to about 10.6
(cal/cm3)½, optionally one or more diluents selected from the
group consisting of aliphatic distillates, aromatic distillates,
naphtha, pine oil, tricresyl phosphate, and mixtures thereof, and
optionally one or more antioxidants, thermal stabilizers,
bacteriostats, ultraviolet absorbers, and a mixture thereof.
32

150a

Case IPR2017-02158
Patent 6,669,991 B2
Id. at 2. Patent Owners have proposed similar amendments in independent
claims 38 (proposed substitute for claim 20) and 40 (proposed substitute for
claim 22). Id. at 4–5.
a. Procedural Requirements for Motion to Amend
In an inter partes review, amended claims are not added to a patent as
of right, but rather must be proposed as a part of a motion to amend.
35 U.S.C. § 316(d). “During an inter partes review instituted under this
chapter, the patent owner may file 1 motion to amend the patent,” and “[f]or
each challenged claim, propose a reasonable number of substitute claims.”
Id.; see also 37 C.F.R. § 42.121(a)(3). The Board must assess the
patentability of proposed substitute claims “without placing the burden of
persuasion on the patent owner.” Aqua Prods., Inc. v. Matal, 872 F.3d 1290,
1296 (Fed. Cir. 2017) (en banc). However, Patent Owners’ proposed
substitute claims must meet the statutory requirements of 35 U.S.C. § 316(d)
and the procedural requirements of 37 C.F.R. § 42.121. See Lectrosonics,
Inc. v. Zaxcom, Inc., IPR2018-01129, Paper 15 at 2 (PTAB Feb. 25, 2019)
(precedential); Memorandum “Guidance on Motions to Amend in view of
Aqua Products” (Nov. 21, 2017)
(https://www.uspto.gov/sites/default/files/documents/guidance_on_motions_
to_amend_11_2017.pdf) (“Board’s Memorandum”).
Accordingly, Patent Owners must demonstrate: (1) the amendment
proposes a reasonable number of substitute claims; (2) the amendment
responds to a ground of unpatentability involved in the trial; and (3) the
amendment does not seek to enlarge the scope of the claims of the patent or
introduce new subject matter, such that the proposed claims are supported in
the original disclosure. See 35 U.S.C. § 316(d); 37 C.F.R. § 42.121. We
33

151a

Case IPR2017-02158
Patent 6,669,991 B2
determine that these procedural requirements are satisfied. In particular,
Patent Owners propose one substitute claim per challenged claim, which is a
presumptively reasonable number of substitute claims. See 37 C.F.R.
§ 42.121(a)(3) (“The presumption is that only one substitute claim would be
needed to replace each challenged claim.”). Furthermore, through its
proposed amendments and supporting arguments, Patent Owners specifically
respond to the unpatentability grounds set forth in the Petition.
Additionally, we find that the written description provides adequate
support for the proposed amended claims. Patent Owners point out that
support for the added limitation “wherein applying the composition restores
a color and luster of the surface of the vinyl siding” can be found in the
originally-filed application, No. 10/102,714 (Ex. 1010) at 3:17–19; 8:18–28;
and 9:9–10:24. Mot. 6. Petitioners argue that “these are the same passages
that Patent Owners previously identified, and the Board rejected, as support
for a finding that both color and luster are required during the rejuvenation
process.” Opp. 21 (citing Inst. Dec. 9). However, we did not suggest in our
Institution Decision (and do not suggest here) that the ’991 patent fails to
provide written description support for restoring both color and luster.
Rather, as we recognized previously, the specification contemplates (but
does not require) restoration of both color and luster as one example of
“rejuvenation.” See Ex. 1001, 2:20–27 (“[T]he color, luster, and gloss of the
surface can be restored”); id. at 5:62–65 (‘[I]t has been found that the
rejuvenation, e.g., restoration of color and luster, does not necessarily result
from cleaning the surface.”). Accordingly, we determine that the proposed
amendments do not seek to enlarge the scope of the claims of the patent or
introduce new subject matter.
34

152a

Case IPR2017-02158
Patent 6,669,991 B2
In addition to the requirements of 37 C.F.R. § 42.121, Petitioners
contend that Patent Owners’ Motion should be denied because Patent
Owners did not inform Petitioners of their conferral with the Board prior to
filing the Motion. Opp. 19–20. We discussed this argument with the parties
in a conference call and rejected it in an Order issued on Nov. 9, 2018.
Paper 18, 3. As discussed in our Order, “[u]pon consideration of the
arguments and positions presented during the call, we waived the
requirement to confer with the Board for Patent Owners’ Motion to Amend
in order ‘to secure the just, speedy, and inexpensive resolution of this
proceeding.’ 37 C.F.R. § 42.1(b); see also id. § 42.5(b).” Id. Therefore, we
refuse to deny Patent Owners’ Motion on this basis.
b. Patentability Analysis for Proposed Amended Claims
In accordance with Aqua Products, Patent Owners do not bear the
burden of persuasion to demonstrate the patentability of the substitute claims
presented in the Motion to Amend. Rather, ordinarily, “the petitioner bears
the burden of proving that the proposed amended claims are unpatentable by
a preponderance of the evidence.” Bosch Auto. Serv. Sols., LLC v. Matal,
878 F.3d 1027, 1040 (Fed. Cir. 2017), as amended on reh’g in part
(Mar. 15, 2018). The Board itself also may justify any finding of
unpatentability by reference to evidence of record in the proceeding. Id.
(citing Aqua Products, 872 F.3d at 1311 (O’Malley, J.)). Thus, the Board
determines whether the proposed substitute claims are unpatentable based on
the entirety of the record, including any opposition made by Petitioners.
In their Opposition, Petitioners assert that the proposed substitute
claims are unpatentable due to 1) anticipation based on the explicit teachings
of, as well as inherency by, Baumgärtel; 2) obviousness based on
35

153a

Case IPR2017-02158
Patent 6,669,991 B2
Baumgärtel in view of Billmeyer; 3) lack of enablement under § 112(a); and
4) indefiniteness under § 112(b). Opp. 6–19. Because we are persuaded by
Petitioners’ arguments and the evidence of record that the proposed
substitute claims are still anticipated by Baumgärtel, we deny the Motion to
Amend on that basis and do not address the other unpatentability arguments
argued by Petitioners.
Construction of “Restores a Color and Luster”
Before we turn to our anticipation analysis, we address one disputed
issue of claim construction with respect to the proposed amended claims. In
effect, Patent Owners’ proposed amendments seek to incorporate as an
explicit recitation at least part of their proposed claim construction for the
term “rejuvenating” that we rejected in our analysis of the original claims.
However, in contrast to their prior construction requiring “restoring the color
and luster of the surface of vinyl siding,” the proposed amendments now
only require “restor[ing] a color and luster of the surface of the vinyl
siding.”
Petitioners contend that the broadest reasonable interpretation of this
phrase is “to alter the surface of vinyl siding to noticeably improve any
aspects of both the color and luster.” Opp. 4–5. Patent Owners, on the other
hand, contend that “restores a color and luster” has its plain and ordinary
meaning, which is “to return to the original color and luster.” Amend. Reply
1–3.
We find Petitioners’ proposed construction for this phrase to be
unreasonably broad and unsupported by the specification. Although
Petitioners assert that the ’991 patent “discloses the restoration of color and
luster generally and that color and luster are improved in some meaningful
36

154a

Case IPR2017-02158
Patent 6,669,991 B2
way,” none of the cited passages of the specification discuss restoration in
such broad terms. Opp. 4 (citing Ex. 1001, 2:23–24, 2:29–34, 5:62–65,
6:44–47, 7:1–4). Furthermore, adopting Petitioners’ construction would
introduce ambiguity since it depends on the purely subjective preferences of
the observer as to what constitutes an improvement. See Sonix Tech. Co. v.
Publications Int’l, Ltd., 844 F.3d 1370, 1378 (Fed. Cir. 2017) (noting that
claims terms that “turned on a person’s tastes or opinion” or “a value
judgment that inherently varies from person to person” are likely indefinite).
We find Patent Owners’ proposed construction to be more reasonable.
Although the phrase “a color and luster” might be read in isolation to
suggest that any color or luster might be the end result of the claimed
methods, Patent Owners point out that the reason they used “a” instead of
“the” in the proposed amendments is because “basic tenets of claim
drafting” normally require claim terms to have proper antecedent basis.
Amend. Reply 3 (citing MPEP § 2173.05(e), which states that a claim term
without antecedent basis could potentially, but not necessarily, be
indefinite). Additionally, the plain and ordinary meaning of “restores,” like
the term “rejuvenating,” already means returning to an original state. See
Ex. 2005 (defining “rejuvenate” as: “1. to restore to youthful vigor,
appearance etc.; make young again. 2. to restore to a former state; make
fresh again. . . . 3. to undergo rejuvenation.”). Furthermore, the ’991 patent
specifically mentions that restoration of the “original color” or the “original
luster” of the surface is either an unexpected advantage or an objective of the
invention. See Ex. 1001, 3:29–31 (“[T]he fact that the composition of this
invention restores the original luster of the surface . . . was highly
unexpected.” (emphasis added)); id. at 6:49–50, 7:1–4 (describing
37

155a

Case IPR2017-02158
Patent 6,669,991 B2
colorimeter test used “to establish the degree to which the original color of
the vinyl siding was restored” and indicating that “[t]he results of the
colorimeter tests indicated that . . . the original color of the vinyl siding was
restored within 1 Delta E (0.92 Delta E).” (emphasis added)).
Thus, in view of the foregoing, we determine that “restores a color
and luster” in the proposed amendments should be construed as “to return to
the original color and luster.” We note, however, that neither the claims nor
the specification require the treated surface to have the exact same color and
luster as the original or otherwise require a quantitative determination of
those parameters. While the specification reports that the colorimeter test
results showed a difference of less than 1 Delta E, which is within the
quality assurance standards of most vinyl siding manufacturers, it does not
suggest that the use of a colorimeter test is required in order to assess
whether restoration has been achieved. Rather, consistent with the teaching
that “the restoration and color provided by practicing this invention is
tantamount to the color differentiation of new products” and such “a
difference . . . is not noticeable to the human eye” (Ex. 1001, 7:4–9), we
determine that the requirement to “restore[e] a color and luster” in the
proposed substitute claims is satisfied so long as any differences in color and
luster between the original and treated surfaces are not noticeable to the
normal human eye.
Anticipation by Baumgärtel
Petitioners rely upon the same teachings of Baumgärtel discussed
above to assert that the proposed substitute claims are also anticipated. In
particular, with respect to the additional requirement to restore color recited
in the proposed substituted claims, Petitioners contend that by “teaching the
38

156a

Case IPR2017-02158
Patent 6,669,991 B2
application of dichloromethane to vinyl siding that has ‘weather damage
[that has] become[] apparent through a change in color’ in order to
‘regenerate and restore’ that vinyl siding and to make it ‘appear new,’
Baumgärtel teaches the restoration of color.” Opp. 6–7 (citing Ex. 1002, 9,
12–13). Petitioner further contends that Baumgärtel, in Example 1,
explicitly teaches that the solvent restores color, as well as luster, by
teaching that dichloromethane removed the yellowed, damaged surface layer
of white siding. Id. at 7 (citing Ex. 1002, 20). Petitioners include a claim
chart detailing how each of the limitations of proposed substitute claim 25
are taught by Baumgärtel. Id. at 8–12.
In addition to relying on the explicit teachings of Baumgärtel,
Petitioners contend that the proposed substitute claims are inherently
anticipated because restoration of color and luster is likewise the natural
result of the method disclosed in Baumgärtel. Id. at 12–17. Petitioners
contend that, “[a]s taught by the ’991 patent, the restoration of color and
luster is the natural result of the following steps: 1) having an organic
solvent with a solubility parameter of from about 8.0 to about 10.6
(cal/cm3)½ and 2) applying that organic solvent to the surface of vinyl
siding.” Id. at 13.
Petitioners further rely upon experiments performed by Dr. Storey in
which he applied a dichloromethane solution (99.5% purity) to the surface of
weathered vinyl siding according to the methods disclosed in Baumgärtel
and observed a change in both color and luster, as seen in the photo below:

39

157a

Case IPR2017-02158
Patent 6,669,991 B2

Id. at 15–16; see also Ex. 1022 (Second Storey Decl.) ¶¶ 19–25. As shown
above, Dr. Storey compared a portion of the siding that was treated with
dichloromethane with the untreated (weathered) front and back sides of
siding, and attests that both color and luster was restored after application.
Ex. 1022 ¶¶ 31–36. Dr. Storey explains that he relied on his visual
inspection instead of a colorimeter to analyze the degree of color restoration
because the colorimeter test data presented in the ’991 patent were unreliable
since it did not use the prescribed and accepted calculation for determining
the numerical color difference value (∆E*). Id. ¶¶ 26–30. With respect to
restoration of luster, Dr. Storey relied upon both his visual inspection as well
as gloss measurements taken using a BYK micro-TRI-gloss meter. Id. ¶¶
31–36.
Patent Owners argue that the proposed substitute claims are not
anticipated by Baumgärtel because it explicitly teaches that it is necessary to
separately add pigments to the mixture in order to restore the original color.
Mot. 9–10 (citing Ex. 1002, 14, 17–18); Amend. Reply 5. Furthermore,
Patent Owners argue that the claims require more than simply applying an
organic solvent with the required solubility parameter to the surface of vinyl
40

158a

Case IPR2017-02158
Patent 6,669,991 B2
siding. Amend. Reply 4. Patent Owners assert that “Baumgärtel does not
teach the use of dichloromethane in the claimed proportions,” but “[r]ather,
Baumgärtel teaches the use of dichloromethane in small proportions
sufficient to dissolve UV absorbers and/or light stabilizers that have
migrated to the surface in the thermoplastic resin and replace the UV
absorbers, not to replasticize the thermoplastic resin.” Id. at 4–5 (citing Ex.
1002, 12). As such, Patent Owners contend that “Baumgärtel subscribes to
the conventional wisdom the ’991 patent identifies as contradicted by the
claimed invention.” Id. at 5 (comparing Ex. 1002, 15 with Ex 1001, 3:2529). With regard to the experiment conducted by Dr. Storey to show
inherent anticipation, Patent Owners contend that “the experiment used
‘pure dichloromethane,’ not the mixture disclosed in Baumgärtel,” and thus
“Petitioners have failed to show that the method in Baumgärtel ‘must
necessarily include the unstated limitation.’” Id. at 6 (emphasis added)
(citing Transclean Corp. v. Bridgewood Servs., Inc., 290 F.3d 1364, 1373
(Fed. Cir. 2002)).
Having considered the parties’ contentions, we are persuaded that
Petitioners have demonstrated by a preponderance of the evidence that the
proposed substitute claims are anticipated, either explicitly or inherently, by
Baumgärtel. Contrary to Patent Owners’ arguments, we do not interpret
Baumgärtel as requiring pigments for the composition in all instances.
While Baumgärtel states that “nearly the original ‘restored’ color, or some
other color, can be obtained” with pigments, the reference plainly suggests
that such pigments are optional and may only be needed to restore certain
colors. Ex. 1002, 18 (“Thus, by way of example, white light-damaged or
weather-damaged profiles made of hard polyvinyl chloride are regenerated
41

159a

Case IPR2017-02158
Patent 6,669,991 B2
or restored using a treatment agent that contains pigments, wherein the
molded parts can be colored light pink, pale blue, light green or light
yellow.”). Indeed, Example 1 of Baumgärtel does not mention the use of
pigments yet discusses the removal of the yellowed/damaged surface layer
of white siding using a composition containing 99% dichloromethane. Id.
at 20.
Furthermore, we are not persuaded by Patent Owners’ arguments that
Baumgärtel only teaches the use of dichloromethane in “small proportions.”
Baumgärtel teaches generally that molded parts are regenerated and restored
with a swelling liquid or swelling liquid mixture composed of about “80% to
99.9% (by weight), preferably 90% to 99% (by weight), of an organic
chemical liquid or liquid mixture that swells the surface” of the
thermoplastic resin. Ex. 1002, 15. Furthermore, Example 1 of Baumgärtel
specifically teaches a composition containing 99% (by weight)
dichloromethane. Id. at 15. Patent Owners misleadingly quotes Baumgärtel
as suggesting that smaller proportions of dichloromethane (5% to about
0.1% by weight) are used (Amend. Reply 4–5), but the cited portions only
mention the amount of UV absorbers and/or light stabilizers in the
composition, and not the amount of dichloromethane or other organic
chemical liquids. Ex. 1002, 12; see also Tr. 48:1–12 (Patent Owners
counsel acknowledging that page 12 of Baumgärtel only discusses only the
amount of UV absorber).
We also are not persuaded that Baumgärtel simply follows what the
’991 patent identifies as “conventional wisdom” as compared to the claimed
invention. As we discussed with respect to the original claims, Baumgärtel’s
teaching that the composition “swells the surface of the plastic, but does not
42

160a

Case IPR2017-02158
Patent 6,669,991 B2
dissolve the resin” (Ex. 1002, 9) is fully consistent with the ’991 patent’s
teaching that “conventional wisdom suggests that the use of a matched
solvent would lead to the destruction, via solubilization, of the surface,” but
instead such use unexpectedly resulted in rejuvenation of the surface
(“believed to result from a replasticization of the vinyl surface”). Ex. 1001,
3:23–28, 5:65–66. In order words, despite the ’991 patent characterizing the
result as unexpected, Baumgärtel recognizes that rejuvenation can result
from the use of particular solvents that swell the thermoplastic resin. This
swelling of the polymer is due to increased solubility as a result of the
matched solubility parameter. See Ex. 1003, 151–53 (teaching that “solvent
molecules slowly diffuse into the polymer to produce a swollen gel” and that
matching the solubility parameter of the solvent with the polymer enhances
solubility). Although Baumgärtel may not have recognized the role of the
solubility parameter in this process, “the discovery of a previously
unappreciated property of a prior art composition, or of a scientific
explanation for the prior art’s functioning, does not render the old
composition patentably new to the discoverer.” Atlas Powder Co. v. IRECO
Inc., 190 F.3d 1342, 1347 (Fed. Cir. 1999).
Finally, we are persuaded that the experiments conducted by
Dr. Storey also support a finding of inherent anticipation by Baumgärtel.
Ex. 1022 ¶¶ 12–36. Patent Owners’ only argument as to these experiments
is that “Dr. Storey has merely confirmed what the inventor discovered and
disclosed in the ’991 patent.” Amend. Reply 6. But Dr. Storey based his
experiments on the composition of Baumgärtel’s Example 1. Although we
recognize that the 99.5% pure dichloromethane used by Dr. Storey for his
experiments did not include the 1% of additional ingredients identified in
43

161a

Case IPR2017-02158
Patent 6,669,991 B2
Example 1 (i.e., 0.3 g UV absorber, 0.3 g light stabilizer, and 0.4 g wax),
Dr. Storey attests that those additional ingredients in such small proportions
would not have materially affected the rejuvenation characteristics of
dichloromethane. Ex. 1005 ¶¶ 81–82. Despite having the right to do so
under 37 C.F.R. § 42.51(b)(1)(ii), Patent Owners did not cross-examine
Dr. Storey as to his declaration testimony in this proceeding; nor did Patent
Owners’ expert Dr. Grulke address these points in his own declaration. See
Ex. 2003 ¶ 25–29. We, therefore, credit Dr. Storey’s opinion based on his
experiments that “performing the method set forth in Baumgärtel necessarily
results in the restoration of color and luster on the surface of vinyl siding.”
Ex. 1022 ¶ 37.
Accordingly, we deny Patent Owners’ Motion to Amend.
IV.

CONCLUSION

After reviewing the entire record and weighing evidence offered by
both parties, we determine that Petitioners have shown by a preponderance
of the evidence that claims 1–11, 14, and 20–24 of the ’991 patent are
unpatentable as anticipated by Baumgärtel. We determine that Petitioners
have not shown by a preponderance of the evidence that claim 13 is
unpatentable. We also determine that Petitioners have shown by a
preponderance of the evidence that proposed substitute claims 25–35 and
37–42 are unpatentable as anticipated by Baumgärtel.

44

162a

Case IPR2017-02158
Patent 6,669,991 B2
V.

ORDER
Accordingly, it is:
ORDERED that claims 1–11, 14, and 20–24 of the ’991 patent are

determined to be unpatentable;
FURTHER ORDERED that Patent Owner’s Motion for Conditional
Amendment is denied; and
FURTHER ORDERED that, because this is a final written decision,
parties to this proceeding seeking judicial review of our Decision must
comply with the notice and service requirements of 37 C.F.R. § 90.2.

45

163a

Case IPR2017-02158
Patent 6,669,991 B2
PETITIONER:
Grantland Drutchas
Ann C. Palma
MCDONNELL BOEHNEN HULBERT & BERGHOFF LLP
drutchas@mbhb.com
palma@mbhb.com
PATENT OWNER:
Jonathan K. Waldrop
Gurtej Singh
KASOWITZ BENSON TORRES LLP
jwaldrop@kasowitz.com
gsingh@kasowitz.com

46

164a

Trials@uspto.gov
571-272-7822

Paper No. 30
Date: April 12, 2019

UNITED STATES PATENT AND TRADEMARK OFFICE
____________
BEFORE THE PATENT TRIAL AND APPEAL BOARD
____________
RUST-OLEUM CORPORATION and
RPM INTERNATIONAL, INC.,
Petitioners,
v.
ALAN STUART, TRUSTEE FOR THE CECIL G. STUART AND
DONNA M. STUART REVOCABLE LIVING TRUST AGREEMENT
and
CDS DEVELOPMENT LLC,
Patent Owners.
____________
Case IPR2017-02158
Patent 6,669,991 B2
____________

Before JO-ANNE M. KOKOSKI, CHRISTOPHER G. PAULRAJ, and
DAVID COTTA, Administrative Patent Judges.
PAULRAJ, Administrative Patent Judge.

ERRATUM TO FINAL WRITTEN DECISION
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73

165a

Case IPR2017-02158
Patent 6,669,991 B2
An error was made in our Final Witten Decision issued April 8, 2019.
Paper 29. On page 3 of that decision, we replace the sentence:
“Based on the record before us, we conclude that Petitioners have
demonstrated by a preponderance of the evidence that claims 1–11, 13, 14,
and 20–24 of the ’991 patent are unpatentable.”
with:
“Based on the record before us, we conclude that Petitioners have
demonstrated by a preponderance of the evidence that claims 1–11, 14, and
20–24 of the ’991 patent are unpatentable, but have not demonstrated by a
preponderance of the evidence that claim 13 is unpatentable.”
No other changes to the Final Written Decision are made.

PETITIONER:
Grantland Drutchas
Ann C. Palma
MCDONNELL BOEHNEN HULBERT & BERGHOFF LLP
drutchas@mbhb.com
palma@mbhb.com
PATENT OWNER:
Jonathan K. Waldrop
Gurtej Singh
KASOWITZ BENSON TORRES LLP
jwaldrop@kasowitz.com
gsingh@kasowitz.com

2

166a

APPENDIX C
Constitutional and Statutory
Provisions Involved
U.S. Const. art. II, § 2
Section 2. The President shall be Commander in
Chief of the Army and Navy of the United States, and
of the Militia of the several States, when called into
the actual Service of the United States; he may
require the Opinion, in writing, of the principal Officer
in each of the executive Departments, upon any
Subject relating to the Duties of their respective
Offices, and he shall have Power to Grant Reprieves
and Pardons for Offences against the United States,
except in Cases of Impeachment.
He shall have Power, by and with the Advice and
Consent of the Senate, to make Treaties, provided two
thirds of the Senators present concur; and he shall
nominate, and by and with the Advice and Consent of
the Senate, shall appoint Ambassadors, other public
Ministers and Consuls, Judges of the supreme Court,
and all other Officers of the United States, whose
Appointments are not herein otherwise provided for,
and which shall be established by Law: but the
Congress may by Law vest the Appointment of such
inferior Officers, as they think proper, in the
President alone, in the Courts of Law, or in the Heads
of Departments.
The President shall have Power to fill up all
Vacancies that may happen during the Recess of the
Senate, by granting Commissions which shall expire
at the End of their next Session.

167a

35 U.S.C. § 314(a)
(a) Threshold.—
The Director may not authorize an inter partes
review to be instituted unless the Director determines
that the information presented in the petition filed
under section 311 and any response filed under
section 313 shows that there is a reasonable likelihood
that the petitioner would prevail with respect to at
least 1 of the claims challenged in the petition.
35 U.S.C. § 6(c)
(c) 3-Member Panels.—
Each appeal, derivation proceeding, post-grant
review, and inter partes review shall be heard by at
least 3 members of the Patent Trial and Appeal Board,
who shall be designated by the Director. Only the
Patent Trial and Appeal Board may grant rehearings.

